No.

In the Supreme Court of the United States
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., PETITIONERS
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
EDWIN S. KNEEDLER
Deputy Solicitor General
CHRISTOPHER G. MICHEL
Assistant to the Solicitor
General
BENJAMIN H. TORRANCE
SHARON SWINGLE
BRAD HINSHELWOOD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Respondents are United States-based organizations
that receive federal funds to fight HIV/AIDS abroad.
In Agency for International Development v. Alliance
for Open Society International, Inc., 570 U.S. 205
(2013), this Court held that the First Amendment bars
enforcement of Congress’s directive that respondents
“have a policy explicitly opposing prostitution and sex
trafficking” as a condition of accepting those funds.
22 U.S.C. 7631(f ). The question presented is whether
the First Amendment further bars enforcement of that
directive with respect to legally distinct foreign entities
operating overseas that are affiliated with respondents.

(I)

PARTIES TO THE PROCEEDING

Petitioners are the United States Agency for International Development; Mark Green, in his official capacity as Administrator of the United States Agency for
International Development; the United States Department of Health and Human Services; Alex M. Azar II,
in his official capacity as Secretary of Health and Human Services; the United States Centers for Disease
Control and Prevention; and Robert R. Redfield, in his
official capacity as Director of the United States Centers for Disease Control and Prevention.
Respondents are Alliance for Open Society International, Inc.; Pathfinder International, Inc.; Global
Health Council; and InterAction. 



The Open Society Institute (OSI) was named as a party in the
caption below, see App., infra, 1a, but OSI’s claim was dismissed for
lack of standing in 2006, see 430 F. Supp. 2d 222, 277-278, and OSI
has not attempted to participate in the litigation since that time.
See, e.g., 12-10 Pet. II (not naming OSI as a party to the prior proceeding in this Court); 12-10 U.S. Br. II (same); 12-10 Resp. Br. 4-5
(describing respondents without mentioning OSI); 651 F.3d 218, 223
(naming “Plaintiffs-Appellees” and not including OSI).

(II)

RELATED PROCEEDINGS

United States District Court (S.D.N.Y.):
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 05-cv-8209 (June 29,
2006) (granting preliminary injunction)
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 05-cv-8209 (Aug. 8,
2008) (granting modified preliminary injunction)
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 05-cv-8209 (Jan. 30,
2015) (granting permanent injunction)
United States Court of Appeals (2d Cir.):
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 06-4035 (Nov. 8, 2007)
(summary order remanding case)
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 08-4917 (July 6, 2011)
(affirming preliminary injunction)
Alliance for Open Soc’y Int’l, Inc. v. United States
Agency for Int’l Dev., No. 15-974(L), 17-2126(Con)
(Dec. 20, 2018) (affirming permanent injunction)
Supreme Court of the United States:
Agency for Int’l Dev. v. Alliance for Open Soc’y Int’l,
Inc., No. 12-10 (July 22, 2013) (affirming preliminary injunction)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Constitutional, statutory, and regulatory provisions involved ..... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 14
A. The court of appeals erred in holding
unconstitutional the application of Section 7631(f )
to foreign recipients of Leadership Act funds.............. 15
1. Foreign recipients of Leadership Act funds
have no First Amendment right to defy
congressionally imposed conditions on those
funds ........................................................................... 15
2. Respondents have no First Amendment right
to exempt legally distinct foreign affiliates
operating overseas from statutory funding
conditions................................................................... 17
3. The Court’s prior decision in this case does not
resolve the question presented................................ 20
B. The question presented warrants this Court’s review .... 25
Conclusion ................................................................................... 28
Appendix A — Court of appeals opinion (Dec. 20, 2018) ...... 1a
Appendix B — Decision and order (Jan. 30, 2015) .............. 46a
Appendix C — Decision and order (June 6, 2017)............... 61a
Appendix D — Court of appeals amended order
(May 10, 2019) ............................................ 72a
Appendix E — Court of appeals order (May 21, 2019) ....... 74a
Appendix F — Preliminary injunction order
(June 29, 2006) ........................................... 76a
Appendix G — Statutory and regulatory provisions .......... 82a
Appendix H — Acquisition and assistance policy
directives (AAPD) from the Director,
Office of Acquisition & Assistance:
AAPD 12-04 (Feb. 15, 2012) ............. 120a
AAPD 14-04 (Sept. 12, 2014) ............ 128a
(V)

VI
TABLE OF AUTHORITIES

Cases:

Page

Ashcroft v. ACLU, 542 U.S. 656 (2004) ............................... 26
Cedric Kushner Promotions, Ltd. v. King,
533 U.S. 158 (2001).............................................................. 17
Center for Reprod. Law & Policy v. Bush,
304 F.3d 183 (2d Cir. 2002) .......................................... 12, 25
DKT Mem’l Fund Ltd. v. Agency for Int’l Dev.,
887 F.2d 275 (D.C. Cir. 1989) ....................................... 16, 25
Daimler AG v. Bauman, 571 U.S. 117 (2014) .............. 17, 20
FCC v. League of Women Voters, 468 U.S. 364
(1984) .............................................................................. 19, 26
Holder v. Humanitarian Law Project, 561 U.S. 1
(2010) .................................................................................... 26
Iancu v. Brunetti, 139 S. Ct. 2294 (2019) ............................ 25
Kleindienst v. Mandel, 408 U.S. 753 (1972) ....................... 16
Matal v. Tam, 137 S. Ct. 1744 (2017)................................... 25
Planned Parenthood Fed’n of Am., Inc. v. Agency
for Int’l Dev., 915 F.2d 59 (2d Cir. 1990),
cert. denied, 500 U.S. 952 (1991) ................................. 12, 25
Regan v. Taxation With Representation,
461 U.S. 540 (1983).......................................17, 18, 19, 23, 26
Rumsfeld v. Forum for Acad. & Institutional
Rights, Inc., 547 U.S. 47 (2006) ............................. 15, 16, 26
Rust v. Sullivan, 500 U.S. 173 (1991) ............................ 15, 19
South Dakota v. Dole, 483 U.S. 203 (1987).......................... 15
United States v. Alvarez, 567 U.S. 709 (2012) .................... 26
United States v. American Library Ass’n, Inc.,
539 U.S. 194 (2003).................................................. 15, 16, 26
United States v. Stevens, 559 U.S. 460 (2010) .................... 26
United States v. Verdugo-Urquidez, 494 U.S. 259
(1990) .................................................................................... 16

VII
Cases—Continued:

Page

United States v. Williams, 553 U.S. 285 (2008) ................. 26
United States ex rel. Turner v. Williams,
194 U.S. 279 (1904).............................................................. 16
Constitution, statutes, and regulation:
U.S. Const.:
Art. I, § 8, Cl. 1 ............................................................ 9, 15
Amend. I ........................................................... 2, 14, 19, 28
PEPFAR Extension Act of 2018, Pub. L. No.
115-305, 132 Stat. 4402 ......................................................... 5
PEPFAR Stewardship and Oversight Act of 2013,
Pub. L. No. 113-56, 127 Stat. 648 ........................................ 5
Tom Lantos and Henry J. Hyde United States
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008,
Pub. L. No. 110-293, 122 Stat. 2918 .................................... 5
United States Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Act of 2003,
22 U.S.C. 7601 et seq. ........................................................ 4, 6
22 U.S.C. 7601 ............................................................ 4, 86a
22 U.S.C. 7601(1) ....................................................... 3, 86a
22 U.S.C. 7601(2) ....................................................... 3, 87a
22 U.S.C. 7601(4) ....................................................... 3, 87a
22 U.S.C. 7601(10) ..................................................... 3, 89a
22 U.S.C. 7601(10)(A) ................................................ 3, 89a
22 U.S.C. 7601(18) ..................................................... 5, 92a
22 U.S.C. 7601(23) ............................................... 4, 26, 95a
22 U.S.C. 7611(a) ..................................................... 4, 102a
22 U.S.C. 7611(a)(12) ......................................... 4, 26, 106a
22 U.S.C. 7611(a)(12)(F) ....................................... 4, 107a
22 U.S.C. 7611(a)(12)(H) ....................................... 4, 107a
22 U.S.C. 7611(a)(12)(J) ........................................ 4, 108a

VIII
Statutes and regulation—Continued:

Page

22 U.S.C. 7621(a)(4) ................................................. 5, 113a
22 U.S.C. 7631(e) ..................................................... 5, 114a
22 U.S.C. 7631(f )............................................ passim, 114a
22 U.S.C. 7671 .................................................................... 4
22 U.S.C. 2151b-2..................................................................... 4
22 U.S.C. 2151b-2(a) ........................................................ 3, 82a
22 U.S.C. 2151b-2(c)(2) .................................................... 5, 85a
26 U.S.C. 501(c)(3) ..................................................... 18, 19, 23
26 U.S.C. 501(c)(4) ..................................................... 18, 19, 23
45 C.F.R. 89.3 ................................................................. 8, 114a
Miscellaneous:
H.R. Rep. No. 1014, 115th Cong., 2d Sess. (2018) .......... 6, 27
U.S. PEPFAR, PEPFAR 2019 Country Operational
Plan Guidance for All PEPFAR Countries
(FY 2019), https://go.usa.gov/xye56 .................................. 27

In the Supreme Court of the United States
No.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., PETITIONERS
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States
Agency for International Development (USAID), the
United States Department of Health and Human Services (HHS), the United States Centers for Disease
Control and Prevention, and officials of those agencies,
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Second Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a45a) is reported at 911 F.3d 104. The order of the district court granting a permanent injunction (App., infra, 46a-60a) is reported at 106 F. Supp. 3d 355. The
order of the district court denying reconsideration
(App., infra, 61a-72a) is reported at 258 F. Supp. 3d 391.
(1)

2
This Court’s previous opinion in this case is reported
at 570 U.S. 205. An earlier opinion of the court of appeals is reported at 651 F.3d 218. Earlier relevant opinions of the district court are reported at 430 F. Supp. 2d
222 and 570 F. Supp. 2d 533.
JURISDICTION

The judgment of the court of appeals was entered on
December 20, 2018. A petition for rehearing was denied
on May 9, 2019. See App., infra, 72a-73a (amended order). The jurisdiction of this Court is invoked under
28 U.S.C. 1254(1).
CONSTITUTIONAL, STATUTORY, AND REGULATORY
PROVISIONS INVOLVED

The First Amendment to the United States Constitution provides in pertinent part that “Congress shall
make no law * * * abridging the freedom of speech.”
Section 7631(f ) of Title 22 provides:
No funds made available to carry out this chapter,
or any amendment made by this chapter, may be
used to provide assistance to any group or organization that does not have a policy explicitly opposing
prostitution and sex trafficking, except that this subsection shall not apply to the Global Fund to Fight
AIDS, Tuberculosis and Malaria, the World Health
Organization, the International AIDS Vaccine Initiative or to any United Nations agency.
22 U.S.C. 7631(f ).
Other pertinent statutory and regulatory provisions
are reprinted in the appendix to this petition. App., infra, 82a-119a.
STATEMENT

Respondents are United States-based organizations
that receive federal funds to fight HIV/AIDS abroad.

3
In 2005, respondents sought to enjoin enforcement of
the statutory directive that they “have a policy explicitly opposing prostitution and sex trafficking” as a condition of accepting those funds. 22 U.S.C. 7631(f ). The
district court granted preliminary injunctions barring
enforcement of Section 7631(f ) against respondents.
570 F. Supp. 2d 533; 430 F. Supp. 2d 222. The court of
appeals affirmed, 651 F.3d 218, and this Court affirmed,
570 U.S. 205. Respondents then sought a permanent injunction barring the government from enforcing Section 7631(f ) against both them and their legally distinct
foreign affiliates. The district court granted their requested injunction. App., infra, 46a-60a. The court of
appeals affirmed. Id. at 1a-45a.
1. During the 1980s and 1990s, HIV/AIDS “assumed
pandemic proportions, spreading * * * to all corners of
the world, and leaving an unprecedented path of death
and devastation.” 22 U.S.C. 7601(1). By 2003, more
than 65 million people had been infected and more than
25 million had died, making HIV/AIDS the “fourthhighest cause of death in the world.” 22 U.S.C. 7601(2).
In sub-Saharan Africa, HIV/AIDS was expected to
“claim the lives of one-quarter of the population * * *
in the next decade.” 22 U.S.C. 7601(4).
In addition to its humanitarian toll, HIV/AIDS posed
a “serious security issue for the international community.” 22 U.S.C. 7601(10). The uncontrolled spread of
HIV/AIDS created the “potential for political instability and economic devastation, particularly in those
countries and regions most severely affected by the disease.” 22 U.S.C. 7601(10)(A). HIV/AIDS thus presented “a major global health, national security, development, and humanitarian crisis.” 22 U.S.C. 2151b-2(a).

4
In 2003, President George W. Bush proposed and
Congress enacted the United States Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(Leadership Act or Act), 22 U.S.C. 7601 et seq. The Act
set forth detailed findings about the harms caused by
HIV/AIDS and authorized billions of dollars for the
President’s Emergency Plan for AIDS Relief (PEPFAR). See 22 U.S.C. 2151b-2, 7601, 7671. The Act also
provided extensive direction on the use of those funds,
specifying that they be spent on, inter alia, HIV/AIDS
prevention, treatment, and care. 22 U.S.C. 7611(a). Of
central relevance here, the Act directed that “the reduction of HIV/AIDS behavioral risks” must be “a priority
of all prevention efforts.” 22 U.S.C. 7611(a)(12).
The Leadership Act devoted particular attention to
reducing behavioral risks created by the sex industry.
Congress found that the “sex industry, the trafficking
of individuals into such industry, and sexual violence
are * * * causes of and factors in the spread of the
HIV/AIDS epidemic.” 22 U.S.C. 7601(23). The Act
stated that it “should be the policy of the United States
to eradicate” the practices of “[p]rostitution and other
sexual victimization,” which are “degrading to women
and children.” Ibid. And the Act mandated that funds
be spent, inter alia, “educating men and boys about the
risks of procuring sex commercially,” promoting “alternative livelihoods, safety, and social reintegration strategies for commercial sex workers and their families,”
and “working to eliminate rape, gender-based violence,
sexual assault, and the sexual exploitation of women and
children.” 22 U.S.C. 7611(a)(12)(F), (H), and (J).
In addition to specifying how Leadership Act funds
may be spent, Congress provided direction about who
may spend them. The Leadership Act recognized that

5
“[n]ongovernmental organizations * * * have proven
effective in combating the HIV/AIDS pandemic,”
22 U.S.C. 7601(18), and would be “critical to the success
of * * * efforts to combat HIV/AIDS,” 22 U.S.C.
7621(a)(4). The Leadership Act accordingly provided
that “an appropriate level of ” funds should be disbursed
to “nongovernmental organizations” in “areas affected
by the HIV/AIDS pandemic.” 22 U.S.C. 2151b-2(c)(2).
To ensure that nongovernmental organizations receiving Leadership Act funds complied with Congress’s
priorities—including its objectives of eradicating prostitution and sex trafficking, see p. 4, supra—Congress
established two conditions on Leadership Act funds.
First, no Leadership Act funds “may be used to promote or advocate the legalization or practice of prostitution or sex trafficking.” 22 U.S.C. 7631(e). Second,
and centrally relevant here, no Leadership Act funds
“may be used to provide assistance to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking.” 22 U.S.C. 7631(f ).
That condition does not “apply to the Global Fund to
Fight AIDS, Tuberculosis and Malaria, the World
Health Organization, the International AIDS Vaccine
Initiative or to any United Nations agency.” Ibid.
Since 2003, Congress has repeatedly authorized—
and Presidents Bush, Obama, and Trump have each
approved—additional funds for PEPFAR. See Tom
Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Reauthorization Act of 2008, Pub. L. No. 110-293, 122
Stat. 2918; PEPFAR Stewardship and Oversight Act of
2013, Pub. L. No. 113-56, 127 Stat. 648; PEPFAR Extension Act of 2018, Pub. L. No. 115-305, 132 Stat. 4402.
All told, the United States has committed “a total of

6
$79.7 billion for PEPFAR.” H.R. Rep. No. 1014, 115th
Cong., 2d Sess. 6 (2018) (House Report). That commitment has “changed the course of the HIV/AIDS pandemic.” Id. at 4. When the Leadership Act was enacted,
“fewer than 50,000 people living with HIV/AIDS in subSaharan Africa had access to life-saving antiretroviral
treatment.” Ibid. That number now stands at more
than 14 million. Id. at 6. PEPFAR has also provided
voluntary testing and counseling services “for over 85.5
million people, helped avert 2.2 million infections among
babies born to HIV-positive mothers, * * * and provided palliative care for 6.4 million” orphans and vulnerable children. Ibid. PEPFAR amounts to the “largest
bilateral global health initiative aimed at combatting a
single disease in history.” Id. at 3.
2. Respondents are “a group of domestic organizations engaged in combating HIV/AIDS overseas.” 570
U.S. at 210. Respondents receive “substantial private
funding” for that work. Ibid. After enactment of the
Leadership Act, respondents applied for Leadership
Act funds to support their HIV/AIDS relief projects
abroad. See id. at 210-211. Respondents, however, objected to the condition that recipients of Leadership Act
funds “have a policy explicitly opposing prostitution and
sex trafficking.” 22 U.S.C. 7631(f ). Although respondents “do not support * * * prostitution,” 12-10 Resp.
Br. 11, they believe that adopting a policy opposing
prostitution “may alienate certain host governments,
and may diminish the effectiveness of some of their programs by making it more difficult to work with prostitutes in the fight against HIV/AIDS,” 570 U.S. at 211.
Initially, respondents were able to receive Leadership Act funds despite their unwillingness to comply

7
with Section 7631(f ). Following a “tentative” determination by the Department of Justice that Section
7631(f ) could constitutionally be applied only to “nonU.S.” funding recipients, HHS and USAID issued guidance requiring that ‘‘non-U.S. non-governmental organizations * * * agree that they have a policy explicitly
opposing” prostitution and sex trafficking. 430 F. Supp.
2d at 234 (citations omitted). Because respondents are
U.S.-based organizations, they were “not * * * subject
to” Section 7631(f ) under the government’s initial approach. Id. at 235. Respondents did not contest the application of Section 7631(f ) to foreign recipients of
Leadership Act funds.
In 2005, the Justice Department reconsidered its position and determined that “reasonable arguments”
could be made in support of applying Section 7631(f ) to
U.S.-based funding recipients. 430 F. Supp. 2d at 234
(citation omitted). HHS and USAID then began requiring U.S.-based recipients of Leadership Act funds to
state in their funding award agreements that they have
a policy opposing prostitution and sex trafficking.
Id. at 234-235. Failure to make such a statement was a
ground for termination of funding. Ibid.
3. Respondents filed an action in federal district
court seeking to enjoin HHS and USAID from revoking
their Leadership Act funds based on their refusal to
comply with Section 7631(f ). 430 F. Supp. 2d at 237.
The court concluded that respondents were likely to
succeed on their claim that Section 7631(f ) “as applied
to” them “falls squarely beyond what the Supreme
Court has permitted to date as conditions of government financing.” Id. at 255. The court accordingly entered an injunction barring the government from en-

8
forcing Section 7631(f ) against respondents or requiring respondents to enforce Section 7631(f ) “against
their United States-based sub-recipients, sub-grantees,
and sub-contractors.” App., infra, 78a. Respondents
did not request, and the injunction did not require, that
the government refrain from enforcing Section 7631(f )
against foreign recipients.
4. The government appealed to the Second Circuit.
While that appeal was pending, HHS and USAID issued
guidelines clarifying that a Leadership Act funding recipient could work with an affiliated organization that
“engages in activities inconsistent with the recipient’s
opposition to the practices of prostitution and sex trafficking,” so long as the recipient maintains “objective
integrity and independence from such an organization.”
45 C.F.R. 89.3 (HHS guidelines); see App., infra, 120a127a (USAID guidelines). The Second Circuit remanded for the district court to reconsider its decision
in light of the affiliate guidelines. 254 Fed. Appx. 843.
The district court again entered an injunction barring enforcement of Section 7631(f ) against respondents, see 570 F. Supp. 2d at 550, and a divided Second
Circuit affirmed, see 651 F.3d at 223-224. The Second
Circuit majority agreed with the district court that Section 7631(f ), as applied to respondents, is an impermissible funding condition. Id. at 234. The majority distinguished prior decisions upholding “a restriction on the
First Amendment activities of foreign NGOs receiving
U.S. government funds.” Id. at 238. The majority emphasized that respondents’ “challenge here is to the impact of the Policy Requirement on domestic NGOs.”
Ibid. “Indeed,” the majority added, HHS and USAID
“have applied the Policy Requirement to foreign organizations since its inception, without challenge.” Ibid.

9
Judge Straub dissented, concluding that Section
7631(f ) was a permissible “exercise of Congress’s powers pursuant to the Spending Clause.” 651 F.3d at 240.
The government sought rehearing en banc, which
the Second Circuit denied over a dissent by Judges
Cabranes, Raggi, and Livingston. 678 F.3d 127.
5. This Court granted the government’s petition for
a writ of certiorari and affirmed. 570 U.S. at 212, 221.
The Court explained that Congress’s spending
power, see U.S. Const. Art. I, § 8, Cl. 1, “includes the
authority to impose limits on the use of ” federal “funds
to ensure they are used in the manner Congress intends,” 570 U.S. at 213. “As a general matter, if a party
objects to a condition on the receipt of federal funding,
its recourse is to decline the funds.” Id. at 214. “At the
same time,” the government “ ‘may not deny a benefit to
a person on a basis that infringes his constitutionally
protected . . . freedom of speech.’ ” Ibid. (citation omitted). The “relevant distinction,” the Court explained,
“is between conditions that define the limits of the government spending program—those that specify the activities Congress wants to subsidize—and conditions
that seek to leverage funding to regulate speech outside
the contours of the program itself.” Id. at 214-215.
The Court concluded that the funding condition in
Section 7631(f ) “falls on the unconstitutional side of the
line.” 570 U.S. at 217. “By demanding that funding recipients adopt—as their own—the Government’s view
on an issue of public concern,” the Court reasoned, Section 7631(f ) “by its very nature affects ‘protected conduct outside the scope of the federally funded program.’ ” Id. at 218 (citation omitted).

10
The Court then considered whether the “affiliate
guidelines, established while this litigation was pending, save the program.” 570 U.S. at 219. As the Court
explained, the government contended that:
[T]he guidelines alleviate any unconstitutional burden on respondents’ First Amendment rights by allowing them to either: (1) accept Leadership Act
funding and comply with the Policy Requirement,
but establish affiliates to communicate contrary
views on prostitution; or (2) decline funding themselves (thus remaining free to express their own
views or remain neutral), while creating affiliates
whose sole purpose is to receive and administer
Leadership Act funds, thereby “cabin[ing] the effects” of the Policy Requirement within the scope of
the federal program.
Ibid. (quoting 12-10 U.S. Br. 38-39, 44-49) (brackets in
original). The Court rejected that contention, explaining:
Neither approach is sufficient. When we have noted
the importance of affiliates in this context, it has
been because they allow an organization bound by a
funding condition to exercise its First Amendment
rights outside the scope of the federal program. Affiliates cannot serve that purpose when the condition
is that a funding recipient espouse a specific belief
as its own. If the affiliate is distinct from the recipient, the arrangement does not afford a means for
the recipient to express its beliefs. If the affiliate is
more clearly identified with the recipient, the recipient can express those beliefs only at the price of evident hypocrisy.
Ibid. (citation omitted).

11
In sum, the Court concluded, Section 7631(f ) “compels as a condition of federal funding the affirmation of
a belief that by its nature cannot be confined within the
scope of the Government program,” and thus “violates
the First Amendment.” 570 U.S. at 221.
Justice Scalia dissented, joined by Justice Thomas.
570 U.S. at 221. Justice Kagan did not participate. Ibid.
6. Following this Court’s decision, HHS and USAID
issued notices stating that they would not apply Section
7631(f ) to U.S.-based recipients of Leadership Act
funds, but would continue to apply Section 7631(f ) to
non-U.S. recipients, as they had since enactment of the
statute. App., infra, 116a-119a, 128a-132a. Respondents then moved to convert the preliminary injunction
issued by the district court into a permanent injunction,
and to apply the injunction to both themselves and foreign organizations operating overseas that are affiliated
with them. Id. at 47a-48a. After receiving letters from
the parties, the court granted both requests. Id. at 59a60a. In the court’s view, applying Section 7631(f ) to respondents’ foreign affiliates would violate respondents’
own First Amendment rights by presenting the choice
“between forced speech and paying ‘the price of evident
hypocrisy.’ ” Id. at 55a (quoting 570 U.S. at 219). The
court accordingly issued the expanded injunction respondents sought. Id. at 59a-60a. The court subsequently denied the government’s request for reconsideration. Id. at 61a-71a.
7. After staying the injunction pending appeal, see
App., infra, 6a, a divided panel of the court of appeals
affirmed the injunction, id. at 1a-45a.
a. The panel majority framed the issue before it as
“whether applying the Policy Requirement to” respond-

12
ents’ “legally distinct” but “closely aligned foreign affiliates violates [respondents’] own First Amendment
rights.” App., infra, 4a, 7a. In the majority’s view,
this Court’s 2013 decision had “considered this question” and “resolved it in [respondents’] favor.” Id. at 7a.
Specifically, the majority held that requiring respondents’ foreign “affiliates to abide by the Policy Requirement would require the closely related—and often
indistinguishable—[respondents] to be seen as simultaneously asserting two conflicting messages,” thereby
presenting the “ ‘evident hypocrisy’ ” this Court discussed. Id. at 9a-10a (quoting 570 U.S. at 219).
The panel majority acknowledged the government’s
argument “that foreign organizations like [respondents’] affiliates do not possess First Amendment
rights.” App., infra, 10a. But the majority reiterated
its view that “[i]t is the First Amendment rights of the
domestic [respondents] that are violated when the Policy Requirement compels them to ‘choose between
forced speech and paying “the price of evident hypocrisy.” ’ ” Ibid. (citation omitted). The majority also rejected the government’s reliance on the Second Circuit’s prior decisions in Planned Parenthood Federation of America, Inc. v. Agency for International Development, 915 F.2d 59 (1990), cert. denied, 500 U.S. 952
(1991), and Center for Reproductive Law & Policy v.
Bush, 304 F.3d 183 (2002) (Sotomayor, J.) (CRLP), in
which the court rejected First Amendment challenges
by domestic organizations to the Mexico City Policy—
“a funding condition requiring foreign organizations to
agree not to promote abortion.” App., infra, 11a. In the
majority’s view, those precedents were distinguishable
because they involved “mere potential [foreign] part-

13
ners” of domestic organizations, rather than “homogenous” foreign organizations that “share” the domestic
organizations’ “names, logos, and brands,” and also
because the organizations in those cases “were not
compelled to make contradictory statements.” Id. at
11a-12a.
b. Judge Straub dissented. App., infra, 14a-45a. He
explained that the majority’s holding “requires the
United States to fund the activities of foreign organizations, which have no constitutional rights, despite
their refusal to comply with our government’s funding
condition”—a “startling holding” for which “[t]here is
no support.” Id. at 14a. Judge Straub emphasized that,
prior to 2014, respondents had repeatedly “made clear
that they did not dispute that the Policy Requirement
could be constitutionally applied to any foreign organization, including their foreign partners or affiliates,”
and had “raised only an ‘as-applied’ challenge.” Id. at
15a-16a, 23a (citation omitted). Given that backdrop, he
explained, this Court “never had any reason to consider” whether Section 7631(f ) could be applied to respondents’ foreign affiliates. Id. at 15a.
In Judge Straub’s view, the majority erred by treating respondents and their legally distinct foreign affiliates as “one entity for First Amendment free speech
purposes,” thereby creating an unprecedented right for
“United States-based organizations to export their own
First Amendment rights to foreign organizations.”
App., infra, 44a-45a. Judge Straub instead would have
analyzed respondents’ claim as an assertion of a “right
to associate with foreign organizations,” would have rejected that claim under the Second Circuit’s decisions
upholding the Mexico City Policy in Planned Parenthood and CRLP, and would have concluded that Section

14
7631(f ) “may constitutionally be applied to any foreign
organization, including [respondents’] ‘clearly identified’ foreign affiliates.” Id. at 37a, 44a-45a.
The government sought rehearing en banc, which
the court of appeals denied. App., infra, 72a-73a. Judge
Straub noted his dissent. Id. at 73a. The court stayed
its mandate pending the government’s decision whether
to file a petition for a writ of certiorari. Id. at 74a-75a.
REASONS FOR GRANTING THE PETITION

The divided court of appeals held that the First
Amendment forbids Congress from enforcing a condition on federal funds accepted by foreign recipients operating overseas because a separate, affiliated entity in
the United States objects to that condition. The majority below did not articulate any constitutional principle
to support that position, and none exists. Foreign recipients of federal funds operating overseas have no
First Amendment right to object to conditions on those
funds. Nor can they acquire such a right by affiliating
with a domestic entity. And while a domestic entity can
object to a condition on its own speech, it has no basis
to object to a condition on the speech of a legally separate foreign organization operating overseas. The First
Amendment rights of a U.S. entity belong to that entity
alone; they cannot be borrowed, shared, or exported.
The majority below reached a contrary result based
on its misreading of a few sentences in this Court’s prior
decision in this case. But this Court held only that
respondents—“a group of domestic organizations engaged in combating HIV/AIDS overseas”—cannot be
subjected to the condition in Section 7631(f ). 570 U.S.
at 210. The Court did not suggest that respondents
have an additional right to negate the condition on funds
accepted by legally distinct foreign entities operating

15
overseas. The court of appeals’ invalidation of a federal
statute on constitutional grounds alone warrants certiorari. And review is especially appropriate because the
decision below will affect billions of taxpayer dollars
distributed through one of America’s most significant
and successful foreign-aid programs.
A. The Court Of Appeals Erred In Holding Unconstitutional
The Application Of Section 7631(f ) To Foreign
Recipients Of Leadership Act Funds

The panel majority erred by holding unconstitutional
the application of Section 7631(f ) to foreign recipients
of Leadership Act funds that have affiliates in the
United States. No decision of this Court, including its
earlier decision in this case, supports the “startling”
proposition that Congress may not impose a speechrelated funding condition on a foreign entity operating
overseas simply because that entity has a U.S. affiliate
that opposes the condition. App., infra, 14a (Straub, J.,
dissenting). This Court should grant certiorari and reverse the misguided decision below.
1. Foreign recipients of Leadership Act funds have no
First Amendment right to defy congressionally
imposed conditions on those funds

Under its spending power conferred by the Constitution, Art. I, § 8, Cl. 1, Congress has broad authority
both to direct the distribution of federal funds and to
“impose limits on the use of such funds.” 570 U.S. at
213; see, e.g., Rumsfeld v. Forum for Acad. & Institutional Rights, Inc., 547 U.S. 47, 59 (2006) (FAIR);
United States v. American Library Ass’n, Inc., 539 U.S.
194, 212 (2003) (plurality opinion); Rust v. Sullivan, 500
U.S. 173, 195-196 & n.4 (1991); South Dakota v. Dole,
483 U.S. 203, 206 (1987). “As a general matter, if a party

16
objects to a condition on the receipt of federal funding,
its recourse is to decline the funds.” 570 U.S. at 214.
Under this Court’s unconstitutional-conditions cases,
however, the government “may not deny a benefit to a
person on a basis that infringes his constitutionally protected . . . freedom of speech even if he has no entitlement to that benefit.” Ibid. (citation omitted).
Respondents and the court below appear to agree
that foreign recipients of Leadership Act funds operating overseas have no constitutional basis to defy the funding condition in Section 7631(f ). The unconstitutionalconditions doctrine applies only where a party can invoke
a “constitutionally protected” right. 570 U.S. at 214
(quoting FAIR, 547 U.S. at 59). Thus, “entities [that]
do not have First Amendment rights” may not “assert
an ‘unconstitutional conditions’ claim.” American Library Ass’n, 539 U.S. at 210-211 (plurality opinion).
And there is no dispute that foreign entities operating
overseas, like aliens outside this country, have no First
Amendment rights applicable here. See, e.g., United
States v. Verdugo-Urquidez, 494 U.S. 259, 265 (1990);
Kleindienst v. Mandel, 408 U.S. 753, 762 (1972); United
States ex rel. Turner v. Williams, 194 U.S. 279, 292
(1904); see also Mandel, 408 U.S. at 771 (Douglas, J.,
dissenting) (“[A]n alien * * * has no First Amendment
rights while outside the Nation.”); DKT Mem’l Fund
Ltd. v. Agency for Int’l Dev., 887 F.2d 275, 284 (D.C.
Cir. 1989) (“[A]liens beyond the territorial jurisdiction
of the United States are generally unable to claim the
protections of the First Amendment.”).
Respondents and the court of appeals also appear to
agree that a foreign recipient of Leadership Act funds
operating overseas does not somehow acquire First

17
Amendment rights of its own by affiliating with a “legally distinct” entity in the United States. App., infra,
4a. Under basic principles of corporate law, legally distinct entities, such as a parent organization and its separately incorporated subsidiary, have “different rights
and responsibilities due to [their] different legal status.” Cedric Kushner Promotions, Ltd. v. King, 533
U.S. 158, 163 (2001). Those “different rights” include
different constitutional entitlements (or lack thereof ).
Ibid.; see, e.g., Daimler AG v. Bauman, 571 U.S. 117,
134-136 (2014). Indeed, this Court has expressly relied
on distinctions between corporate entities in assessing
First Amendment objections to statutory funding conditions. See Regan v. Taxation With Representation,
461 U.S. 540, 544 (1983). The court of appeals accordingly recognized that only “the First Amendment rights
of the domestic [respondents]” could potentially be “violated” by enforcement of Section 7631(f ) against their
foreign affiliates. App., infra, 10a; see id. at 36a
(Straub, J., dissenting) (“It is undisputed that [respondents’] foreign affiliates lack First Amendment rights because they are foreign organizations operating outside
the United States.”).
2. Respondents have no First Amendment right to
exempt legally distinct foreign affiliates operating
overseas from statutory funding conditions

Although the panel majority correctly acknowledged
that foreign recipients of Leadership Act funds operating overseas have no First Amendment right to defy
Section 7631(f ), see App., infra, 10a, the majority nevertheless held that Section 7631(f ) cannot be applied to
such foreign recipients because doing so would violate
the First Amendment rights of respondents—their “le-

18
gally distinct” domestic affiliates, id. at 4a. That reasoning does not follow. As just discussed, core principles of corporate law dictate that legally separate entities exercise separate legal rights. See p. 17, supra.
Just as a foreign recipient of federal funds operating
overseas cannot borrow the First Amendment rights of
a legally distinct domestic affiliate, so too a domestic organization cannot share its First Amendment rights
with a legally distinct foreign affiliate operating overseas. Neither respondents nor the courts below identified any case in which domestic organizations have been
allowed “to export their own First Amendment rights
to foreign organizations” operating overseas in such a
manner. App., infra, 45a (Straub, J., dissenting).
In reaching a contrary result, the majority suggested that this Court’s 2013 holding that respondents
are no longer subject to the funding condition in Section
7631(f ) means that its affiliates cannot be subjected to
that condition either. App., infra, 7a-8a (citing 570 U.S.
at 219). That understanding is mistaken. In its 2013
decision, this Court reviewed its funding-condition
precedents and explained that, under those precedents,
affiliates can “allow an organization bound by a funding
condition to exercise its First Amendment rights outside the scope of the federal program.” 570 U.S. at 219.
For example, the Court explained, Regan upheld a condition barring a nonprofit organization that claimed taxexempt status under 26 U.S.C. 501(c)(3) from engaging
in lobbying. 570 U.S. at 215. The Court upheld the condition because it “did not prohibit” the nonprofit “from
lobbying Congress altogether.” Ibid.; see Regan, 461
U.S. at 544-545. Rather, the nonprofit could comply
with the funding condition while “separately incorporating” an entity under 26 U.S.C. 501(c)(4) that could

19
engage in lobbying. 570 U.S. at 215. That arrangement
ensured that the funding condition “did not deny the organization a government benefit” as the price of exercising its First Amendment rights. Ibid.; see Regan,
461 U.S. at 544.
Critically, however, Regan did not suggest that the
Section 501(c)(3) entity could escape the funding condition simply because the “affiliated” Section 501(c)(4) entity was not subject to it. App., infra, 13a-14a. Quite
the opposite, the possibility of creating the Section
501(c)(4) affiliate was the reason the Court upheld enforcement of the funding condition against the Section
501(c)(3) entity. See 570 U.S. at 215; Regan, 461 U.S. at
544-545; see also Rust, 500 U.S. at 197 (describing Regan in similar terms). Regan and its progeny thus indicate that a funding condition does not violate the First
Amendment if an entity complying with that condition
can establish a separate affiliate that allows it to speak
freely. See 570 U.S. at 215-219; FCC v. League of
Women Voters, 468 U.S. 364, 400 (1984) (stating that enforcement of a funding condition against one organization would “plainly be valid” if an affiliate could be created to engage in the speech barred by the condition).
The cases do not suggest, as the majority below believed, that lifting a funding condition with respect to
one affiliate (such as respondents) required lifting the
funding condition with respect to all affiliates (such as
the separate foreign entities at issue here).
Perhaps recognizing that flaw in its reasoning, the
panel majority alternatively suggested that respondents and their foreign affiliates, although “legally distinct,” should in fact be considered the “same[]” for
First Amendment purposes. App., infra, 4a, 11a; see id.

20
at 11a (declaring respondents and their separate affiliates “homogenous”). The majority, however, did not
identify any source of authority to pronounce that two
legally distinct entities had become one for purposes of
assessing the constitutionality of a funding condition
imposed only on the foreign entity. Nor did the court
explain how respondents’ practice of “shar[ing] * * *
names, logos, and brands with their foreign affiliates”
could render the separate entities a single entity under
any accepted legal standard. Id. at 11a; see id. at 45a
(Straub, J., dissenting) (observing that no decision of
“the Supreme Court, nor any court” supported the majority’s treatment of respondents and their affiliates as
a single entity); cf. Daimler, 571 U.S. at 134-135 (declining to subject a foreign corporation to general jurisdiction of U.S. courts based on the contacts of its legally
distinct subsidiary). Respondents and their foreign affiliates are “legally distinct” entities, App., infra, 4a,
and they must be treated as such.
3. The Court’s prior decision in this case does not
resolve the question presented

Without any other support for its novel holding, the
panel majority relied almost entirely on its understanding of a few sentences in this Court’s prior decision. In
particular, the majority focused on this Court’s statement that the First Amendment problems with enforcing Section 7631(f ) against respondents could not be alleviated through affiliates without producing “evident
hypocrisy.” 570 U.S. at 219; see App., infra, 7a (“The
Supreme Court’s decision considered this question and
resolved it in [respondents’] favor.”); App., infra, 11a
(describing this Court’s “articulation of ‘evident hypocrisy’ as [its] lodestar”). The majority, however, misread
this Court’s decision, which neither considered the

21
question presented here nor provided any basis for resolving it in respondents’ favor.
As discussed above, the question before this Court in
2013 was whether respondents, “a group of domestic organizations engaged in combating HIV/AIDS overseas,” had a First Amendment right to accept Leadership Act funds without complying with Section 7631(f ).
570 U.S. at 210. The Court concluded that respondents
had such a right, because Section 7631(f ) required them
to “adopt—as their own—the Government’s view on an
issue of public concern” and thereby impermissibly affected “ ‘protected conduct outside the scope of the federally funded program.’ ” Id. at 218 (citation omitted).
The bottom line of the Court’s holding was straightforward: Section 7631(f ) can no longer be applied to respondents. HHS and USAID accordingly stopped enforcing Section 7631(f ) against respondents—and also
against all domestic recipients of Leadership Act funds,
each of whom could assert the same constitutional claims
as respondents. See p. 11, supra. All U.S. funding recipients can thus now accept Leadership Act funds without
adopting any policy on prostitution.
Despite having received all the relief they sought, respondents pursued—and the courts below approved—
an expansion of the injunction to cover respondents’ legally distinct foreign affiliates. Respondents based that
request almost entirely on this Court’s 2013 discussion
of why the affiliate guidelines could not “save” the government’s position that Section 7631(f ) could be constitutionally applied to respondents themselves. 570 U.S.
at 219. Specifically, this Court explained that affiliates
could “allow an organization bound by a funding condition to exercise its First Amendment rights outside the

22
scope of the federal program,” but that affiliates “cannot serve that purpose when,” as here, “the condition is
that a funding recipient espouse a specific belief as its
own.” Ibid. To illustrate why, the Court explained: “If
the affiliate is distinct from the recipient, the arrangement does not afford a means for the recipient to express its beliefs. If the affiliate is more clearly identified with the recipient, the recipient can express those
beliefs only at the price of evident hypocrisy.” Ibid.
The panel majority interpreted the final sentence of
this Court’s discussion to create a freestanding First
Amendment protection against funding conditions that
create a perception of hypocrisy, even if those conditions are enforced exclusively against separate legal entities. See App., infra, 9a-10a (“[W]hen the Government
requires contrasting, hypocritical messages between
domestic and foreign affiliates by making one speak the
Government’s message, this requirement infringes the
speech of the domestic affiliate and, in so doing, violates
the First Amendment.”). That reading reflects a serious misunderstanding of this Court’s opinion. The
Court discussed the prospect of hypocrisy only to explain why the affiliate guidelines could not “save” the
application of Section 7631(f ) to respondents. 570 U.S.
at 219. The Court did not create a separate, affirmative
right for an organization to have affiliates that do not
contradict its own views. The Court’s discussion of affiliates proceeded on the premise that respondents were
“bound by a funding condition.” Ibid. Now that respondents are not “bound by a funding condition,” the
Court’s affiliate discussion is beside the point. Ibid.
Much of the court of appeals’ analysis thus proceeds
from a mistaken premise. The majority described respondents as facing a choice “between forced speech

23
and paying ‘the price of evident hypocrisy.’ ” App., infra, 10a (citation omitted). But that is no longer a choice
respondents face. Because respondents are not subject
to Section 7631(f ), they are not “forced” to provide any
speech as a condition of obtaining Leadership Act
funds. Ibid. They are free under Section 7631(f ) to accept those funds without any speech at all. And they are
free to use those funds in foreign countries without
adopting any policy on prostitution. They are thus analogous to the Section 501(c)(4) entity in Regan, which
had the freedom to lobby while its Section 501(c)(3) affiliate abided by the funding condition barring lobbying.
See 461 U.S. at 544. As explained above, however, neither Regan nor any other precedent of this Court has
held that an entity free of a funding condition has a constitutional entitlement to share that freedom with all
other affiliates. See pp. 18-20, supra. Rather, Regan
and related cases expressly contemplated that one affiliated entity would remain bound by a funding condition
while another affiliated entity would not. See 461 U.S.
at 544. The court of appeals’ assertion that the government “violates the First Amendment” when it “requires
contrasting, hypocritical messages between domestic
and foreign affiliates by making one speak the Government’s message” is inconsistent with those precedents.
App., infra, 9a-10a (emphasis added).
Respondents’ position, moreover, does not follow as
a practical matter. Respondents, who have asserted
only an as-applied challenge, see pp. 7-8, supra; 12-10
Resp. Br. 42 n.11, do not affirmatively support prostitution, see p. 6, supra, so there would no hypocrisy evident
in their affiliating with an organization that opposes
prostitution. After all, a group that has no policy on a

24
particular practice (for example, the consumption of alcohol) would not typically be viewed as hypocritical if it
affiliated with an organization that either supported or
opposed that practice (i.e., either a bar or a temperance
society).
At most, as the dissenting judge below recognized,
respondents’ claim turns not on freedom of speech, but
on freedom of association. App., infra, 37a. As noted,
respondents’ speech is now unrestricted by Section
7631(f ); by virtue of this Court’s 2013 decision, respondents are free to receive Leadership Act funds without
adopting any policy on prostitution. Respondents seek
to associate with affiliates that have similarly unrestricted speech. But as the dissent observed, respondents remain free to associate with any foreign affiliate
they want. Id. at 42a. If they choose a foreign affiliate
that funds its operations without Leadership Act funds
(i.e., with private funds or funds from a foreign government or multinational organization), the foreign affiliate will not be required to say anything about prostitution, and respondents will face no risk that any messages of the two organizations on prostitution would
vary. And even if respondents choose foreign affiliates
that accept Leadership Act funds, nothing would stop
either respondents or their foreign affiliates (or both)
from issuing disclaimers clarifying that the foreign affiliates’ policy opposing prostitution does not represent
respondents’ own views. See id. at 42a-43a. If confusion
somehow nonetheless ensues—a possibility that respondents have not demonstrated—respondents would
remain free to choose a different affiliate or to persuade
their existing affiliate to “decline the [Leadership Act]
funds.” 570 U.S. at 214.

25
Respondents’ claim thus amounts to an assertion
that its desire to affiliate with foreign entities operating
overseas that are free to accept federal funds without
restrictions outweighs Congress’ foreign-policy decision not to provide unrestricted funds to such foreign
entities. Respondents do not identify any case in which
such a claim has succeeded. To the contrary, the most
analogous claims—challenges by domestic organizations to the Mexico City Policy’s restriction on the promotion of abortion by foreign funding recipients operating overseas—have been repeatedly rejected. See
Center for Reprod. Law & Policy v. Bush, 304 F.3d 183,
190-191 (2d Cir. 2002) (Sotomayor, J.); Planned Parenthood Fed. of Am., Inc. v. Agency for Int’l Dev., 915 F.2d
59, 65-66 (2d Cir. 1990), cert. denied, 500 U.S. 952
(1991); cf. DKT, 887 F.2d at 291-296.
B. The Question Presented Warrants This Court’s Review

The court of appeals invalidated the government’s
application of a federal statute on constitutional
grounds. That alone warrants certiorari. This Court’s
review is particularly appropriate because the funding
condition struck down by the court of appeals applies to
billions of taxpayer dollars in one of the United States’
most significant and successful foreign-aid programs.
1. The panel majority invalidated, on constitutional
grounds, the application of an Act of Congress to foreign recipients of Leadership Act funds that affiliate
with domestic entities. App., infra, 3a-12a. This Court’s
“usual” approach “when a lower court has invalidated a
federal statute” is to “grant[] certiorari.” Iancu v. Brunetti, 139 S. Ct. 2294, 2298 (2019). The Court has done
so repeatedly in cases presenting significant First
Amendment questions, even in the absence of a square
circuit conflict. See, e.g., ibid.; Matal v. Tam, 137 S. Ct.

26
1744 (2017); United States v. Alvarez, 567 U.S. 709
(2012); Holder v. Humanitarian Law Project, 561 U.S.
1 (2010); United States v. Stevens, 559 U.S. 460 (2010);
United States v. Williams, 553 U.S. 285 (2008); Ashcroft
v. ACLU, 542 U.S. 656 (2004). The Court has reviewed
multiple decisions striking down congressionally
imposed conditions on federal funds. See, e.g., FAIR,
547 U.S. at 51; American Library Ass’n, 539 U.S. at 203
(plurality opinion); League of Women Voters, 468 U.S.
at 373; Regan, 461 U.S. at 543. And of course, the Court
granted certiorari to review the Second Circuit’s earlier
decision invalidating application of Section 7631(f ) to
respondents. 570 U.S. at 212. This Court’s review of a
divided decision striking down an important application
of the Leadership Act on constitutional grounds is warranted once again.
2. The decision below is important in multiple other
respects. One of the central pillars of the Leadership
Act is that “the reduction of HIV/AIDS behavioral
risks” must be “a priority of all prevention efforts.”
22 U.S.C. 7611(a)(12). Prostitution and sex trafficking
constitute two of the most troubling of such “behavioral
risks.” Ibid. Congress expressly recognized that the
“sex industry, the trafficking of individuals into such industry, and sexual violence are * * * causes of and factors in the spread of the HIV/AIDS epidemic,” and that
it should therefore “be the policy of the United States
to eradicate” the practices of “[p]rostitution and other
sexual victimization,” which are “degrading to women
and children.” 22 U.S.C. 7601(23). Section 7631(f )’s requirement that Leadership Act funding recipients have
a policy “explicitly opposing prostitution and sex trafficking” directly serves that policy objective. 22 U.S.C.

27
7631(f ). Although Section 7631(f ) can no longer be applied to domestic funding recipients in light of this
Court’s 2013 decision, applying Section 7631(f ) to foreign funding recipients—including those affiliated with
domestic organizations—remains critical to enforcing
the Leadership Act as Congress designed it. This Court
should not allow such an important provision to be
wholly nullified without further review.
The decision below, moreover, will affect a substantial amount of federal funding. Following the 2018 reauthorization of PEPFAR, Congress has committed a total of more than $79 billion in taxpayer dollars to fund
HIV/AIDS relief abroad. House Report 6. A significant
portion of that money has been disbursed to foreign recipients, many of whom have (or could readily find) domestic affiliates. According to the Office of the U.S.
Global AIDS Coordinator, more than 30% of new PEPFAR funding in 2018 was granted directly to foreign recipients. An additional amount (the exact percentage is
not readily calculable) was subgranted to foreign recipients by domestic recipients. And the share of PEPFAR funds granted to foreign recipients is likely to
grow. Officials administering the program have committed to increase the percentage of its funding that
goes to foreign implementing partners to at least 40%
by the end of fiscal year 2019 and 70% by the end of fiscal year 2020. See U.S. PEPFAR, PEPFAR 2019
Country Operational Plan Guidance for all PEPFAR
Countries 79 (FY 2019), https://go.usa.gov/xye56.
If not reversed by this Court, the decision below will
also create significant disruptions to the administration
of PEPFAR. HHS and USAID have applied Section
7631(f ) to foreign recipients of Leadership Act funds—
even those with domestic affiliates—for the entire

28
16 years that PEPFAR has been in effect. See pp. 6-7,
11, supra. Yet until this Court’s decision, no funding
recipient (including respondents) so much as hinted
that the First Amendment prohibits application of Section 7631(f ) to foreign recipients of Leadership Act
funds. And even now, no funding recipient (including
respondents) has identified “even one specific instance
where a foreign affiliate’s position on prostitution actually resulted in harm such as lost Leadership Act funding, lost private funding, or even inconsistent messaging (in other words, ‘evident hypocrisy’).” App., infra,
42a (Straub, J., dissenting). No sound basis exists for
disrupting PEPFAR by suddenly removing a funding
condition that has been present since the program’s creation. At a minimum, this Court should not permit such
a result without further review.
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
EDWIN S. KNEEDLER
Deputy Solicitor General
CHRISTOPHER G. MICHEL
Assistant to the Solicitor
General
BENJAMIN H. TORRANCE
SHARON SWINGLE
BRAD HINSHELWOOD
Attorneys

AUGUST 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

August Term 2017
Nos. 15-974 (L), 17-2126 (Con)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
OPEN SOCIETY INSTITUTE, PATHFINDER INTERNATIONAL
INC., GLOBAL HEALTH COUNCIL, AND INTERACTION,
PLAINTIFFS-APPELLEES
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, MARK GREEN, IN HIS OFFICIAL CAPACITY
AS ADMINISTRATOR OF THE UNITED STATES AGENCY FOR
INTERNATIONAL DEVELOPMENT, ROBERT R. REDFIELD,
IN HIS OFFICIAL CAPACITY AS DIRECTOR OF THE UNITED
STATES CENTERS FOR DISEASE CONTROL AND
PREVENTION, AND HIS SUCCESSORS, ALEX M. AZAR II,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, AND HIS SUCCESSORS, UNITED STATES
CENTERS FOR DISEASE CONTROL AND PREVENTION,
AND UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, DEFENDANTS-APPELLANTS*
Argued: May 17, 2018
Decided: Dec. 20, 2018

The Clerk of Court is respectfully directed to amend the official
caption as listed above.
*

(1a)

2a
Appeal from the United States District Court
for the Southern District of New York
No. 05 Civ. 8209 (VM), Victor Marrero,
District Judge, Presiding
Before:
Judges.

STRAUB, POOLER, and PARKER, Circuit

Judge Straub dissents in a separate opinion.
BARRINGTON D. PARKER, Circuit Judge:
In Agency for International Development v. Alliance
for Open Society International, Inc., 570 U.S. 205 (2013)
(“AOSI”), the Supreme Court held that a provision of
the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the “Leadership
Act”), 22 U.S.C. § 7601 et seq., which required that recipients of funds appropriated under the Act affirmatively adopt a policy explicitly opposing prostitution and
sex trafficking violated the First Amendment. The
Court determined that this condition, known as the Policy Requirement, could not be applied to plaintiffs because, as Chief Justice Roberts stated, it “compels as a
condition of federal funding the affirmation of a belief
that by its nature cannot be confined within the scope of
the Government program.” AOSI, 570 U.S. at 221.
The Government subsequently interpreted the Supreme Court’s opinion as allowing the Policy Requirement to continue to be applied to foreign affiliates.
Plaintiffs disagreed and sought and obtained a permanent injunction in the District Court, which concluded
that AOSI did not allow the Policy Requirement to be

3a
applied to plaintiffs’ foreign affiliates. The Government appeals and we are required to determine the narrow issue of whether the Government’s reading of the
Supreme Court’s decision is correct. We agree with
the District Court that the Government’s reading is
foreclosed by that opinion and, consequently, we affirm
the order below.
BACKGROUND

The background of this litigation is well known and
fully described in the various judicial decisions that have
been issued: the Honorable Victor Marrero’s thorough
and well reasoned decision in 2006, our 2011 opinion affirming him, and the Supreme Court’s 2013 opinion affirming us. See Alliance for Open Soc’y Int’l v. U.S.
Agency for Int’l Dev., 430 F. Supp. 2d 222 (S.D.N.Y.
2006); Alliance for Open Soc. Int’l, Inc. v. U.S. Agency
for Int’l Dev., 651 F.3d 218 (2d Cir. 2011); AOSI, 570 U.S.
205 (2013). We recount here only the background necessary for understanding this appeal.
In 2003, Congress passed the Leadership Act, which
authorized the appropriation of billions of dollars to nongovernmental organizations to assist the worldwide
fight against HIV/AIDS and other diseases.
The
Leadership Act contains the Policy Requirement, which
states that “[n]o funds . . . may be used to provide
assistance to any group or organization that does not
have a policy explicitly opposing prostitution and sex
trafficking.” 22 U.S.C. § 7631(f ).
Plaintiffs are several domestic organizations that fight
HIV/AIDS abroad. Many plaintiffs carry out their aid
work through legally distinct affiliates that together

4a
constitute global families of closely aligned entities. For
example, plaintiff InterAction is a network of U.S.-based
humanitarian organizations and contains, as a member,
the domestic entity Save the Children Federation, Inc.,
which is a part of the global set of entities operating as
Save the Children, an international aid organization that
focuses on children’s health. Save the Children Federation, Inc., in turn, is part of the Save the Children Association, a non-profit Swiss association that owns the
Save the Children logo and maintains criteria for Save
the Children members. There are over 30 distinct
Save the Children entities incorporated around the
world in addition to in the United States, such as in Australia, Brazil, Canada, India, Japan, Norway, South Africa, Spain, and Swaziland. These entities comprise
Save the Children, and share the same name, logo,
brand, and mission, even though they are distinct legal
entities incorporated in various jurisdictions worldwide.
As plaintiffs explain and the record reflects, maintaining a unified global identity, branding, and approach
enhances the ability of an organization like Save the
Children to perform its aid mission. Moreover, various
legal and administrative considerations encourage (and
sometimes require) such international aid organizations
to operate as formally legally distinct entities, despite
otherwise being unified. As an example, the president
and chief executive officer of plaintiff Pathfinder International attested that defendant United States Agency
for International Development (“USAID”) gives preference for Leadership Act contracts to NGOs that are incorporated outside the United States and sought to in-

5a
crease direct partnerships with local organizations in order to enhance the long-term effectiveness of aid delivery. USAID also limits a significant number of potential grants to organizations incorporated outside of the
United States. Moreover, some foreign governments
require NGOs to be incorporated in their countries in
order to be permitted to undertake public health work
there. Overall, factors such as these have caused international aid organizations to be organized as formally
legally distinct entities while operating with a unified
and consistent identity, mission, and work. As a consequence, these organizations appear to the public as unified entities. Throughout this litigation, plaintiffs have
emphasized that, while they do not support prostitution,
they would not include in their mission statements a policy officially expressing an opposition to prostitution because, among other things, effectively fighting diseases
like HIV/AIDS often requires direct involvement with
sex-worker communities.
In 2005, plaintiffs sued to enjoin the Government’s
implementation of the Policy Requirement. As noted,
the District Court issued a preliminary injunction, which
we affirmed on appeal.1 The Supreme Court granted
certiorari and also affirmed, holding that “[t]he Policy
Requirement compels as a condition of federal funding
the affirmation of a belief that by its nature cannot be
confined within the scope of the Government program.

Judge Straub dissented in 2011 on the basis that the Policy Requirement did not violate the First Amendment, a position that the
Supreme Court subsequently rejected squarely. See 651 F.3d at 240.
1

6a
In so doing, it violates the First Amendment and cannot
be sustained.” AOSI, 570 U.S. at 221.
After the Supreme Court’s decision, the Government
nevertheless continued to apply the Policy Requirement
to plaintiffs’ foreign affiliates. In January 2015, after
receiving letter briefing, the District Court converted
its preliminary injunction to a permanent injunction
barring the Government from imposing the Policy Requirement on plaintiffs or their affiliates. The Government appealed, and we stayed the permanent injunction
pending this appeal.
STANDARD OF REVIEW

A district court’s decision to issue a permanent injunction is reviewed for abuse of discretion, as “[t]he decision to grant or deny permanent injunctive relief is an
act of equitable discretion by the district court.” eBay
Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006);
see also, e.g., Knox v. Salinas, 193 F.3d 123, 128-29
(2d Cir. 1999) (per curiam). A district court commits
an abuse of discretion when it “(1) bases its decision on
an error of law or uses the wrong legal standard; (2) bases its decision on a clearly erroneous factual finding; or
(3) reaches a conclusion that, though not necessarily the
product of a legal error or a clearly erroneous factual
finding, cannot be located within the range of permissible decisions.” Klipsch Grp., Inc. v. ePRO E-Commerce
Ltd., 880 F.3d 620, 627 (2d Cir. 2018) (internal quotation
marks omitted). We review questions of law de novo.
See ACORN v. United States, 618 F.3d 125, 133 (2d Cir.
2010).

7a
DISCUSSION
I.

The narrow issue before this Court is whether applying the Policy Requirement to plaintiffs’ closely aligned
foreign affiliates violates plaintiffs’ own First Amendment rights. The Supreme Court’s decision considered
this question and resolved it in plaintiffs’ favor. Consequently, we conclude that the District Court did not
abuse its discretion in issuing its permanent injunction.2
In AOSI, the Supreme Court explained that requiring the recipient of government funds to adopt the Government’s view on the issue of prostitution and sex trafficking was a violation of plaintiffs’ First Amendment
rights. 570 U.S. at 219. The Court’s opinion focused
on the distinction “between conditions that define the
federal program and those that reach outside it,” id. at

A plaintiff seeking a permanent injunction against government
action taken pursuant to a statutory or regulatory scheme must
demonstrate an entitlement to such equitable relief by showing
(1) irreparable injury and (2) actual success on the merits. See
Amoco Prod. Co. v. Village of Gambell, 480 U.S. 531, 542, 546 n.12
(1987); Ognibene v. Parkes, 671 F.3d 174, 182 (2d Cir. 2011). As an
equitable remedy, a permanent injunction also requires a showing
that remedies at law will inadequately compensate for the injury,
that an equitable remedy is warranted in light of the balance of hardships between the plaintiff and defendant, and that the injunction
would not disserve the public interest. eBay, 547 U.S. at 391; Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). A constitutional violation, or an allegation of a constitutional violation, satisfies the irreparable injury requirement. Jolly v. Coughlin, 76 F.3d
468, 482 (2d Cir. 1996); see also Ognibene, 671 F.3d at 182.
2

8a
217, and the Court explicitly considered the role that affiliates of a funded organization can play in that dichotomy, id. at 219. It noted that where a funded organization’s speech was limited by a federal program, the
funded organization could employ affiliates outside the
federal program to exercise its First Amendment rights.
Id. In so reasoning, the Court explicitly recognized
that organizations exercise their First Amendment
rights through their affiliates. Id.
The Court therefore made clear that forcing an entity’s affiliate to speak the Government’s message unconstitutionally impairs that entity’s own ability to
speak. As Chief Justice Roberts noted, where, as here,
an affiliate is “clearly identified” with the recipient of
government funds, the recipient can express beliefs that
contradict the speech of its affiliate “only at the price of
evident hypocrisy.” Id.3 Applying the Court’s hold-

It was immaterial to the Supreme Court that an affiliate may be
foreign-incorporated. The AOSI opinion speaks only of the harm
to plaintiffs due to their affiliation, not about the nature of the affiliated entity. The Supreme Court was keenly aware of the foreign
nature of plaintiffs’ work and of their partnerships and affiliations
with foreign-incorporated organizations. This awareness was on
full display at oral argument, where the Government argued that
there would be no hypocrisy between a plaintiff and an affiliate because the entities would be required to be sufficiently separate. Justice Ginsburg, for example, apparently rejected this premise, noting
that this case differed from those in which forming a separate subsidiary to abide by a funding condition was “a simple matter of corporate reorganization” that cured any constitutional problems with
the funding condition. Transcript of Oral Argument at 18. She stated
that “getting an NGO . . . recognized in dozens of foreign countries is no simple thing to accomplish” and using a foreign affiliate to
3

9a
ing in AOSI to the present iteration of this case as we
must, we hold that the speech of a recipient who rejects
the Government’s message is unconstitutionally restricted when it has an affiliate who is forced to speak
the Government’s contrasting message.4
These principles decide this appeal. Here, the affiliates are clearly identified with plaintiffs, and to require
the affiliates to abide by the Policy Requirement would
require the closely related—and often indistinguishable
—plaintiffs to be seen as simultaneously asserting two
conflicting messages. This is the “evident hypocrisy”
to which the Chief Justice referred: when the Government requires contrasting, hypocritical messages between domestic and foreign affiliates by making one
speak the Government’s message, this requirement in-

speak the Government’s message and collect federal funds is “differen[t] in this international setting.” Id.; J. App. 1787. Justice
Kennedy explicitly concurred with Justice Ginsburg’s statements regarding foreign NGOs. Transcript of Oral Argument at 26 (“I have
the same concerns that Justice Ginsburg expressed about the difficulty of simply creating structures in—in foreign countries.”).
4
The dissent attempts to characterize this case as one involving
freedom of association. This approach misunderstands both the
nature of the right at issue and the Supreme Court’s decision. The
right that plaintiffs seek to vindicate is the right to free speech: to
be able to speak freely without being either compelled to speak or
allowed to speak only “at the price of evident hypocrisy.” AOSI,
570 U.S. at 219. The Court made clear that it conceived of the issue
as one involving freedom of speech, stating several times that its animating concerns were the ability of the funding recipient “to express
its beliefs.” Id. (emphasis added). Contrary to the assertions made
in the dissent, the cases involving freedom of association are not particularly helpful.

10a
fringes the speech of the domestic affiliate and, in so doing, violates the First Amendment. Id. Indeed, the
Government itself acknowledges that forced hypocrisy
can impair an entity’s ability to speak: “It may be true
that when two organizations are closely linked, in some
circumstances the speech of one can be seen as the
speech of both.” See Gov’t Reply at 9.
The Government’s arguments in this appeal are unpersuasive. It mainly contends that foreign organizations
like plaintiffs’ affiliates do not possess First Amendment
rights. But the Government as well as our dissenting colleague misunderstands the Supreme Court’s decision in
AOSI. It is the First Amendment rights of the domestic plaintiffs that are violated when the Policy Requirement compels them to “choose between forced speech
and paying ‘the price of evident hypocrisy.’ ” All. for
Open Soc’y Int’l, Inc. v. U.S. Agency for Int’l Dev.,
106 F. Supp. 3d 355, 361 (S.D.N.Y. 2015) (quoting AOSI,
570 U.S. at 219).
The Government also contends that the contrasting
speech between domestic and foreign affiliates is irrelevant because, following the Supreme Court’s decision,
the Policy Requirement may no longer be applied to domestic organizations, and so domestic organizations
may now say what they want and still receive government funds. But this argument also misses the point.
It is the domestic organization’s speech, not its funding,
that is at stake when its affiliate is forced to speak the
Government’s message. If the Government is right,
then Chief Justice Roberts was wrong. We part ways
with our dissenting colleague because we believe that it

11a
is the Supreme Court’s decision and not the Government’s brief that controls this appeal.
The Government finally argues that our decisions in
Planned Parenthood Federation of America, Inc. v.
Agency for International Development, 915 F.2d 59
(2d Cir. 1990) and Center for Reproductive Law & Policy v. Bush, 304 F.3d 183 (2d Cir. 2002), which upheld a
funding condition requiring foreign organizations to
agree not to promote abortion, require us to vacate the
injunction. These cases, however, are of little help to
the Government. In Center for Reproductive Law &
Policy, we identified the “thrust of the claim” as that because of the government’s funding conditions, “foreign
NGOs are chilled from interacting and communicating
with domestic abortion rights groups such as plaintiff
CRLP, thus depriving plaintiffs of the rights to freedom
of speech and association in carrying out the mission of
the organization.” Center for Reprod. Law & Policy,
304 F.3d at 188. The foreign NGOs at issue were mere
potential partners of the plaintiffs; they were not affiliated. In contrast, here the foreign NGOs and plaintiffs
are not just affiliates—they are homogenous. Plaintiffs share their names, logos, and brands with their foreign affiliates, and together they present a unified front.
This sameness creates the risk of evident hypocrisy that
motivated the Supreme Court to find a First Amendment violation. AOSI, 570 U.S. at 219. With the Supreme Court’s articulation of “evident hypocrisy” as our
lodestar, Center for Reproductive Law & Policy did not
address the role of closely affiliated foreign NGOs and
cannot decide today’s result.

12a
Nor can Planned Parenthood. In that case, the government refused to fund foreign NGOs who offered
abortion as a family-planning technique. We weighed
allegations “that it is impractical for United States citizens or organizations to engage in abortion-related activities abroad without the cooperation of foreign organizations and that the Standard Clause deters many of
the most logical and effective foreign partners.” Id. at
64 (internal quotation marks omitted). But critically,
the government did not request that foreign NGOs explicitly adopt a policy of not advocating for abortion.
As such, the domestic NGOs and partner foreign NGOs
were not compelled to make contradictory statements
regarding their core objectives as plaintiffs and their
foreign affiliates are in this case.
The policies in these cases did not compel speech, did
not involve closely identified organizations, and, unlike
this case, did not burden the free speech rights of domestic organizations. Planned Parenthood, 915 F.2d
at 64. We therefore hold that the District Court did not
abuse its discretion in enjoining the Government from
imposing the Policy Requirement on plaintiffs’ closely
aligned foreign affiliates.
II.

The Government also argues that the District Court
violated Federal Rule of Civil Procedure 65 by imposing
the permanent injunction on the basis of letter briefing
and in the absence of a formal motion and a full hearing.
The Government also argues that the injunction is unclear because its reference to plaintiffs “or their domestic and foreign affiliates” is imprecise. We see no
abuse of discretion.

13a
There is no requirement that a District Court must
wait for a formal motion and hold a hearing to issue a
permanent injunction. This conclusion is, in our view,
particularly sound in a case such as this, involving nearly
a decade of litigation, multiple appeals and resolution by
the Supreme Court. In any event, Rule 65 requires
hearings for only preliminary injunctions, not permanent injunctions. Beck v. Levering, 947 F.2d 639, 64142 (2d Cir. 1991) (per curiam) (“Appellants contend that
[Rule 65] requires that an evidentiary hearing be held in
order to issue a permanent injunction. However, Rule
65 requires hearings for preliminary injunctions, not
permanent injunctions.”).
Nor does the injunction violate Rule 65(d)’s requirement that an injunction “describe in reasonable detail
. . . the act or acts restrained or required.” Fed. R.
Civ. P. 65(d)(1)(C). We are confident that the term “affiliate” is sufficiently clear so that the Government will
be able “to ascertain from the four corners of the order
precisely what acts are forbidden.” In re BaldwinUnited Corp., 770 F.2d 328, 339 (2d Cir. 1985) (internal
quotation marks omitted). As the District Court correctly noted, the word “affiliate” has a sufficiently clear
meaning. It is defined, according to that Court, as “[a]
corporation that is related to another corporation by
shareholdings or other means of control; a subsidiary,
parent, or sibling corporation.” 258 F. Supp. 3d 391,
396 (S.D.N.Y. 2017) (quoting Black’s Law Dictionary
(10th ed. 2014)). As previously noted, there is an unusually full record in this case. We do not think that the
Government, in applying a definition such as this, lacks
adequate guidance in determining the entities to which

14a
the injunction applies or that the District Court otherwise abused its discretion in fashioning the permanent
injunction as it did.
CONCLUSION

For the foregoing reasons, the order of the District
Court is AFFIRMED.
STRAUB, Circuit Judge, dissenting:
Today, a majority panel of this Court requires the
United States to fund the activities of foreign organizations, which have no constitutional rights, despite their
refusal to comply with our government’s funding condition. There is no support for such a startling holding.
The majority misreads the Supreme Court’s 2013 decision in this case, which only held that the First Amendment protects United States-based organizations from
being required to adopt a particular policy position as
a condition of federal funding and to conform their
privately-funded activities to that position. The majority decision extends the Supreme Court’s holding to an
unspecified group of “clearly identified” foreign “affiliates,” or “co-branded” foreign partner organizations—
an issue that was not before the Supreme Court, and a
result that is clearly foreclosed by two of this Court’s
precedential decisions, Center for Reproductive Law &
Policy v. Bush, 304 F.3d 183 (2d Cir. 2002), and Planned
Parenthood Federation of America v. United States
Agency for International Development, 915 F.2d 59
(2d Cir. 1990), which held that the Government’s foreign
policy interest in choosing which foreign organizations
it wishes to fund outweighs any incidental impact on domestic organizations’ ability to associate with foreign

15a
organizations. The majority decision overrules those
cases without even the benefit of en banc review and effectively extends First Amendment rights to foreign organizations operating outside of the United States by
treating “clearly identified” domestic and foreign organizations as a single entity for First Amendment purposes. Although the majority asserts that its decision
is narrow because it only applies to “clearly identified”
foreign organizations, nothing in our constitutional jurisprudence allows foreign organizations to avoid the
Government’s funding restrictions by closely associating with domestic organizations and nothing in the majority’s decision limits the scope of foreign organizations
that may gain First Amendment protection by forming
associations with United States-based entities going forward. Indeed, the majority further expands the applicable class of foreign organizations to those which are
“closely aligned”—whatever that might mean. Accordingly, I respectfully dissent.
Background
I.

Procedural History
A.

2005-2013:
United States Organizations
Challenge Policy Requirement

A close reading of the procedural history of this case
clarifies that the Supreme Court never had any reason
to consider whether 22 U.S.C. § 7631(f ) (the “Policy Requirement”) is constitutional as applied to Plaintiffs’ foreign affiliates or any other foreign organization. At
several points during this litigation, Plaintiffs made
clear that they did not dispute that the Policy Require-

16a
ment could be constitutionally applied to any foreign organization, including their foreign partners or affiliates.
Rather, they only challenged the Policy Requirement’s
direct application to United States-based organizations,
and they took great pains to distinguish this Court’s
binding case law upholding similar funding requirements for the foreign partners of United States-based
organizations. Only in 2014, after the Supreme Court
had ruled in this case, did Plaintiffs begin to assert that
their foreign affiliates must also be exempted from the
Policy Requirement. This is a clear departure from
their position during earlier stages of this litigation, and
this assertion significantly broadens the scope of their
First Amendment challenge to the Policy Requirement.
As discussed below, this result, which effectively exports First Amendment free speech rights to foreign organizations, was not contemplated by the Supreme
Court in 2013 or by any of the prior decisions in this litigation.
The United States Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Act of 2003 (“Leadership Act”),
22 U.S.C. § 7601 et seq., authorized appropriations to
fund worldwide efforts to combat HIV/AIDs, tuberculosis,
and malaria. Among other objectives, the Act “make[s]
the reduction of HIV/AIDS behavioral risks a priority
of all prevention efforts.” 22 U.S.C. § 7611(a)(12); see
also § 7601(15) (“Successful strategies to stem the
spread of the HIV/AIDS pandemic will require . . .
measures to address the social and behavioral causes of

17a
the problem. . . . ”).5 The Act identifies “[t]he sex
industry, the trafficking of individuals into such industry, and sexual violence” as “additional causes of and
factors in the spread of the HIV/AIDS epidemic” and
declares that “[p]rostitution and other sexual victimization are degrading to women and children and it should
be the policy of the United States to eradicate such practices.” § 7601(23). The Leadership Act authorizes
funding to combat HIV/AIDS, § 7631, but imposes two
restrictions on such funding. First: “No funds . . .
may be used to promote or advocate the legalization or
practice of prostitution or sex trafficking.” § 7631(e).
Second:
No funds . . . may be used to provide assistance
to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking, except that this subsection shall not apply to the
Global Fund to Fight AIDS, Tuberculosis and Malaria, the World Health Organization, the International AIDS Vaccine Initiative or to any United Nations agency.
Only the second condition—the “Policy
§ 7631(f ).
Requirement”—is at issue.
In 2004, the Government began requiring foreign organizations that applied for Leadership Act funding to
comply with § 7631(f ) by adopting an affirmative antiprostitution policy. See U.S. Agency for Int’l Dev.
(“USAID”), Acquisition & Assistance Policy Directive

5
All references to the U.S. Code are to Title 22, unless otherwise
indicated.

18a
(“AAPD”) 04-04 (Revised) (Feb. 26, 2004); see also
All. for Open Soc’y Int’l v. U.S. Agency for Int’l Dev.,
430 F. Supp. 2d 222, 234 (S.D.N.Y. 2006).6 Notably,
Plaintiffs did not challenge the Government’s application of the Policy Requirement to their foreign affiliates,
partners, or sub-grantees. All. for Open Soc’y Int’l,
430 F. Supp. 2d at 235-36. Instead, they initiated this
lawsuit in September 2005, shortly after the Government began requiring United States-based organizations to comply with the Policy Requirement. See id.
at 237; see also USAID, AAPD 05-04 (June 9, 2005).
And throughout this litigation, until 2014, Plaintiffs explicitly limited the relief they sought to United Statesbased organizations.
In 2006, when the District Court granted Plaintiffs’
motion for a preliminary injunction, it distinguished our
cases regarding funding restrictions to foreign nongovernmental organizations (“NGOs”).
All. for Open
Soc’y Int’l, 430 F. Supp. 2d at 267. Specifically, the
District Court stated:
In the instant case, as Plaintiffs have pointed out, the
restrictions at issue apply to NGOs based in the
United States, restrictions which extend to these
NGOs’ speech within [the] United States (for example, a conference on sexual rights and sexual health
that AOSI will cosponsor in this country in June of

Those foreign organizations included the Soros Foundations in
Tajikistan and Kyrgyzstan, which implemented a Leadership Actfunded project in Central Asia in partnership with the U.S.-based
Alliance for Open Society International, one of the Plaintiffs in this
litigation. See All. for Open Soc’y Int’l, 430 F. Supp. 2d at 235-36.
6

19a
2006). Defendants simply have not made an adequate showing as to why such domestic, private
speech activity should be necessarily classified as a
matter of American foreign policy.
Id. The District Court ordered the parties to submit a
proposed injunction. Id. at 278. In June 2006, the District Court entered the preliminary injunction. In addition to prohibiting the Government from enforcing the
Policy Requirement against Plaintiffs Alliance for Open
Society International (“AOSI”) and Pathfinder International, the injunction proposed by the parties and entered by the District Court included a paragraph
that exempted Plaintiffs’ United States-based “subrecipients, sub-grantees and sub-contractors” (referred
to collectively as “sub-organizations”). This paragraph
did not exempt foreign sub-organizations, and the injunction makes no reference to foreign organizations.
In August 2006, the Government appealed the preliminary injunction. In 2007, we remanded for the District Court to consider whether new federal guidelines
provided an adequate constitutional safeguard for domestic organizations bound by the Policy Requirement.
All. for Open Soc’y Int’l v. U.S. Agency for Int’l Dev.,
254 F. App’x 843 (2d Cir. 2007) (summary order). These
guidelines—the Government’s “Affiliate Guidelines”—
were intended to provide an alternative channel for the
Plaintiffs and other United States-based organizations
to express their First Amendment-protected views regarding prostitution but have instead been the source of
a great deal of unnecessary confusion in this case. The
Affiliate Guidelines stated as follows:

20a
[T]he Government’s organizational partners that
have adopted a policy opposing prostitution and sextrafficking may, consistent with the policy requirement, maintain an affiliation with separate organizations that do not have such a policy, provided that
such affiliations do not threaten the integrity of the
Government’s programs and its message opposing
prostitution and sex trafficking, as specified in this
guidance. To maintain program integrity, adequate
separation as outlined in this guidance is required between an affiliate which expresses views on prostitution and sex trafficking contrary to the government’s
message and any federally-funded partner organization.
Dep’t of Health and Human Servs. (“HHS”), Guidance
Regarding Section 301(f ) of the United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act
of 2003, 72 Fed. Reg. 41,076 (July 23, 2007); see also
USAID, AAPD 05-04 Amend. 1 (July 23, 2007). Simply
put: the Affiliate Guidelines provided a way for domestic entities to abide by the Policy Requirement while using affiliates to express their contrary views on prostitution.
Plaintiffs’ 2008 declarations argued that the Affiliate
Guidelines did not provide an adequate alternative channel for communicating their own viewpoints on prostitution, in large part because of the degree of legal separation that the Guidelines required between an organization receiving Leadership Act funding and an affiliate
organization expressing views on prostitution that deviated from the Policy Requirement. The 2008 declarations also discussed the legal and practical difficulties of

21a
establishing affiliates in foreign countries, implying that
they did not currently have any affiliates operating in
those countries. In particular, declarations from the
presidents of Cooperative for Assistance and Relief
Everywhere (“CARE”) and Pathfinder International
described how the United States-based organizations
operated directly in several foreign countries through
“registered branch offices” or “field offices,” and did not
mention the existence of any legally separate affiliate
organizations operating in those countries.7
On remand, Plaintiffs moved to add Interaction and
Global Health Council (“GHC”) to the lawsuit. These
are umbrella organizations for public health NGOs, and
GHC includes foreign members. However, Plaintiffs
explicitly limited the relief sought to Interaction’s and
GHC’s United States-based members. And Plaintiffs’
motion to extend the preliminary injunction to Interaction and GHC again exempted only United States-based
sub-grantee organizations from the Policy Requirement.
In 2008, the District Court reaffirmed its 2006 preliminary injunction and extended that injunction to Interaction and GHC. All. for Open Soc’y Int’l v. U.S.
Agency for Int’l Dev., 570 F. Supp. 2d 533 (S.D.N.Y.
The 2008 Gayle declaration described CARE as a member of
CARE International, “a federation of 12 other CARE nonprofit members incorporated separately in Australia, Austria, Belgium, Canada, Denmark, France, Germany, Japan, the Netherlands, Norway,
Thailand, and the United Kingdom.” However, the declaration only
discussed the Government’s application of the Policy Requirement
to CARE itself and did not further mention CARE International or
its foreign members.
7

22a
2008). The District Court reasoned that the Affiliate
Guidelines did not cure the First Amendment violation,
namely, the requirement that the United States-based
Plaintiffs adopt an anti-prostitution policy and conform
their privately-funded activities to this policy in order to
receive Leadership Act funding. Id. at 545-50. When
discussing the question of standing, the District Court
focused exclusively on GHC’s United States-based
members. Id. at 538, 540, 541-42.
In 2011, this Court upheld the District Court’s preliminary injunctions. All. for Open Soc’y Int’l v. U.S.
Agency for Int’l Dev., 651 F.3d 218 (2d Cir. 2011),
en banc reh’g denied, 678 F.3d 127 (2d Cir. 2012). In
doing so, the instant majority explicitly distinguished
the Government’s restrictions on funding to foreign
NGOs:
The Agencies’ reliance on DKT Memorial Fund Ltd.
v. Agency for International Development, 887 F.2d
275 (D.C. Cir. 1989), is misplaced, as that case centered around a restriction on the First Amendment
activities of foreign NGOs receiving U.S. government funds. The challenge here is to the impact of
the Policy Requirement on domestic NGOs. Indeed, the Agencies have applied the Policy Requirement to foreign organizations since its inception,
without challenge. This litigation arose only after
the government reversed course and began also applying the Requirement to U.S.-based organizations
like AOSI and Pathfinder. The Policy Requirement compels domestic NGOs to adopt a policy statement on a particular issue, and prohibits them from

23a
engaging in certain expression at, for example, conferences and forums throughout the United States.
These factors convince us that the speech is far more
of a domestic than a foreign concern.
Id. at 238-39. The Court agreed with the District
Court that the Affiliate Guidelines could not cure the
First Amendment violation of requiring United Statesbased organizations to affirmatively adopt an antiprostitution policy. Id. at 239.
Before the Supreme Court, Plaintiffs made it clear
that they raised only an “as-applied” challenge to the
constitutionality of the Policy Requirement. Brief for
Respondents at 42 n.11, U.S. Agency for Int’l Dev. v. All.
for Open Soc’y Int’l, 570 U.S. 205 (2013) (No. 12-10),
2013 WL 1247770; Transcript of Oral Argument at 36,
U.S. Agency for Int’l Dev. v. All. for Open Soc’y Int’l,
570 U.S. 205 (2013) (No. 12-10). The parties and the
Supreme Court Justices briefly discussed the difficulty
of establishing affiliate organizations that would comply
with the laws of the foreign countries in which they
operated—a discussion that was relevant to the burden
imposed by the Affiliate Guidelines and which suggested
that Plaintiffs operated directly in those foreign countries and did not have any existing foreign affiliates.
Brief for Respondents at 52-56, U.S. Agency for Int’l
Dev. v. All. for Open Soc’y Int’l, 570 U.S. 205 (2013)
(No. 12-10), 2013 WL 1247770; Transcript of Oral Argument at 18-19, 27, U.S. Agency for Int’l Dev. v. All. for
Open Soc’y Int’l, 570 U.S. 205 (2013) (No. 12-10).
In 2013, the Supreme Court held that the Policy Requirement violated the First Amendment rights of
United States-based NGOs by conditioning funding on

24a
adoption of the Government’s point of view in a way that
could not be cabined to the Leadership Act-funded programs but would also affect the organizations’ privatelyfunded activities. U.S. Agency for Int’l Dev. v. All. for
Open Soc’y Int’l, 570 U.S. 205, 213-21 (2013). The Supreme Court concluded that while affiliates can provide
an adequate safeguard in other contexts, such as where
a funding restriction prohibits an organization from using the specified funds for a particular First Amendmentprotected activity, “[a]ffiliates cannot serve that purpose when the condition is that a funding recipient espouse a specific belief as its own.” Id. at 219. The Supreme Court characterized Plaintiffs as “a group of domestic organizations engaged in combating HIV/AIDS
overseas.” Id. at 210.
Not a single reference was made to the Government’s
ability to impose the Policy Requirement on foreign organizations in the Supreme Court’s decision itself, in the
parties’ briefs, or at oral argument. Tellingly, the Supreme Court made no mention of our decisions in Center
for Reproductive Law & Policy (“CRLP”) and Planned
Parenthood because at issue before it was the Policy Requirement’s application to domestic organizations and
not foreign partner organizations, as in those two cases.
B. 2014-2017 District Court Proceedings: Plaintiffs Challenge Government’s Application of
the Policy Requirement to Their Foreign
“Affiliates”

As discussed above, from 2004 until 2014, the Plaintiffs never challenged the Government’s requirement
that all foreign organizations which applied for Leadership Act funds or received Leadership Act sub-grants

25a
from domestic organizations adopt an anti-prostitution
policy. In this vein, in September 2014, the Government issued funding notices that explicitly exempted all
United States-based organizations from the Policy Requirement but continued to apply the Policy Requirement to foreign organizations. See HHS Guidance,
79 Fed. Reg. 55,367 (Sept. 16, 2014); USAID, AAPD
14-04, at 9-10 (Sept. 12, 2014). In October 2014, for the
first time, Plaintiffs began to argue that the Supreme
Court’s 2013 decision required the Government to exempt their “foreign affiliates” from the Policy Requirement. Notably, the foreign affiliate organizations described in Plaintiffs’ October 2014 declarations were not
mentioned at all in Plaintiffs’ 2008 declarations, or at
any other point during the eight years of litigation that
led to the Supreme Court’s 2013 decision.8
In its pre-motion responses and at an October 2014
pre-motion conference, the Government strongly contested this position, pointing to this Court’s decision in
Planned Parenthood and arguing that the Supreme
Court had not considered the Policy Requirement’s application to foreign organizations in its 2013 decision because the Plaintiffs had never challenged that practice.
The Government also argued that the District Court
The majority emphasizes an October 2014 declaration from Save
the Children’s executive vice president and chief operating officer
describing that organization’s foreign affiliate structure. As noted
above, the 2008 declarations stated that Plaintiffs worked directly in
foreign countries through local branch offices and did not highlight
the role of any foreign affiliates. Save the Children’s executive officers did not submit a declaration in this litigation prior to October
2014.
8

26a
should require further submissions, including a formal
motion and opposition, before issuing an injunction.
Specifically, in its October 30, 2014, submission, the Government stated:
There are numerous factual and legal issues that
have not been addressed at any stage of this litigation that are implicated by [P]laintiffs’ pre-motion
letters, including . . . the applicability of constitutional rights to foreign organizations even when affiliated with U.S. organizations, the degree of affiliation that exists in fact, and many others. . . .
Additionally, the parties must be afforded an opportunity to respond to each other’s submissions provided to the Court today.
In January 2015, without any further submissions or
hearings, the District Court granted a permanent injunction. All. for Open Soc’y Int’l v. U.S. Agency for
Int’l Dev., 106 F. Supp. 3d 355 (S.D.N.Y. 2015). The
District Court relied solely on the Supreme Court’s 2013
decision, reasoning that the Supreme Court’s discussion
of the Government’s Affiliate Guidelines exempted both
Plaintiffs and their foreign affiliates from the Policy Requirement. Id. at 360-61. The District Court prohibited the Government from enforcing the Policy Requirement against Plaintiffs’ foreign affiliates, without defining which foreign organizations qualify as Plaintiffs’ affiliates. Id. at 360-61, 363-64. Under the terms of the
injunction, foreign organizations are eligible to receive
grants from the Government or sub-grants from Plaintiffs without adopting an anti-prostitution policy, just as
the Plaintiffs themselves need not comply with the Policy Requirement to receive Leadership Act grants from

27a
the Government or sub-grants from other organizations.
The District Court further directed that, “[i]f the Government intends to apply the Policy Requirement to any
organizations whatsoever, then the Government must
show cause identifying which categories of organizations and why imposing the requirement would not violate the decisions of this Court and the Supreme Court.”
Id. at 363. The District Court stayed the injunction
from January 2015 until June 2017, while the parties engaged in mediation and while it considered the Government’s motion for reconsideration and clarification.
In 2017, the Government moved for reconsideration
of the District Court’s 2015 injunction, arguing that the
order did not comply with Federal Rule of Civil Procedure 65’s requirement that injunctions be clear and definite because the Government could not ascertain which
foreign organizations the injunction applied to. Plaintiffs opposed reconsideration. Plaintiffs stated that
“[w]hile the injunction as written is sufficiently clear
and specific to take immediate effect, Plaintiffs would
have no objection to the Court’s addition of language explaining that ‘clearly identified’ foreign affiliates are
those that share the same name, trademark, and public
branding (e.g., corporate logo) as Plaintiffs. . . . ”
Plaintiffs provided examples of “clearly identified” foreign affiliates, such as CARE India and Pathfinder India, and contrasted their definition with the Government’s Affiliate Guidelines. Finally, Plaintiffs stated
that they “stand ready to work with the government to
address individual questions and to provide the government lists of their affiliates—as they have done on prior
occasions—which would identify foreign affiliates that

28a
share Plaintiffs’ same name, trademark, and public
branding.” The Government argued that the Plaintiffs’ definition was not sufficient because it did not identify a controlling legal standard and because a shared
name, trademark, and public branding alone would not
necessarily demonstrate that a foreign organization is
so closely tied to a domestic organization that the domestic organization’s First Amendment rights would be
violated if the Government requires the foreign organization to adopt an anti-prostitution policy in order to receive Leadership Act funding.
In June 2017, the District Court denied reconsideration and lifted its stay of the 2015 order. All. for Open
Soc’y Int’l v. U.S. Agency for Int’l Dev., 258 F. Supp. 3d
391 (S.D.N.Y. 2017). Citing the Black’s Law Dictionary and Oxford English Dictionary definitions of “affiliate,” the District Court concluded that, “[t]he class of
non-governmental organizations, or corporations, which
share such a relationship with Plaintiffs and are thus affiliates for the purposes of the permanent injunction is
almost certainly limited and ascertainable.” Id. at 396.
However, the District Court added the following:
Insofar as the Government needs any additional
guidance in defining “affiliate” or identifying specific
entities that would be covered by the definition,
Plaintiffs have offered a reasonable suggestion to develop clarifying language. The parties therefore
should meet and confer in an effort to propose an
agreed-upon response within thirty days of the date
of this Order. The parties are directed to submit a
report on the status of such discussions at that time.

29a
Id. The District Court extended the time for the parties to submit the status report until August 2017. The
Government moved to defer the meetings in light of this
Court’s July 2017 order staying the injunction. Plaintiffs submitted a status report representing that the
parties had reached a tentative agreement and reflecting that Plaintiffs wished to continue meeting despite
this Court’s stay order. In September 2017, the District Court denied the Government’s motion to defer the
meetings, reasoning that this Court only stayed the injunction insofar as it applied to foreign affiliates; the
parties could still agree to a definition of “affiliate” for
the purpose of implementing the injunction as to Plaintiffs’ domestic affiliates. In October 2017, the parties
submitted another status report. The parties agreed
that a definition of domestic affiliates was unnecessary
because the Government concedes that it may not constitutionally apply the Policy Requirement to any United
States-based organizations, regardless of affiliation
with Plaintiffs. The Government argued that the parties should hold off on any further meetings until this
Court concluded its review of the injunction, while Plaintiffs argued that “coming to agreement on the definition
of ‘affiliate’ at this juncture, would facilitate the government’s timely implementation of the injunction as to foreign affiliates in the event the court of appeals affirms
that aspect of the injunction.” This is the last District
Court docket entry and it reflects that the District Court
and parties have not yet decided exactly which organizations qualify as Plaintiffs’ foreign affiliates.

30a
II.

Proceedings in this Court

The Government timely appealed both the 2015 injunction and the 2017 denial of reconsideration.9 In its
opening brief, the Government argues that (1) its funding restriction is constitutional as applied to foreign organizations, and thus the District Court erred in extending the injunction to Plaintiffs’ foreign affiliates, and
(2) the injunction does not “state its terms specifically”
or “describe in reasonable detail . . . the act or acts
restrained or required” as demanded by Federal Rule of
Appellate Procedure 65 because it is unclear which foreign organizations the injunction applies to. In response, the Plaintiffs argue that the Supreme Court’s
2013 decision in this case prohibits the Government from
applying its funding restriction to Plaintiffs’ “clearly
identified” foreign affiliates. They attempt to distinguish CRLP and Planned Parenthood, which upheld a
similar funding restriction on foreign organizations,
based on Plaintiffs’ close association with their foreign
affiliates, which they argue will result in “evident hypocrisy” if the foreign affiliates are forced to adopt an antiprostitution policy. Plaintiffs also argue that the terms
of the injunction are clear and specific enough to give
the Government notice of what is prohibited.
The Government replies that (1) Plaintiffs mischaracterize the Supreme Court’s 2013 decision, which did

The Government’s appeal of the 2015 injunction was withdrawn
and reinstated several times while the parties engaged in mediation.
In March 2017, this Court reinstated the appeal, but held it in abeyance pending the District Court’s determination of the motion to reconsider. This Court reactivated the appeal on June 12, 2017.
9

31a
not address the application of the Policy Requirement to
Plaintiffs’ foreign affiliates or any other foreign organization, (2) the injunction is not clear enough for the Government to determine which foreign organizations qualify as Plaintiffs’ “clearly identified” foreign affiliates,
and (3) the District Court should have allowed further
briefing before issuing the permanent injunction. In
July 2017, another panel of this Court stayed the injunction insofar as it applies to foreign organizations, including Plaintiffs’ foreign affiliates.
Discussion

We review a district court’s grant of a permanent
injunction for abuse of discretion. Davis v. Shah,
821 F.3d 231, 243 (2d Cir. 2016). “A district court
abuses its discretion when (1) its decision rests on an error of law or a clearly erroneous factual finding, or
(2) its decision—though not necessarily the product of a
legal error or a clearly erroneous factual finding—cannot be located within the range of permissible decisions.
Id. (internal quotation marks and ellipsis omitted).
We review questions of law de novo. See N.Y. Civil
Liberties Union v. N.Y. City Transit Auth., 684 F.3d
286, 294 (2d Cir. 2012).
An injunction must “state its terms specifically” and
“describe in reasonable detail—and not by referring to
the complaint or other document—the act or acts restrained or required.” Fed. R. Civ. P. 65(d)(1)(B)-(C).
Rule 65 “reflects Congress’ concern with the dangers inherent in the threat of a contempt citation for violation
of an order so vague that an enjoined party may unwittingly and unintentionally transcend its bounds.” Corning Inc. v. PicVue Elecs., Ltd., 365 F.3d 156, 158 (2d Cir.

32a
2004) (quoting Sanders v. Airline Pilots’ Ass’n, Int’l,
473 F.2d 244, 247 (2d Cir. 1972)). Under this standard,
the enjoined party must be able to “ascertain from the
four corners of the order precisely what acts are forbidden.” Id. (quoting Sanders, 473 F.2d at 247). An injunction violates Rule 65’s specificity requirement if a
party “would have to resort to extrinsic documents to
comply with the order’s commands.” Id.
To obtain a permanent injunction, a party “must succeed on the merits and show ‘the absence of an adequate
remedy at law and irreparable harm if the relief is not
granted.’ ” Roach v. Morse, 440 F.3d 53, 56 (2d Cir.
2006) (quoting N.Y. State Nat’l Org. for Women v.
Terry, 886 F.2d 1339, 1362 (2d Cir. 1989)). Injunctions
that alter the status quo, and injunctions against government statutes and policies, are typically disfavored.
Cf. N.Y. Civil Liberties Union, 684 F.3d at 294 (in preliminary injunction context, injunctions that “alter rather than maintain the status quo” require a heightened
showing of likelihood of success); Able v. United States,
44 F.3d 128, 131 (2d Cir. 1995) (in preliminary injunction
context, “governmental policies implemented through
legislation or regulations developed through presumptively reasoned democratic processes are entitled to a
higher degree of deference and should not be enjoined
lightly.”).
I.

Constitutional Issue

Although “freedom of speech prohibits the government from telling people what they must say,” All. for
Open Soc’y Int’l, 570 U.S. at 213, this principle has never
before been extended to foreign organizations operating
outside the United States that apply for discretionary

33a
funding from the United States government. While
the Spending Clause empowers Congress to attach restrictions on the funds it provides to private organizations, the Government may not impose funding conditions that infringe domestic organizations’ First Amendment rights. All. for Open Soc’y Int’l, 570 U.S. at 21317. This “unconstitutional conditions” doctrine distinguishes between “conditions that define the limits of the
government spending program—those that specify the
activities Congress wants to subsidize,” which are generally permissible, and “conditions that seek to leverage
funding to regulate speech outside the contours of the
program itself,” which are not. Id. at 214-15. In its
2013 decision, the Supreme Court applied this “unconstitutional conditions” doctrine to the Government’s requirement that domestic NGOs adopt an anti-prostitution
policy to receive Leadership Act funding and concluded
that the Policy Requirement compelled Plaintiffs to
adopt the Government’s position in a way that could not
be limited to the Leadership Act-funded programs and
was thus unconstitutional. Id. at 217-21.
The Government does not dispute that it may no
longer apply the Policy Requirement to any domestic organizations. The only remaining question is whether
the Government may apply the Policy Requirement to
foreign organizations, including but not limited to, Plaintiffs’ foreign affiliates. Because the District Court legally erred when it enjoined the Government from requiring foreign organizations that receive Leadership
Act funding to adopt an anti-prostitution policy, I would
reverse the injunction.

34a
A.

Supreme Court’s 2013 Decision

As illustrated by the procedural history detailed
above, Plaintiffs’ and the District Court’s reliance on the
Supreme Court’s 2013 decision, at this time and in these
circumstances, is misplaced. The constitutionality of
the Policy Requirement, as applied to any and all foreign
organizations, was never contemplated by the Supreme
Court, as it was never challenged by the Plaintiffs. The
Plaintiffs and District Court misread an excerpt from
one paragraph of the Supreme Court’s 2013 decision to
state that the Government could not constitutionally enforce the Policy Requirement against Plaintiffs’ foreign
affiliates. The relevant paragraph reads as follows:
When we have noted the importance of affiliates in
this context, it has been because they allow an organization bound by a funding condition to exercise its
First Amendment rights outside the scope of the federal program. Affiliates cannot serve that purpose
when the condition is that a funding recipient espouse a specific belief as its own. If the affiliate is
distinct from the recipient, the arrangement does
not afford a means for the recipient to express its
beliefs. If the affiliate is more clearly identified
with the recipient, the recipient can express those
beliefs only at the price of evident hypocrisy.
All. for Open Soc’y Int’l, 570 U.S. at 219 (internal citation omitted). The District Court and Plaintiffs rely
solely on the Supreme Court’s statement regarding the
“evident hypocrisy” of differing policy viewpoints between Plaintiffs and their “clearly identified” affiliates,
but they have taken this statement out of context. The
full excerpt above illustrates that the Supreme Court

35a
did not hold that the “evident hypocrisy” created by affiliates’ differing positions violated the First Amendment in itself, but rather that the Affiliate Guidelines
failed to provide an adequate alternative channel for
Plaintiffs to express their own First Amendmentprotected views while complying with the Policy Requirement themselves. Id.; contrast Regan v. Taxation Without Representation, 461 U.S. 540, 544 (1983)
(noting that a domestic organization which was required
to refrain from lobbying as a condition of its 501(c)(3)
tax-exempt status could form a “dual structure” by establishing a separate 501(c)(4) organization to engage in
lobbying activities with independent funding). Because the Plaintiffs and all other United States-based
organizations are now exempt from the Policy Requirement, they may express their views on prostitution directly and no longer need to make use of the alternative
channel for expression offered by the Government’s Affiliate Guidelines.
Plaintiffs also suggest that the Supreme Court’s 2013
decision must have applied to foreign organizations as
well as domestic organizations because it is a “facial invalidation” of the Policy Requirement. Not so. Plaintiffs repeatedly assured the Supreme Court that they
brought only an as-applied challenge. Brief for Respondents at 42 n.11, U.S. Agency for Int’l Dev. v. All.
for Open Soc’y Int’l, 570 U.S. 205 (2013) (No. 12-10),
2013 WL 1247770; Transcript of Oral Argument at 36,
U.S. Agency for Int’l Dev., 570 U.S. 205 (2013) (No. 12-10).
However, the Supreme Court’s decision can best be understood as striking down the Policy Requirement as ap-

36a
plied to any domestic organization. It is a facial invalidation in the sense that it applies to all United Statesbased organizations, not only the Plaintiffs. The Government has never contested this point. But the Supreme
Court’s decision should not be read as striking down the
Policy Requirement’s application to foreign organizations, both because foreign organizations operating outside the United States have no First Amendment rights
and because Plaintiffs made clear throughout the litigation that they did not challenge the Government’s Policy
Requirement as applied to any foreign organization.
B. Applicable Case Law

Because the Supreme Court’s 2013 decision and the
prior decisions in this litigation did not decide whether
the Government may require foreign organizations to
comply with the Policy Requirement, we must apply
controlling case law upholding restrictions on funding to
foreign organizations.
It is undisputed that Plaintiffs’ foreign affiliates lack
First Amendment rights because they are foreign organizations operating outside the United States. See,
e.g., Zadvydas v. Davis, 533 U.S. 678, 693 (2001) (“It is
well established that certain constitutional protections
available to persons inside the United States are unavailable to aliens outside of our geographic borders.”).
The Plaintiffs do not contest this issue. Instead, Plaintiffs argue that requiring their foreign affiliates to comply with the Policy Requirement violates their own First
Amendment rights because the foreign affiliates’ positions on prostitution will be mistakenly attributed to
Plaintiffs or will contradict Plaintiffs’ own positions on
prostitution, resulting in “evident hypocrisy.”

37a
Because the Plaintiffs may now receive Leadership
Act funding without regard to whether they have an affirmative anti-prostitution policy—in other words, the
Government is no longer compelling the Plaintiffs to
adopt any particular position on prostitution as a condition of Leadership Act funding—the issue in this case is
no longer about Plaintiffs’ free speech rights. Instead,
the current constitutional question turns on Plaintiffs’
right to associate with foreign organizations. Plaintiffs’ argument that their own free speech rights are impacted by their foreign affiliates’ compelled speech assumes that Plaintiffs’ right to associate with foreign affiliates outweighs Congress’s ability to regulate funding
to foreign organizations.
The Supreme Court has held that United States citizens’ First Amendment right to associate with foreigners (aliens) does not override Congress’s plenary power
to decide which aliens to admit to the United States and
which to exclude. Kleindienst v. Mandel, 408 U.S. 753
(1972) (rejecting American scholars’ attempt to compel
admission of a Belgian Marxist scholar who was invited
to an academic conference); see also Kerry v. Din,
135 S. Ct. 2128, 2139-41 (2015) (Kennedy, J., concurring)
(assuming that U.S. citizen wife had a protected liberty
interest in her foreign husband’s admission to United
States, but upholding the Government’s denial of the
husband’s visa because it was based on a “facially legitimate and bona fide” reason). It follows that United
States-based organizations’ First Amendment right to
associate with foreign organizations does not outweigh
the Government’s power to conduct foreign affairs by

38a
deciding which, if any, foreign organizations it wishes to
fund.
We have previously rejected United States-based organizations’ First Amendment challenges to a funding
restriction that applied only to foreign organizations.
Ctr. for Reprod. Law & Pol’y v. Bush, 304 F.3d 183 (2d
Cir. 2002); Planned Parenthood Fed’n of America v.
U.S. Agency for Int’l Dev., 915 F.2d 59 (2d Cir. 1990).10
These cases challenged the Government’s enforcement
of a restriction on foreign funding known as the Mexico
City Policy.11 Under this policy, the Government prohibited grants to foreign NGOs that carried out any activities related to abortion, including privately-funded
speech and activities. Planned Parenthood, 915 F.2d

As noted above, this Court distinguished the Government’s enforcement of restrictions on domestic organizations from cases involving foreign organizations in its 2011 decision in this litigation.
All. for Open Soc’y Int’l, 651 F.3d at 238-39.
11
The Mexico City Policy originated with President Reagan in
1984. See Ctr. for Reprod. Law & Pol’y, 304 F.3d at 187. The policy was rescinded by Presidents Clinton and Obama and reinstated
by Presidents George W. Bush and Trump. See id. at 188; Memorandum, The Mexico City Policy, 82 Fed. Reg. 8495 (Jan. 25, 2017).
Human Rights Watch estimated that the Mexico City Policy has affected approximately $8.8 billion in U.S. funding for global health
efforts, including funds disbursed for HIV/AIDS prevention. See
Human Rights Watch, Trump’s ‘Mexico City Policy’ Or ‘Global Gag
Rule’: Questions & Answers (Feb. 14, 2018, 12:55 AM), https://
www.hrw.org/news/2018/02/14/trumps-mexico-city-policy-or-globalgag-rule.
10

39a
at 61-62.12
Planned Parenthood argued that the restriction on funding to foreign organizations violated its
First Amendment associational rights by “pick[ing]
off or buy[ing] up” potential partner organizations for
abortion-related activities and requiring Planned Parenthood to spend more of its own private funds on such activities. Id. at 63. This Court rejected the First Amendment claim, reasoning that any harm to Planned Parenthood was incidental to the Government’s otherwisenonjusticiable foreign policy decision and that “[s]uch an
incidental effect from the refusal to subsidize the exercise of a constitutional right obviously is not what the
Supreme Court considers ‘an obstacle in the path’ of
plaintiffs seeking to exercise the right.” Id. at 64.13
We explained that:
Were the courts to allow challenges to foreign aid
programs on the ground that the government’s subsidy of a particular viewpoint abroad encourages the
foreign recipients of American aid not to speak or associate with Americans opposed to that viewpoint,

Domestic NGOs that receive Government funding for family
planning may carry out privately-funded abortion-related activities
and pro-abortion advocacy so long as the organizations maintain adequate physical and financial separation between federally-funded
and abortion-related projects. See Rust v. Sullivan, 500 U.S. 173
(1991) (rejecting domestic NGOs’ First Amendment and other challenges to this funding restriction).
13
In a case involving the same restriction, the D.C. Circuit expressed skepticism of the plaintiffs’ argument, but ultimately dismissed a First Amendment right to associate claim on ripeness
grounds. DKT Memorial Fund Ltd. v. U.S. Agency for Int’l Dev.,
887 F.2d 275, 291-98 (D.C. Cir. 1989).
12

40a
the political branches would find it impossible to conduct foreign policy.
Id. at 64. In 2002, we reaffirmed this decision. Ctr.
for Reprod. Law & Pol’y, 304 F.3d at 190-91. The Center for Reproductive Law & Policy (“CRLP”) argued
that “collaboration [with foreign organizations] is essential to their ability to carry out their mission as advocates of reproductive rights,” and listed several ways in
which the organization’s decreased ability to partner
with foreign organizations (because of the funding restriction) hindered its mission. 304 F.3d at 189-90.
We concluded that the case was indistinguishable from
Planned Parenthood, which remained binding given the
lack of intervening Supreme Court authority, and also
rejected CRLP’s due process and equal protection challenges to the funding restriction. Id. at 190-91, 195-98.
Plaintiffs argue that Planned Parenthood and CRLP
are distinguishable because the Policy Requirement
compels speech, whereas the Mexico City Policy only restricted speech.
However, because the compelled
speech and unconstitutional conditions doctrines have
only been applied in the context of restrictions on funding to domestic organizations and United States-based
organizations are no longer bound by the Policy Requirement (remember, foreign organizations operating
outside the United States have no First Amendment
rights), this distinction does not change the outcome.
Further, although it is true that the Mexico City Policy
does not require foreign organizations to affirmatively
state an opposition to abortion, the policy does not distinguish between United States-funded and privatelyfunded activities and has been interpreted broadly: to

41a
receive USAID funding, a foreign NGO must certify
that it “will not, while receiving assistance under the
grant, perform or actively promote abortion as a method
of family planning in AID-recipient countries or provide
funding to other foreign nongovernmental organizations
that conduct such activities.” Ctr. for Reprod. Law &
Pol’y, 304 F.3d at 189 (internal quotation marks omitted). Plaintiffs also argue that Planned Parenthood
and CRLP did not involve “co-branded, clearly identified affiliates that share a common identity with U.S. organizations.” But while our prior decisions did not
turn on the identity of the foreign partner organizations,
the Mexico City Policy applies to all United States funding to foreign organizations, regardless of whether the
foreign organization applying for funding is “cobranded” or “clearly identified” with a United StatesIndeed, Plaintiffs’ case is
based organization.14
weaker than Planned Parenthood’s or CRLP’s because
Plaintiffs are not alleging that they have actually lost
any or all of their foreign affiliates or partners, but rather that their foreign affiliates’ anti-prostitution policies (which the affiliates need only adopt if they apply
for Leadership Act funding) will contradict Plaintiffs’

For example, Save the Children reportedly complies with the
Mexico City Policy. See Benjamin Kentish, Sweden Vows To Stop
Giving Aid To Any Organisations That Follow Donald Trump’s
Anti-Abortion Rule, The Independent (July 12, 2017, 4:27 PM),
https://www.independent.co.uk/news/world/europe/sweden-donaldtrump-anti-abortion-rule-foreign-aide-ban-mexico-policy-organisationspro-life-a7837591.html (stating that Swedish officials identified Save
the Children as a group of organizations that had adopted the Mexico City Policy).
14

42a
views and result in inconsistent positions or “evident hypocrisy.”
It bears repeating that Plaintiffs never challenged
the Government’s application of the Policy Requirement
to their “co-branded” or “clearly identified” foreign affiliates until October 2014. No reference was made to
any “co-branded” or “clearly identified” foreign affiliates that actually existed during the earlier stages of
this litigation, and the majority’s argument to the contrary misreads portions of the record in which the parties and Supreme Court Justices discussed the practical
barriers to establishing purely hypothetical affiliate organizations that would have served as an alternative
channel for the domestic organizations to express their
own anti-prostitution views under the Government’s Affiliate Guidelines. And although the Government has
been requiring all foreign organizations, including
Plaintiffs’ “clearly identified” foreign affiliates, to comply with the Policy Requirement throughout this litigation,15 Plaintiffs have only discussed the harm they face
in hypothetical terms. They have failed to identify even
one specific instance where a foreign affiliate’s position
on prostitution actually resulted in harm such as lost
Leadership Act funding, lost private funding, or even inconsistent messaging (in other words, “evident hypocrisy”). Moreover, any danger of “evident hypocrisy”
resulting from the foreign and domestic organizations’
inconsistent positions on prostitution can be avoided en-

While the District Court enjoined the Policy Requirement as to
Plaintiffs’ foreign affiliates in 2015, that injunction has been stayed
throughout the litigation.
15

43a
tirely if the Plaintiffs’ foreign affiliates use private funding rather than applying for Leadership Act funding.
In this situation, the Plaintiffs would remain eligible for
Leadership Act funding, but would be unable to subgrant Leadership Act funds to their foreign affiliates.
Alternatively, as the Government suggests, the Plaintiffs and their foreign affiliates may use disclaimers (i.e.,
stating specifically that their views on prostitution are
solely their own and do not reflect their international affiliates’ views) to reduce any confusion regarding their
differing approaches to prostitution.
The lack of certainty over which foreign organizations qualify as affiliates is cause for further concern.
Notably, the District Court and Plaintiffs seem to have
ascribed different meanings to the term “affiliate.” In
its 2017 order denying reconsideration, the District
Court referred to the following definitions: (1) “a corporation that is related to another corporation by shareholding or other means of control; a subsidiary, parent,
or sibling corporation,” (quoting Black’s Law Dictionary
69 (10th ed. 2014)); and (2) “a person or organization officially attached to a larger body,” (quoting Oxford English Dictionary). All. for Open Soc’y Int’l, 258 F. Supp.
3d at 396. The Plaintiffs, however, suggest that any foreign partner organization that shares one of the Plaintiffs’
“name, branding, and logo” and “operates within a common corporate framework toward a common mission”
would be covered by the injunction, regardless of whether the organization is “related . . . by shareholding
or other means of control,” so as to satisfy the Black’s
Law Dictionary definition of an affiliate. The District
Court ordered the parties to meet and propose a joint

44a
definition of “affiliate,” or a list of covered foreign affiliates, to help the Government identify which foreign entities are covered by the injunction. But the parties
have not yet agreed on a definition. Thus, it is unclear
whether the injunction can be enforced against the Government (for example, through contempt proceedings)
absent further agreement from the parties regarding
which foreign organizations the injunction applies to.
I recognize that Plaintiffs have a practical interest in
maintaining policy positions that are consistent with
their foreign partners, especially where the United Statesbased and foreign organizations use the same name,
signs, and logos, and attempt to “speak with one voice.”
Requiring Plaintiffs’ foreign affiliates to adopt an antiprostitution policy if they apply for Leadership Act grants
or receive sub-grants from Plaintiffs may result in inconsistent messaging between Plaintiffs and their foreign affiliates, or require Plaintiffs to either go back to
operating directly in foreign countries (re-opening the
branch offices they referred to in their 2008 declarations) or to seek out new foreign partner organizations
for Leadership Act projects. If anything, this dilemma
raises a constitutional question of whether domestic organizations have a First Amendment right to associate
so closely with foreign organizations and whether that
associative right outweighs the Government’s interest in
limiting its funding to foreign organizations. However,
this constitutional question was not decided by the Supreme Court in 2013 and has never been briefed in this
case. Instead, the Plaintiffs and majority seem to assume that a domestic and foreign organization must be
treated as one entity for First Amendment free speech

45a
purposes because the two organizations share the same
name, brand, and mission. Neither the Supreme Court,
nor any court, has ever held as much. In sum, I am unconvinced that any inconvenience or inconsistent policy
positions that may result from the application of the
Policy Requirement to Plaintiffs’ “clearly identified” or
“closely aligned” foreign affiliates amounts to a violation
of Plaintiffs’ own First Amendment rights, especially
because our decisions in Planned Parenthood and CRLP
held that United States-based organizations do not have
an unlimited right to collaborate with foreign organizations. Given the lack of intervening Supreme Court authority, we remain bound by Planned Parenthood and
CRLP, and those decisions control the outcome here.
See United States v. Wilkerson, 361 F.3d 717, 732
(2d Cir. 2004) (“[W]e are not the first panel to address
this issue and are bound by the decisions of prior panels
until such time as they are overruled either by an en
banc panel of our Court or by the Supreme Court.”). I
also agree with the Court’s decisions in Planned Parenthood and CRLP because any other result would allow
United States-based organizations to export their own
First Amendment rights to foreign organizations.
For the reasons discussed above, I would reverse the
District Court’s injunction and hold that the Policy Requirement may constitutionally be applied to any foreign organization, including Plaintiffs’ “clearly identified” foreign affiliates.
I respectfully dissent.

46a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05 Civ. 8209
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
[Filed: Jan. 30, 2015]
DECISION AND ORDER

VICTOR MARRERO, United States District Judge.
I.

INTRODUCTION

Plaintiffs Alliance for Open Society International
(“AOSI”), Open Society Institute (“OSI”) , Pathfinder
International (“Pathfinder”), and Global Health Council
(“GHC”) (collectively “Plaintiffs”) brought action against
defendants, the United States Agency for International
Development (“USAID”), the United States Department of Health and Human Services (“HHS”), and the
United States Centers for Disease Control and Prevention (“CDC”) (collectively “Defendants,” or the “Agencies,” or the “Government”). Plaintiffs sought a pre-

47a
liminary injunction barring the Government from applying 22 U.S.C. Section 7631(f ), which requires an organization to have a “policy explicitly opposing prostitution
and sex trafficking” (the “Policy Requirement”) to be eligible for Government grants under the United States
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the “Leadership Act”). This Court
granted a preliminary injunction barring the Government from enforcing the Policy Requirement against
the Plaintiffs because enforcement would cause Plaintiffs irreparable harm and likely amount to coerced
speech endorsing the Government’s message, thereby
violating their First Amendment right to free speech.
(Dkt. Nos. 49, 53, 83.) This Court’s decision was subsequently affirmed by the Second Circuit and then by
the United States Supreme Court. Alliance for Open
Soc’y Int’l, Inc. v. U.S. Agency for Int’l Dev., 651 F.3d
218, 224 (2d Cir. 2011), aff ’d, 133 S. Ct. 2321 (2013).
The Court will assume familiarity with the legal and factual background through the Supreme Court’s June 20,
2013 decision affirming the preliminary injunction.
By letter dated September 23, 2014, Plaintiffs sought
a pre-motion conference to request the Court convert
the preliminary injunction to a permanent injunction,
also claiming that the Government failed and continues
to fail to comply with the Supreme Court’s ruling in this
case. (Dkt. No. 106.) The Government responded by
letter dated October 3, 2014 (Dkt. No. 107), and the
Plaintiffs replied by letter dated October 9, 2014. (Dkt.
No. 108.) A pre-motion conference was held on October 16, 2014, at which the Court directed both parties to
submit documentation supporting their arguments.

48a
Both parties submitted supporting materials.
Nos. 112-17.)

(Dkt.

Based on the submissions of the parties and the October 16, 2014 hearing, there are six issues to be decided: first, whether the Government has, in accordance with the preliminary injunction issued by this
Court, properly exempted Plaintiffs from meeting the
Policy Requirement; second, whether the language exempting Plaintiffs from the Policy Requirement in the
USAID requests for proposals (“RFPs”) and requests
for applications (“RFAs”) is so confusing that it chills
free speech; third, whether the Supreme Court’s decision that Plaintiffs’ “affiliates” fall within the scope of
the injunction was limited to domestic affiliates, or alternatively, also applies to foreign affiliates; fourth,
whether the preliminary injunction in place requires the
Government to include language exempting Plaintiffs
from the Policy Requirement in its other official communications, including solicitations (“Other Communications”), in addition to in its RFPs and RFAs; fifth,
whether the Supreme Court’s Opinion found 22 U.S.C.
Section 7631(f ) to be unconstitutional on its face such
that the Government should be precluded from enforcing it against all domestic non-government organizations (“NGOs”), or instead whether the Supreme Court
found the Policy Requirement unconstitutional as applied, meaning that the Government should be precluded from enforcing it only against the Plaintiffs in
this action; and sixth, whether the Plaintiffs have met
their burden in seeking a permanent injunction.

49a
II.

A.

DISCUSSION

THE GOVERNMENT’S COMPLIANCE WITH
THE COURT’S PRELIMINARY INJUNCTION

At the October 16, 2014 conference, there was significant argument over how long the Government has
taken to comply with each successive court ruling and
how successful the Government has been with its compliance. The Agencies claim they have complied with
the Court’s preliminary injunction by not enforcing the
Policy Requirement against the Plaintiffs and by adding
language to their grant contracts explicitly exempting
Plaintiffs from fulfilling the Policy Requirement as a
prerequisite to obtaining grant money through the
Leadership Act.
All parties agree that the Government has not actually enforced the Policy Requirement against the Plaintiffs. All parties also agree that RFPs and RFAs referencing the Policy Requirement should make clear that
the Plaintiffs are exempt from it. (See Dkt. Nos. 116,
117.) There is some disagreement, however, regarding
whether all RFPs and RFAs actually contain the required exemption and, if so, whether they have been updated in a timely fashion. (See Dkt. Nos. 116, 117.)
Plaintiffs offer numerous examples of RFPs and RFAs
that the Agencies created and issued after the Supreme
Court’s decision affirming this Court’s preliminary injunction and that do not contain any exemption. (See
Dkt. No. 112, Ex. D.) Again, there is no dispute as to
whether RFAs and RFPs should contain an exemption
for Plaintiffs. Therefore, the Government is directed
to ensure that in fact all RFPs and RFAs referencing

50a
the Policy Requirement include an exemption for the
Plaintiffs.
B.

WHETHER USAID STATES PLAINTIFFS’
EXEMPTION IN AN UNCONSTITUTIONALLY CONFUSING MANNER

Each Agency chose different language to express
Plaintiffs’ exemption from the Policy Requirement.
The Plaintiffs argue that the language USAID uses is
too confusing, such that it unconstitutionally deters
Plaintiffs’ affiliates from applying for Leadership Act
grants by creating an expectation that they will inevitably be rejected for failing to meet the Policy Requirement. (See Dkt. No. 110, at 22.) USAID argues that
the language is clear and it would not deter potential applicants from applying and therefore does not chill
speech. (See id. 24.) The USAID language is as follows:
III. PROHIBITION ON THE PROMOTION OR
ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (SEPTEMBER 2014)
(a) The U.S. Government is opposed to prostitution and related activities, which are inherently
harmful and dehumanizing, and contribute to the
phenomenon of trafficking in persons. None of the
funds made available under this agreement may be
used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in
the preceding sentence shall be construed to preclude the provision to individuals of palliative care,

51a
treatment, or post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven
effective, microbicides.
(b)(1) Except as provided in (b) (2), by accepting this
award or any subaward, a non-governmental organization or public international organization awardee/
subawardee agrees that it is opposed to the practices
of prostitution and sex trafficking.
(b)(2) The following organizations are exempt from
(b)(1):
(I) the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization;
the International AIDS Vaccine Initiative; and
any United Nations agency.
(ii) U.S. non-governmental organization recipients/
subrecipients and contractors/subcontractors.
(iii) Non-U.S. contractors and subcontractors if
the contract or subcontract is for commercial items
and services as defined in FAR 2.101, such as
pharmaceuticals, medical supplies, logistics support, data management, and freight forwarding.
(Dkt. No. 112, Ex. E, at 60-61.)
Plaintiffs point to the language HHS uses to exempt
them from the Policy Requirement as a sufficiently clear
statement of the exemption. HHS’s language is as follows:
A standard term and condition of award will be included in the final notice of award; all applicants will

52a
be subject to a term and condition that none of the
funds made available under this award may be used
to promote or advocate the legalization or practice of
prostitution or sex trafficking. In addition, nonU.S. nongovernmental organizations will also be subject to an additional term and condition requiring the
organization’s opposition to the practices of prostitution and sex trafficking.
(Dkt. No. 112, Ex. F, at 30.)
The Court is not persuaded that the USAID language
is so unclear that it could cause confusion amongst applicants such that they would think the Policy Requirement applies to them, and subsequently not apply for a
grant under the Leadership Act. Though not a model
of statutory clarity, the language and format used by
USAID is relatively common in documents drafted by
attorneys. The Court agrees with the Plaintiffs that
the HHS language is clearer, but that is not to say that
USAID’s choice of different, even if less clear, language
and drafting structure in its contracts rises to the level
of a First Amendment violation. The Constitution does
not command linguistic uniformity or perfect clarity in
government contracts. The Court thus concludes that
the USAID’s wording of its exemption from the Policy
Requirement is not so confusing as to chill free speech
and therefore violate the Constitution. 1

1
Given that the two agencies chose different ways to frame the Policy Requirement exclusion, one simpler and clearer than the other—
as read by organizations directly interested in and affected by the
matter—USAID would be well-advised to consider adopting the

53a
C.

WHETHER FOREIGN AFFILIATES ARE
WITHIN THE SCOPE OF THE SUPREME
COURT’S RULING REGARDING “AFFILIATES”

Plaintiffs argue that the Supreme Court found explicitly that a domestic NGO cannot be compelled to voice a
policy view different from that of its affiliates because
that circumstance would require it to face “the price of
evident hypocrisy,” and that this determination applies
both to Plaintiffs’ foreign and domestic affiliates. Alliance, 133 S. Ct. at 2331. The Government argues that
the Supreme Court’s discussion of affiliates relates to
the Government’s argument that a domestic NGO could
“cabin” the effects of the Policy Requirement by creating a domestic affiliate to adopt the Policy Requirement
while the domestic NGO does not, and thus the Supreme
Court’s discussion of affiliates applies only to domestic
affiliates. The Supreme Court’s characterization of the
Government’s position and what it held on the topic of
affiliates is stated as follows:
The Government suggests the guidelines alleviate
any unconstitutional burden on the respondents’
First Amendment rights by allowing them to either:
(1) accept Leadership Act funding and comply with
Policy Requirement, but establish affiliates to communicate contrary views on prostitution; or (2) decline funding themselves (thus remaining free to express their own views or remain neutral), while creating affiliates whose sole purpose is to receive and
administer Leadership Act funds, thereby “cabin[ing]
HHS provision and thereby avoid further potential confusion and
needless controversy.

54a
the effects” of the Policy Requirement within the
scope of the federal program. Brief for Petitioners
38-39, 44-49.
Neither approach is sufficient.
When we have
noted the importance of affiliates in this context, it
has been because they allow an organization bound
by a funding condition to exercise its First Amendment rights outside the scope of the federal program. See Rust, supra, at 197-98, 111 S. Ct. 1759.
Affiliates cannot serve that purpose when the condition is that a funding recipient espouse a specific belief as its own. If the affiliate is distinct from the
recipient, the arrangement does not afford a means
for the recipient to express its beliefs. If the affiliate is more clearly identified with the recipient, the
recipient can express those beliefs only at the price
of evident hypocrisy. The guidelines themselves
make that clear. See 45 CFR 89.3 (allowing funding recipients to work with affiliates whose conduct
is “inconsistent with the recipient’s opposition to the
practices of prostitution and sex trafficking”).
Alliance, 133 S. Ct. at 2331 (emphasis in original).
As the Supreme Court found, a recipient domestic
NGO’s right to free speech is violated when it must either comply with the Policy Requirement—an example
of forced speech—or face “the price of evident hypocrisy” by taking a stance differing from that of its affiliate. Cast in this light, it is clear that whether the affiliate is foreign or domestic has no bearing on whether the
recipient domestic NGO’s rights would be violated by
expressing contrary positions on the same matter
through its different organizational components. The

55a
nature of the affiliate is not relevant because it is not any
right held by the affiliate that the Supreme Court’s decision protects. Rather, it is the domestic NGO’s constitutional right that the Court found is violated when
the Government forces it to choose between forced
speech and paying “the price of evident hypocrisy.” Id.
That constitutional violation is the same regardless of
the nature of the affiliate.
Accordingly, the Court is persuaded that the Supreme Court’s ruling bars the Defendants from requiring the Plaintiffs or any of their affiliates—foreign or
domestic—to comply with the Policy Requirement.
D.

WHETHER
OTHER
COMMUNICATIONS
MUST ALSO INCLUDE AN EXEMPTION

This Court’s preliminary injunction in 2006 ordered
that “[d]efendants are enjoined from terminating, suspending, denying, refusing to enter into, or denying
funding under, any cooperative agreement, grant, or
contract [with Plaintiffs] as a means of enforcing the
[Policy Requirement].” (Dkt. No. 53.) Further, the
Government is enjoined from “inserting the Policy Requirement in [Plaintiff ’s] cooperative agreements, grants
and contracts for funding under the Act, unless any such
cooperative agreement, grant, or contract also states
that any attempted enforcement of the Policy Requirement during the Preliminary Injunction Period will be
subject to this Order.” (Id.) These prohibitions were
reiterated in this Court’s 2008 preliminary injunction.
(See Dkt. No. 83.) All parties agree that the injunction
requires that the exemption be included in RFPs and
RFAs, but disagree on whether Other Communications
must also include an exemption for Plaintiffs.

56a
Plaintiffs argue that the injunction already requires
an exemption in Other Communications, or in the alternative, that it should, because the same reasons for an
exemption in RFPs and RFAs apply to Other Communications. The Government disagrees, arguing that
the injunction does not reference Other Communications nor does it say or suggest anything that would imply the injunction was meant to include them. The injunction bars the Government from denying grants
based on Plaintiffs’ failure to meet the Policy Requirement, and since the Other Communications are not the
instruments through which funding is granted or denied, the Government claims, including the Policy Requirement without an exemption does not violate the
Court’s preliminary injunction. (See Dkt. No. 117, at
1.) Other Communications are not “legally binding
award documents,” the Government argues, and since a
party can respond to them without yet meeting the Policy Requirement, they cannot violate the Plaintiffs’ right
to free speech by continuing to use the Policy Requirement language without an exemption. (Id.)
The purpose of the preliminary injunction was to bar
the Government from chilling protected speech. The
Policy Requirement chills speech where it prevents a
domestic NGO or its affiliates from obtaining grants under the Leadership Act because it would not adhere to
the Policy Requirement. See Alliance, 133 S. Ct. at
2328 (“ [W]e have held that the Government ‘may not
deny a benefit to a person on a basis that infringes his
constitutionally protected . . . freedom of speech
even if he has no entitlement to that benefit.’ ”) (internal

57a
citations omitted). It goes without saying that an organization that does not bother applying for a Leadership Act grant based on the expectation that the Government will deny the grant for failure to meet the Policy Requirement—where the expectation rose out of the
Government’s own communications—has had its speech
chilled. If the record indicates that speech was chilled
in this manner, then the preliminary injunction has been
violated.
The record indicates domestic NGOs were unsure
whether to respond to these Other Communications because the communications led them to believe the Policy
Requirement would bar them from obtaining grants under the Leadership Act. By letter dated May 4, 2010,
Plaintiffs explained to the Government that “a recently
issued solicitation for contract awards from [the CDC]
includes the full unmodified [Policy Requirement].
[I]t appears that the agency is demanding that all
organizations—including those protected by the injunction certify compliance with the blanket clause in order
to bid for funding.” (Dkt. No. 112, Ex. B.) By letter
dated July 14, 2010, Plaintiffs wrote, “In the face of [the
Court’s injunction,] the solicitations at issue nonetheless
persisted in requiring all applicants for CDC funds—
including [Plaintiffs] to adopt policies opposing prostitution as a precondition of eligibility for funds.” (Id.)
At the October 16, 2014 conference in this matter, counsel for Plaintiffs stated “I can’t tell you how many [of ]
[t]he 70 organizations we represent just decided not to
apply for funding because the policy requirement was in
place . . . What I can tell you is every time [Other

58a
Communications are] issued, I get an email from my clients saying . . . What does this mean? Do we have
to comply with it?” (Dkt. No. 110, at 14.)
The Plaintiff organizations, understandably, believe
the solicitations when the solicitations unqualifiedly
state an applicant must “certify compliance with [the
Policy Requirement], prior to award, in a written statement.” (Id.) Including the Policy Requirement in
Government solicitations without any reference to the
Plaintiffs’ exemption easily could deter grant applications.
On the other side of the calculation, is the minimal
burden to the Government of having to add the exemption language into its Other Communications. The potential for chilling speech far outweighs a minor inconvenience to the Government. Therefore the Court
finds that the Government should include the exemption
in its Other Communications.
E.

WHETHER THE POLICY REQUIREMENT
CAN STILL BE ENFORCED AGAINST NONPLAINTIFFS

Plaintiffs also contend that the Supreme Court ruled
the Policy Requirement statute itself was an unconstitutional violation of the right to free speech, not as applied
but on its face. See Alliance, 133 S. Ct. at 2332 (“The
Policy Requirement compels as a condition of federal
funding the affirmation of a belief that by its nature cannot be confined within the scope of the Government program. In so doing, it violates the First Amendment
and cannot be sustained.”) Based on the Supreme
Court’s decision, this Court foresees no constitutional

59a
application of the Policy Requirement as to domestic
NGOs or their affiliates. For the same reasons that the
Policy Requirement cannot be applied to the Plaintiffs
without violating their constitutional rights, applying it
to other domestic NGOs or their affiliates would likewise violate their constitutional rights.
If the Government intends to apply the Policy Requirement to any organizations whatsoever, then the
Government must show cause identifying which categories of organizations and why imposing the requirement
would not violate the decisions of this Court and the Supreme Court.
F.

CONVERTING THE PRELIMINARY INJUNCTION TO A PERMANENT INJUNCTION

A permanent injunction requires a showing of “(1) irreparable harm and ( 2) actual success on the merits.”
See Ognibene v. Parkes, 671 F.3d 174, 182 (2d Cir. 2011).
This Court has previously found irreparable harm in
this case. (See Dkt. Nos. 49, 53, 83.) This Court now
finds actual success on the merits, in that enforcing the
Policy Requirement against a domestic NGO or its affiliates violates the First Amendment rights of the domestic NGO.
III.

ORDER

For the reasons stated above, it is hereby
ORDERED that the Government is permanently enjoined from issuing any official communications—
including but not limited to RFAs, RFPs, solicitations,
and any guidance—that include the Policy Requirement
without also including a clear exemption for Plaintiffs

60a
and their domestic and foreign affiliates; and it is further
ORDERED that the Government is permanently en-

joined from applying the Policy Requirement to Plaintiffs or their domestic and foreign affiliates; and it is further

ORDERED that the Plaintiffs’ request that USAID
be ordered to use different language in its grant contracts to exempt Plaintiffs from the Policy Requirement
is DENIED; and it is further
ORDERED that the Plaintiffs’ request that the De-

fendants be ordered to pay Plaintiffs’ fees, costs, and expenses incurred in connection with this matter, is DENIED; and it is further
ORDERED that the Plaintiffs’ request for an order

imposing fines for any further violation of the Court’s
orders is DENIED; and it is further

ORDERED that the Government show cause why this

Court should not bar it from enforcing the Policy Requirement against any organization and why allowing
the Government to continue to apply the Policy Requirement would not violate the Supreme Court’s decision in
this matter.
SO ORDERED.

Dated: New York, New York
30 Jan. 2015
/s/

VICTOR MARRERO
VICTOR MARRERO
U.S.D.J.

61a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 05 Civ. 8209
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
Signed: June 6, 2017
DECISION AND ORDER

VICTOR MARRERO, United States District Judge.
Plaintiffs Alliance for Open Society International,
Open Society Institute, Pathfinder International, InterAction, and Global Health Council (collectively ‘‘Plaintiffs’’) brought this action against defendants the United
States Agency for International Development, the
United States Department of Health and Human
Services, and the United States Centers for Disease
Control and Prevention (collectively, ‘‘Defendants’’ or
the ‘‘Government’’). On January 13, 2017, Defendants
moved for reconsideration of this Court’s January 30,
2015 order converting the preliminary injunction issued
by this Court in this matter into a permanent injunction.

62a
(‘‘Motion,’’ Dkt. No. 154.) For the reasons discussed
further below, the Motion is DENIED.
I.

BACKGROUND

In light of this case’s long history before this Court,
the Court assumes familiarity with the factual background and lengthy procedural developments in this litigation and addresses only briefly the relevant background below.
Plaintiffs initiated this litigation in 2005, seeking a
preliminary injunction barring the Government from
applying 22 U.S.C. Section 7631(f ), which requires an
organization, to be eligible for Government grants under
the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the ‘‘Leadership
Act’’), to have a ‘‘policy explicitly opposing prostitution
and sex trafficking’’ (the ‘‘Policy Requirement’’). (See
Dkt. Nos. 1, 20, 84.) This Court granted a preliminary
injunction barring the Government from enforcing the
Policy Requirement against Plaintiffs because enforcement would cause Plaintiffs irreparable harm and amount
to coerced speech endorsing the Government’s message,
thereby violating their First Amendment right to free
speech. (See Dkt. Nos. 49, 53, 83.) This Court’s decision was affirmed by the Second Circuit and subsequently by the United States Supreme Court. See Alliance for Open Soc’y Int’l, Inc. v. U.S. Agency for Int’l
Dev., 651 F.3d 218, 224 (2d Cir. 2011), aff ’d, 570 U.S. 205,
133 S. Ct. 2321, 186 L. Ed. 2d 398 (2013).
By order dated January 30, 2015, this Court converted the preliminary injunction to a permanent injunction. See Alliance for Open Soc’y Int’l, Inc. v. U.S.

63a
Agency for Int’l Dev., 106 F. Supp. 3d 355 (S.D.N.Y.
2015) (‘‘January 2015 Order’’). The January 2015 Order permanently enjoined the Government from ‘‘issuing any official communications . . . that include the
Policy Requirement without also including a clear exemption for Plaintiffs and their domestic and foreign affiliates’’ and ‘‘applying the Policy Requirement to Plaintiffs or their domestic and foreign affiliates[.]’’ Id. at
363. The Court further ordered the Government to
show cause why ‘‘enforcing the Policy Requirement
against any organization and why allowing the Government to continue to apply the Policy Requirement would
not violate the Supreme Court’s decision in this matter.’’
Id. at 363-64.
On January 13, 2017, the Government moved for reconsideration and clarification of the Court’s January
2015 Order. (‘‘Motion,’’ Dkt. No. 153.) Although the
Government notes it may appeal other aspects of the
January 2015 Order, the Motion before the Court ‘‘is
limited to certain aspects of the Court’s ruling.’’
(‘‘Memorandum,’’ Dkt. No. 154, at 2.) In particular, the
Government maintains that ‘‘[t]he injunction against applying the statutory requirement to ‘affiliates’ is unclear, and requires the government to make determinations about who is an ‘affiliate’ without established criteria and based on information the government does not
have.’’ (Id.) The Government argues that this Court
should therefore ‘‘clarify the standards for determining
which affiliates are sufficiently clearly identified with
funding recipients [such] that they are encompassed
within the injunction, and clarify how the application of
that standard would function under the injunction.’’

64a
(Id. at 5.) The Government further contends that the
injunction regarding enforcement of the Policy Requirement against Plaintiffs or domestic affiliates is unnecessary because ‘‘it is undisputed that the Government has
not actually enforced the Policy Requirement against
Plaintiffs or any other U.S.-based organization since the
Supreme Court’s 2013 decision.’’ (Id. at 6 (citation and
quotation marks omitted).)
In addition, the Government argues that the portion
of the January 2015 Order directing the Government to
show cause why its enforcement of the Policy Requirement against any organization would not violate the decisions by the Supreme Court and this Court ‘‘extends
beyond what is necessary to prevent future violations of
what the Court has ruled is required by the Constitution[.]’’ (Id. at 2.) Specifically, the Government argues that ‘‘the injunction’s application to non-parties exceeds the Court’s power, granting relief that plaintiffs
never asked for and do not have standing to ask for.’’
(Id.) Therefore, the Government requests that the
Court withdraw the show cause portion of the January
2015 Order and any contemplated proceeding on the
permanent injunction’s application to other parties.
(See id. at 8.)
The Government also requested that the Court extend the stay granted previously by this Court pending
the Government’s determination whether to file a motion for reconsideration. (See id. at 9-10 (citing Dkt.
Nos. 122, 125, 128, 129, 131, 132, 134, 136, 138, 140, 142,
145, 147, 149, 151).) The Court granted the extension
of the stay pending the resolution of the Motion. (See
Dkt. Nos. 155, 159, 161, 164.)

65a
On February 24, 2017, Plaintiffs filed their opposition
to the Government’s Motion, arguing that the permanent injunction, as stated in the January 2015 Order,
(1) was properly granted; (2) appropriately reaches
Plaintiffs’ foreign affiliates; and (3) is sufficiently clear.
(‘‘Opposition,’’ see Dkt. No. 162, at 6-13.) Plaintiffs argue that the permanent injunction was proper in light of
Plaintiffs’ ‘‘actual success on the merits’’ at every stage
of litigation and because of the Government’s violations
of the preliminary injunction and the Supreme Court’s
2013 decision for over a year by failing to communicate
the exemption to the Policy Requirement in ‘‘other communications[.]’’ (Id. at 6.) Moreover, Plaintiffs argue
that the January 2015 Order explained in detail the rationale for extending the permanent injunction to any
affiliate—foreign or domestic—of a domestic NGO, and
that the Government’s arguments regarding foreign affiliates are simply restatements of arguments it has already presented to this Court at prior stages of litigation. (Id. at 8-9.) Nonetheless, Plaintiffs state that,
although the January 2015 Order is sufficiently clear,
Plaintiffs would be amenable to additional language
clarifying the meaning of ‘‘ ‘clearly identified’ foreign affiliate [.]’’ (Id. at 11; see also id. at 11-13.) Plaintiffs
further argue that, as the Order to Show Cause portion
of the January 2015 Order ‘‘has no injunctive effect and
does not alter the scope of the permanent injunction[,]’’
the Government’s objections to the Order to Show
Cause are misplaced and, therefore, the permanent injunction need not be modified. (Id. at 13.)
Accordingly, Plaintiffs argue that no further stay of
the injunction is warranted and the Plaintiffs should ‘‘at

66a
long last’’ benefit from the relief to which they are entitled. (Id. at 14.)
In its reply memorandum dated March 6, 2017, the
Government reiterates that the permanent injunction
was improper and is insufficiently clear. In addition,
the Government argues that Plaintiffs’ proposals regarding clarifying language or case-by-case review of affiliates would still fail to resolve the Government’s concerns regarding the permanent injunction’s application
to affiliate organizations. (See Dkt. No. 163, at 2-5.)
II.

DISCUSSION

Reconsideration of a previous order by the court is
an ‘‘extraordinary remedy to be employed sparingly in
the interests of finality and conservation of scarce judicial resources.’’ In re Health Mgmt. Sys. Inc. Sec.
Litig., 113 F. Supp. 2d 613, 614 (S.D.N.Y. 2000). The
provision for reargument ‘‘is not a vehicle for relitigating old issues, presenting the case under new theories,
securing a rehearing on the merits, or otherwise taking
a second bite at the apple. . . . ’’ Analytical Surveys, Inc. v. Tonga Partners, L.P., 684 F.3d 36, 52 (2d
Cir. 2012) (citation and internal quotation marks omitted). The primary grounds justifying reconsideration
are ‘‘an intervening change in controlling law, the availability of new evidence, or the need to correct a clear
error or prevent manifest injustice.’’ Kolel Beth Yechiel Mechil of Tartikov, Inc. v. YLL Irrevocable Trust,
729 F.3d 99, 104 (2d Cir. 2013) (quoting Virgin Atl. Airways, Ltd. v. Nat’l Mediation Bd., 956 F.2d 1245, 1255
(2d Cir. 1992)).

67a
Local Rule 6.3 (‘‘Rule 6.3’’), which provides for reconsideration or reargument upon motion, is intended to
‘‘ ‘ensure the finality of decisions and to prevent the
practice of a losing party . . . plugging the gaps of a
lost motion with additional matters.’ ’’ S.E.C. v. Ashbury Capital Partners, No. 00 Civ. 7898, 2001 WL
604044, at *1 (S.D.N.Y. May 31, 2001) (quoting Carolco
Pictures, Inc. v. Sirota, 700 F. Supp. 169, 170 (S.D.N.Y.
1988)). Under Rule 6.3, a moving party must point to
controlling law or factual matters that the court overlooked in its decision on the underlying matter and that
might reasonably be expected to alter the conclusion
reached by the court. See Shrader v. CSX Transp.,
Inc., 70 F.3d 255, 257 (2d Cir. 1995). Rule 6.3 must be
narrowly construed and strictly applied so as to ‘‘avoid
duplicative rulings on previously considered issues’’ and
prevent the rule from being used to advance theories not
previously argued or ‘‘as a substitute for appealing a
final judgment.’’
Montanile v. Nat’l Broad. Co.,
216 F. Supp. 2d 341, 342 (S.D.N.Y. 2002); see also
Shamis v. Ambassador Factors Corp., 187 F.R.D. 148,
151 (S.D.N.Y. 1999).
The Court finds that the Government has failed to
present ‘‘an intervening change in controlling law, the
availability of new evidence, or the need to correct a
clear error or prevent manifest injustice’’ sufficient to
warrant reconsideration of the January 2015 Order.
Kolel Beth, 729 F.3d at 104.
The Motion states the Government’s disagreement
with the January 2015 Order’s issuance of the permanent injunction and the injunction’s reach to foreign af-

68a
filiates, without citing to or presenting new facts, evidence, or intervening legal authority in support of its position. Rather, the Motion repeats almost identically
many of the arguments the Government made previously in opposition to Plaintiffs’ motion to convert the
preliminary injunction to a permanent injunction.
(Compare Dkt. No. 107, at 2, and Dkt. No. 117, at 2, with
Memorandum at 6 (arguing against permanent injunction in light of Government’s alleged compliance with
the preliminary injunction and the Supreme Court’s Order); compare Dkt. No. 107, at 2, with Memorandum at
4 (citing identical authority in support of argument that
injunction should not reach foreign affiliates).)
The Court has already considered and, upon issuing
the January 2015 Order, rejected these arguments.
Without more, the Government presents no basis to reconsider the issuance of the permanent injunction or its
application to foreign and domestic affiliates.
In addition, the Government has failed to show that
the January 2015 Order’s alleged lack of clarity rises to
the level of ‘‘clear error or . . . manifest injustice’’
warranting reconsideration. Kolel Beth, 729 F.3d at
104. A permanent injunction must ‘‘describe in reasonable detail . . . the act or acts restrained or required.’’ Fed. R. Civ. P. 65(d). This Court’s command ‘‘that the Government is permanently enjoined
from applying the Policy Requirement to Plaintiffs or
their domestic and foreign affiliates’’ is straightforward.
Open Soc’y Int’l, 106 F. Supp. 3d at 363. The Government argues that the January 2015 Order provides insufficient guidance on how to identify affiliates covered
by the injunction. An ‘‘affiliate’’ is ‘‘[a] corporation that

69a
is related to another corporation by shareholdings or
other means of control; a subsidiary, parent, or sibling
corporation.’’ Black’s Law Dictionary 69 (10th ed.
2014); see also Affiliate Definition, Oxford English Dictionaries, https://en.oxforddictionaries.com/definition/
affiliate (last visited June 2, 2017) (defining the noun as
‘‘[a] person or organization officially attached to a larger
body’’). The class of nongovernmental organizations,
or corporations, which share such a relationship with
Plaintiffs and are thus affiliates for the purposes of the
permanent injunction is almost certainly limited and ascertainable. Accordingly, the Court finds that the permanent injunction is ‘‘specific and definite enough to apprise [the Government] of the conduct that is being proscribed[,]’’ N.Y. State Nat’l Org. for Women v. Terry,
886 F.2d 1339, 1352 (2d Cir. 1989), and that denying the
Motion on this point would not result in ‘‘clear error or
. . . manifest injustice[,]’’ Kolel Beth, 729 F.3d at 104.
Insofar as the Government needs any additional guidance in defining ‘‘affiliate’’ or identifying specific entities
that would be covered by the definition, Plaintiffs have
offered a reasonable suggestion to develop clarifying
language. The parties therefore should meet and confer in an effort to propose an agreed-upon response
within thirty days of the date of this Order. The parties are directed to submit a report on the status of such
discussions at that time.
The Court also finds that the Government’s arguments concerning the Order to Show Cause contained in
the January 2015 Order are unwarranted. The January 2015 Order noted that, ‘‘[b]ased on the Supreme

70a
Court’s ruling, this Court foresees no constitutional application of the Policy Requirement as to domestic
NGOs or their affiliates.’’ Open Soc’y Int’l, 106 F. Supp.
3d at 363. The January 2015 Order further explained:
For the same reasons that the Policy Requirement
cannot be applied to the Plaintiffs without violating
their constitutional rights, applying it to other domestic NGOs or their affiliates would likewise violate
their constitutional rights. If the Government intends to apply the Policy Requirement to any organizations whatsoever, then the Government must
show cause identifying which categories of organizations and why imposing the requirement would not
violate the decisions of this Court and the Supreme
Court.
Id.
Because the Supreme Court’s 2013 decision squarely
presents the Policy Requirement’s potential violation of
the First Amendment on its face, not merely as applied,
the Court finds no reason why the Order to Show Cause
contained in the January 2015 Order is improper. See
Alliance, 133 S. Ct. at 2332 (‘‘The Policy Requirement
compels as a condition of federal funding the affirmation
of a belief that by its nature cannot be confined within
the scope of the Government program. In so doing, it
violates the First Amendment and cannot be sustained.’’) Although the Government erroneously suggests that this portion of the January 2015 Order extends the injunction to non-parties to this case, it does
no such thing. Accordingly, the Court concludes that
reconsideration or withdrawal of that portion of the January 2015 Order is not warranted, and further notes that

71a
the Government has to date failed to respond to the Order to Show Cause of the January 2015 Order.
Finally, the Court granted a stay of the permanent
injunction pending the Government’s determination regarding whether to file a motion for reconsideration and
then extended the stay pending the resolution of this
Motion. Having found Plaintiffs successful on the merits in the January 2015 Order and now denying the Government’s motion for reconsideration, the Court concludes that the stay of the permanent injunction is no
longer necessary and should be lifted.
III.

ORDER

For the reasons stated above, it is hereby
ORDERED that the Government’s motion for reconsideration and clarification of this Court’s January 30,
2015 order (Dkt. No. 153) is DENIED; and it is further
ORDERED that the stay issued pending this Court’s
decision on the Government’s Motion is LIFTED.

72a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket Nos. 15-974(L), 17-2126(Con)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
OPEN SOCIETY INSTITUTE, PATHFINDER INTERNATIONAL
INC., GLOBAL HEALTH COUNCIL, INTERACTION,
PLAINTIFFS-APPELLEES
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, MARK GREEN, IN HIS OFFICIAL CAPACITY
AS ADMINISTRATOR OF THE UNITED STATES AGENCY FOR
INTERNATIONAL DEVELOPMENT, ROBERT R. REDFIELD,
IN HIS OFFICIAL CAPACITY AS DIRECTOR OF THE UNITED
STATES CENTERS FOR DISEASE CONTROL AND
PREVENTION, AND HIS SUCCESSORS, ALEX M. AZAR II,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, AND HIS SUCCESSORS, UNITED STATES
CENTERS FOR DISEASE CONTROL AND PREVENTION,
AND UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, DEFENDANTS-APPELLANTS
May 10, 2019
AMENDED ORDER

Appellants filed a petition for panel rehearing or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for

73a
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied. Judge Chester J. Straub, a member of the panel,
dissents and would grant panel rehearing.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of the Court

74a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket Nos. 15-974(L), 17-2126(Con)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS-APPELLEES
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS-APPELLANTS
Filed: May 21, 2019
ORDER

Before: CHESTER J. STRAUB, ROSEMARY S. POOLER,
BARRINGTON D. PARKER, Circuit Judges.
Appellants move for a stay of the Court’s mandate
pending the Solicitor General’s determination of
whether to petition for a writ of certiorari. The motion
is on consent.
IT IS HEREBY ORDERED that the motion to stay
the mandate is GRANTED.

75a
For the Court:
Catherine O’Hagan Wolfe,
Clerk of the Court

76a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05 Civ. 8209
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
[Filed: June 29, 2006]
PRELIMINARY INJUNCTION ORDER
VICTOR MARRERO, United States District Judge.

WHEREAS, Plaintiffs Alliance for Open Society International, Inc. (“AOSI”) and Open Society Institute
(“OSI”) filed a complaint on September 23, 2005, against
Defendants the United States Agency for International
Development and Andrew Natsios, in his official capacity as its Administrator (collectively, “USAID”), and
subsequently filed a motion for preliminary injunction
with respect to USAID on September 28, 2005;
WHEREAS, Plaintiffs AOSI and OSI filed an
amended complaint on December 5, 2005, adding Pathfinder International (“Pathfinder”) as a third plaintiff,
and adding as defendants United States Department of

77a
Health and Human Services and Michael O. Leavitt, in
his official capacity as its Secretary, and United States
Centers for Disease Control and Prevention (“CDC”)
and Julie Louise Gerberding in her official capacity as
its Director (collectively, “HHS”; together with USAID,
“Defendants”);
WHEREAS, Pathfinder filed a motion for preliminary injunction with respect to HHS and USAID on December 8, 2005;
WHEREAS, the Court issued a Decision and Order
(the “Order”), dated May 9, 2006, granting AOSI’s and
Pathfinder’s motions for a preliminary injunction;
IT IS THEREFORE ORDERED that,
1. Pending entry of a final judgment on the merits
of the parties’ dispute in this action, or until any reconsideration or modification of the Order is authorized by
the Court (the “Preliminary Injunction Period”):
Defendants are enjoined from terminating, suspending,
denying, refusing to enter into, or denying funding under, any cooperative agreement, grant or contract:
(a) between USAID or HHS and AOSI or Pathfinder;
(b) between USAID or HHS and any other entity that
provides funding to AOSI or Pathfinder under a
cooperative agreement, grant or contract; and
(c) between AOSI or Pathfinder as a sub-recipient,
sub-grantee, or sub-contractor and any entity
with a cooperative agreement, grant or contract
with USAID or HHS;

78a
as a means of enforcing the provision of 22 U.S.C. § 7631(f )
of the United States Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Act of 2003 (the “Act”) requiring that, as a condition to receiving funding under
the Act, AOSI and Pathfinder “have a policy explicitly
opposing prostitution” (the “Policy Requirement”).
2. During the Preliminary Injunction Period, Defendants are also enjoined from taking any enforcement
action of the type listed in 45 C.F.R. § 74.62, or any other
measure directed against AOSI or Pathfinder that is
inconsistent with the Court’s Order, including, but not
limited to, investigating or auditing AOSI or Pathfinder
regarding compliance with the Policy Requirement or inserting the Policy Requirement in AOSI’s or Pathfinder’s
cooperative agreements, grants and contracts for funding under the Act, unless any such cooperative agreement, grant, or contract also states that any attempted
enforcement of the Policy Requirement during the Preliminary Injunction Period will be subject to this Order.
For purposes of this paragraph, “cooperative agreement,
grant, or contract” shall include a sub-agreement, subgrant, or sub-contract.
3. During the Preliminary Injunction Period Defendants are preliminarily enjoined from requiring
AOSI or Pathfinder to enforce the Policy Requirement
against their United States-based sub-recipients, subgrantees and sub-contractors (the “sub-organizations”)
provided that Plaintiffs make a showing that any such
sub-organization is factually and legally similarly situated
to Plaintiffs by submitting to the Court, by letter, a brief
description of such sub- organization’s legal structure,
history and mission, the general program activities in

79a
which it has been engaged and the specific project(s) for
which Plaintiffs have provided funding received pursuant to
the Act. Defendants shall have thirty days following any
such submission by Plaintiffs to respond to Plaintiffs’ letter by letter to the Court presenting any arguments showing cause as to why any such sub-organization does not fall
within the scope and protection of the Order.
4. Defendants are directed to inform all known recipients of grants and cooperative agreements of which
Pathfinder is a sub-recipient, sub-grantee or subcontractor that, during the Preliminary Injunction Period in accordance with the Order, Pathfinder is not required to comply with the Policy Requirement. “Known
recipients” shall include all entities listed on Attachment
A to this Order, and any other similarly situated entity
of which Defendants are aware or become aware.
Dated:

New York, New York
June 26, 2006
/s/

HON. VICTOR MARRERO
HON. VICTOR MARRERO
UNITED STATES DISTRICT JUDGE

80a
ATTACHMENT A
Agreements in which Pathfinder International is a
Subgrantee to a Primary Grant Recipient
♦

♦

♦

Subagreement under GPH A-00-01-00007-00
•

Primary recipient:

Pact Inc.

•

Term:

•

Purpose: Improve Sexually Transmitted Infection (STI) and HIV/AIDS prevention in
Vietnam

•

Agency:

August 30, 2005-August 29, 2006

USAID

Subagreement under 620-A-00-05-00098-00
•

Primary recipient:
Health, Nigeria

Society for Family

•

Term:

•

Purpose: Improve quality of service delivery in target states in Nigeria

•

Agency:

June 8, 2005-June 7, 2010

USAID

Subcontract under 620-A-00-04-00126-00
•

Primary recipient: The Futures Group, LLC

•

Term:

•

Purpose: Institutional capacity building
and education in HIV/AIDS prevention and
reproductive health advocacy in Nigeria

•

Agency:

June 17, 2004-June 16, 20009

USAID

81a
♦

♦

Subagreement under GPH-A-00-02-001-00 and
623-A-00-03-00069-00
•

Primary recipient:

Engenderhealth

•

Term:

•

Purpose: Prevent mother to child transmission in three communities near Arusha,
Tanzania

•

Agency:

July 1, 2005-June 30, 2006

USAID

Subagreement under GPO-A-00-05-00016-00
•

Primary recipient:
Fund, Kenya

Christian Children’s

•

Term:

•

Purpose: Support orphans and other Kenyan children affected by HIV/AIDS

•

Agency:

March 18, 2005-September 30, 2006

USAID

82a
APPENDIX G

1.

22 U.S.C. 2151b-2(a)-(c) provides:

Assistance to combat HIV/AIDS
(a)

Finding

Congress recognizes that the alarming spread of
HIV/AIDS in countries in sub-Saharan Africa, the Caribbean, Central Asia, Eastern Europe, Latin America
and other developing countries is a major global health,
national security, development, and humanitarian crisis.
(b)

Policy
(1) Objectives

It is a major objective of the foreign assistance
program of the United States to provide assistance
for the prevention and treatment of HIV/AIDS and
the care of those affected by the disease. It is the
policy objective of the United States, by 2013, to—
(A)

assist partner countries to—

(i) prevent 12,000,000 new HIV infections
worldwide;
(ii)

support—

(I)
the increase in the number of individuals with HIV/AIDS receiving antiretroviral
treatment above the goal established under
section 7672(a)(3) 1 of this title and increased

1

See References in Text note below.

83a
pursuant to paragraphs (1) through (3) of section 7673(d)1 of this title; and
(II) additional treatment through coordinated multilateral efforts;
(iii) support care for 12,000,000 individuals infected with or affected by HIV/AIDS, including
5,000,000 orphans and vulnerable children affectted by HIV/AIDS, with an emphasis on promoting
a comprehensive, coordinated system of services to
be integrated throughout the continuum of care;
(iv) provide at least 80 percent of the target
population with access to counseling, testing, and
treatment to prevent the transmission of HIV
from mother-to-child;
(v) provide care and treatment services to
children with HIV in proportion to their percentage within the HIV-infected population of a given
partner country; and
(vi) train and support retention of health care
professionals, paraprofessionals, and community
health workers in HIV/AIDS prevention, treatment, and care, with the target of providing such
training to at least 140,000 new health care professionals and paraprofessionals with an emphasis on
training and in country deployment of critically
needed doctors and nurses;
(B) strengthen the capacity to deliver primary
health care in developing countries, especially in subSaharan Africa;

84a
(C) support and help countries in their efforts to
achieve staffing levels of at least 2.3 doctors, nurses,
and midwives per 1,000 population, as called for by
the World Health Organization; and
(D) help partner countries to develop independent, sustainable HIV/AIDS programs.
(2) Coordinated global strategy

The United States and other countries with the
sufficient capacity should provide assistance to countries in sub-Saharan Africa, the Caribbean, Central
Asia, Eastern Europe, and Latin America, and other
countries and regions confronting HIV/AIDS epidemics in a coordinated global strategy to help address generalized and concentrated epidemics through
HIV/AIDS prevention, treatment, care, monitoring
and evaluation, and related activities.
(3) Priorities

The United States Government’s response to the
global HIV/AIDS pandemic and the Government’s
efforts to help countries assume leadership of sustainable campaigns to combat their local epidemics
should place high priority on—
(A)

the prevention of the transmission of HIV;

(B) moving toward universal access to HIV/AIDS
prevention counseling and services;
(C) the inclusion of cost sharing assurances that
meet the requirements under section 2151h of this title; and

85a
(D) the inclusion of transition strategies to ensure sustainability of such programs and activities,
including health care systems, under other international donor support, or budget support by respective
foreign governments.
(c)

Authorization
(1) In general

Consistent with section 2151b(c) of this title, the
President is authorized to furnish assistance, on such
terms and conditions as the President may determine, for HIV/AIDS, including to prevent, treat, and
monitor HIV/AIDS, and carry out related activities,
in countries in sub-Saharan Africa, the Caribbean,
Central Asia, Eastern Europe, Latin America, and
other countries and areas, particularly with respect
to refugee populations or those in postconflict settings in such countries and areas with significant or
increasing HIV incidence rates.
(2) Role of NGOs

It is the sense of Congress that the President
should provide an appropriate level of assistance under paragraph (1) through nongovernmental organizations (including faith-based and community-based
organizations) in countries in sub-Saharan Africa,
the Caribbean, Central Asia, Eastern Europe, Latin
America, and other countries and areas affected by
the HIV/AIDS pandemic, particularly with respect

86a
to refugee populations or those in post-conflict settings in such countries and areas with significant or
increasing HIV incidence rates.. 2
(3) Coordination of assistance efforts

The President shall coordinate the provision of
assistance under paragraph (1) with the provision of
related assistance by the Joint United Nations Programme on HIV/AIDS (UNAIDS), the United Nations Children’s Fund (UNICEF), the World Health
Organization (WHO), the United Nations Development Programme (UNDP), the Global Fund to Fight
AIDS, Tuberculosis and Malaria and other appropriate international organizations (such as the International Bank for Reconstruction and Development),
relevant regional multilateral development institutions, national, state, and local governments of partner countries, other international actors,,2 appropriate governmental and nongovernmental organizations, and relevant executive branch agencies within
the framework of the principles of the Three Ones.
2.

22 U.S.C. 7601 provides:

Findings

Congress makes the following findings:
(1) During the last 20 years, HIV/AIDS has assumed pandemic proportions, spreading from the
most severely affected regions, sub-Saharan Africa
and the Caribbean, to all corners of the world, and
2

So in original.

87a
leaving an unprecedented path of death and devastation.
(2) According to the Joint United Nations Programme on HIV/AIDS (UNAIDS), more than
65,000,000 individuals worldwide have been infected
with HIV since the epidemic began, more than
25,000,000 of these individuals have lost their lives to
the disease, and more than 14,000,000 children have
been orphaned by the disease. HIV/AIDS is the
fourth-highest cause of death in the world.
(3)(A) At the end of 2002, an estimated 42,000,000
individuals were infected with HIV or living with
AIDS, of which more than 75 percent live in Africa or
the Caribbean. Of these individuals, more than
3,200,000 were children under the age of 15 and more
than 19,200,000 were women.
(B) Women are four times more vulnerable to infection than are men and are becoming infected at increasingly high rates, in part because many societies
do not provide poor women and young girls with the
social, legal, and cultural protections against high
risk activities that expose them to HIV/AIDS.
(C) Women and children who are refugees or are
internally displaced persons are especially vulnerable to sexual exploitation and violence, thereby increasing the possibility of HIV infection.
(4) As the leading cause of death in sub-Saharan
Africa, AIDS has killed more than 19,400,000 individuals (more than 3 times the number of AIDS deaths
in the rest of the world) and will claim the lives of one-

88a
quarter of the population, mostly adults, in the next
decade.
(5) An estimated 2,000,000 individuals in Latin
America and the Caribbean and another 7,100,000 individuals in Asia and the Pacific region are infected
with HIV or living with AIDS. Infection rates are
rising alarmingly in Eastern Europe (especially in
the Russian Federation), Central Asia, and China.
(6) HIV/AIDS threatens personal security by affecting the health, lifespan, and productive capacity
of the individual and the social cohesion and economic
well-being of the family.
(7) HIV/AIDS undermines the economic security of a country and individual businesses in that
country by weakening the productivity and longevity
of the labor force across a broad array of economic
sectors and by reducing the potential for economic
growth over the long term.
(8) HIV/AIDS destabilizes communities by striking at the most mobile and educated members of society, many of whom are responsible for security at
the local level and governance at the national and
subnational levels as well as many teachers, health
care personnel, and other community workers vital to
community development and the effort to combat
HIV/AIDS. In some countries the overwhelming
challenges of the HIV/AIDS epidemic are accelerating the outward migration of critically important
health care professionals.
(9) HIV/AIDS weakens the defenses of countries
severely affected by the HIV/AIDS crisis through high

89a
infection rates among members of their military
forces and voluntary peacekeeping personnel. According to UNAIDS, in sub-Saharan Africa, many
military forces have infection rates as much as five
times that of the civilian population.
(10) HIV/AIDS poses a serious security issue for
the international community by—
(A) increasing the potential for political instability and economic devastation, particularly in
those countries and regions most severely affected
by the disease;
(B) decreasing the capacity to resolve conflicts through the introduction of peacekeeping
forces because the environments into which these
forces are introduced pose a high risk for the
spread of HIV/AIDS; and
(C) increasing the vulnerability of local populations to HIV/AIDS in conflict zones from peacekeeping troops with HIV infection rates significantly higher than civilian populations.
(11) The devastation wrought by the HIV/AIDS
pandemic is compounded by the prevalence of tuberculosis and malaria, particularly in developing countries where the poorest and most vulnerable members of society, including women, children, and those
individuals living with HIV/AIDS, become infected.
According to the World Health Organization (WHO),
HIV/AIDS, tuberculosis, and malaria accounted for
more than 5,700,000 deaths in 2001 and caused debilitating illnesses in millions more.

90a
(12) Together, HIV/AIDS, tuberculosis, malaria
and related diseases are undermining agricultural production throughout Africa. According to the United
Nations Food and Agricultural Organization, 7,000,000
agricultural workers throughout 25 African countries
have died from AIDS since 1985. Countries with
poorly developed agricultural systems, which already
face chronic food shortages, are the hardest hit, particularly in sub-Saharan Africa, where high HIV prevalence rates are compounding the risk of starvation
for an estimated 14,400,000 people.
(13) Tuberculosis is the cause of death for one out
of every three people with AIDS worldwide and is a
highly communicable disease. HIV infection is the
leading threat to tuberculosis control. Because HIV
infection so severely weakens the immune system, individuals with HIV and latent tuberculosis infection
have a 100 times greater risk of developing active tuberculosis diseases thereby increasing the risk of
spreading tuberculosis to others. Tuberculosis, in
turn, accelerates the onset of AIDS in individuals infected with HIV.
(14) Malaria, the most deadly of all tropical parasitic diseases, has been undergoing a dramatic resurgence in recent years due to increasing resistance of
the malaria parasite to inexpensive and effective drugs.
At the same time, increasing resistance of mosquitoes to standard insecticides makes control of transmission difficult to achieve. The World Health Organization estimates that between 300,000,000 and
500,000,000 new cases of malaria occur each year, and
annual deaths from the disease number between

91a
2,000,000 and 3,000,000. Persons infected with HIV
are particularly vulnerable to the malaria parasite.
The spread of HIV infection contributes to the difficulties of controlling resurgence of the drug resistant
malaria parasite.
(15) HIV/AIDS is first and foremost a health
problem. Successful strategies to stem the spread
of the HIV/AIDS pandemic will require clinical medical interventions, the strengthening of health care
delivery systems and infrastructure, and determined
national leadership and increased budgetary allocations for the health sector in countries affected by the
epidemic as well as measures to address the social
and behavioral causes of the problem and its impact
on families, communities, and societal sectors.
(16) Basic interventions to prevent new HIV infections and to bring care and treatment to people
living with AIDS, such as voluntary counseling and
testing and mother-to-child transmission programs,
are achieving meaningful results and are costeffective. The challenge is to expand these interventions from a pilot program basis to a national basis in a coherent and sustainable manner.
(17) Appropriate treatment of individuals with
HIV/AIDS can prolong the lives of such individuals,
preserve their families, prevent children from becoming orphans, and increase productivity of such individuals by allowing them to lead active lives and reduce the need for costly hospitalization for treatment
of opportunistic infections caused by HIV.

92a
(18) Nongovernmental organizations, including
faith-based organizations, with experience in health
care and HIV/AIDS counseling, have proven effective in combating the HIV/AIDS pandemic and can
be a resource in assisting indigenous organizations
in severely affected countries in their efforts to provide treatment and care for individuals infected with
HIV/AIDS.
(19) Faith-based organizations are making an important contribution to HIV prevention and AIDS
treatment programs around the world. Successful
HIV prevention programs in Uganda, Jamaica, and
elsewhere have included local churches and faithbased groups in efforts to promote behavior changes
to prevent HIV, to reduce stigma associated with
HIV infection, to treat those afflicted with the disease, and to care for orphans. The Catholic Church
alone currently cares for one in four people being
treated for AIDS worldwide. Faith-based organizations possess infrastructure, experience, and knowledge that will be needed to carry out these programs
in the future and should be an integral part of United
States efforts.
(20)(A) Uganda has experienced the most significant decline in HIV rates of any country in Africa,
including a decrease among pregnant women from
20.6 percent in 1991 to 7.9 percent in 2000.
(B) Uganda made this remarkable turnaround
because President Yoweri Museveni spoke out early,
breaking long-standing cultural taboos, and changed
widespread perceptions about the disease. His leadership stands as a model for ways political leaders in

93a
Africa and other developing countries can mobilize
their nations, including civic organizations, professional associations, religious institutions, business
and labor to combat HIV/AIDS.
(C) Uganda’s successful AIDS treatment and
prevention program is referred to as the ABC model:
“Abstain, Be faithful, use Condoms”, in order of priority. Jamaica, Zambia, Ethiopia and Senegal have
also successfully used the ABC model. Beginning in
1986, Uganda brought about a fundamental change in
sexual behavior by developing a low-cost program
with the message: “Stop having multiple partners.
Be faithful. Teenagers, wait until you are married
before you begin sex.”.
(D) By 1995, 95 percent of Ugandans were reporting either one or zero sexual partners in the past
year, and the proportion of sexually active youth declined significantly from the late 1980s to the mid1990s. The greatest percentage decline in HIV infections and the greatest degree of behavioral change
occurred in those 15 to 19 years old. Uganda’s success shows that behavior change, through the use of
the ABC model, is a very successful way to prevent
the spread of HIV.
(21) The magnitude and scope of the HIV/AIDS
crisis demands a comprehensive, long-term, international response focused upon addressing the causes,
reducing the spread, and ameliorating the consequences of the HIV/AIDS pandemic, including—
(A) prevention and education, care and treatment, basic and applied research, and training of

94a
health care workers, particularly at the community and provincial levels, and other community
workers and leaders needed to cope with the range
of consequences of the HIV/AIDS crisis;
(B) development of health care infrastructure
and delivery systems through cooperative and coordinated public efforts and public and private
partnerships;
(C) development and implementation of national and community-based multisector strategies that address the impact of HIV/AIDS on the
individual, family, community, and nation and increase the participation of at-risk populations in
programs designed to encourage behavioral and
social change and reduce the stigma associated
with HIV/AIDS; and
(D) coordination of efforts between international organizations such as the Global Fund
to Fight AIDS, Tuberculosis and Malaria, the
Joint United Nations Programme on HIV/AIDS
(UNAIDS), the World Health Organization (WHO),
national governments, and private sector organizations, including faith-based organizations.
(22) The United States has the capacity to lead
and enhance the effectiveness of the international
community’s response by—
(A) providing substantial financial resources,
technical expertise, and training, particularly of
health care personnel and community workers and
leaders;

95a
(B) promoting vaccine and microbicide research and the development of new treatment protocols in the public and commercial pharmaceutical research sectors;
(C) making available pharmaceuticals and diagnostics for HIV/AIDS therapy;
(D) encouraging governments and faith-based
and community-based organizations to adopt policies that treat HIV/AIDS as a multisectoral public
health problem affecting not only health but other
areas such as agriculture, education, the economy,
the family and society, and assisting them to develop and implement programs corresponding to
these needs;
(E) promoting healthy lifestyles, including
abstinence, delaying sexual debut, monogamy,
marriage, faithfulness, use of condoms, and avoiding substance abuse; and
(F) encouraging active involvement of the
private sector, including businesses, pharmaceutical and biotechnology companies, the medical and
scientific communities, charitable foundations,
private and voluntary organizations and nongovernmental organizations, faith-based organizations, community-based organizations, and other
nonprofit entities.
(23) Prostitution and other sexual victimization
are degrading to women and children and it should
be the policy of the United States to eradicate such
practices. The sex industry, the trafficking of indi-

96a
viduals into such industry, and sexual violence are additional causes of and factors in the spread of the
HIV/AIDS epidemic. One in nine South Africans is
living with AIDS, and sexual assault is rampant, at a
victimization rate of one in three women. Meanwhile in Cambodia, as many as 40 percent of prostitutes are infected with HIV and the country has the
highest rate of increase of HIV infection in all of
Southeast Asia. Victims of coercive sexual encounters do not get to make choices about their sexual activities.
(24) Strong coordination must exist among the
various agencies of the United States to ensure effective and efficient use of financial and technical resources within the United States Government with
respect to the provision of international HIV/AIDS
assistance.
(25) In his address to Congress on January 28,
2003, the President announced the Administration’s
intention to embark on a five-year emergency plan
for AIDS relief, to confront HIV/AIDS with the goals
of preventing 7,000,000 new HIV/AIDS infections,
treating at least 2,000,000 people with life-extending
drugs, and providing humane care for millions of people suffering from HIV/AIDS, and for children orphaned by HIV/AIDS.
(26) In this address to Congress, the President
stated the following: “Today, on the continent of
Africa, nearly 30,000,000 people have the AIDS virus
—including 3,000,000 children under the age of 15.
There are whole countries in Africa where more than

97a
one-third of the adult population carries the infection. More than 4,000,000 require immediate drug
treatment. Yet across that continent, only 50,000
AIDS victims—only 50,000—are receiving the medicine they need.”.
(27) Furthermore, the President focused on care
and treatment of HIV/AIDS in his address to Congress, stating the following: “Because the AIDS diagnosis is considered a death sentence, many do not
seek treatment. Almost all who do are turned away.
A doctor in rural South Africa describes his frustration. He says, ‘We have no medicines. Many hospitals tell people, you’ve got AIDS, we can’t help you.
Go home and die.’ In an age of miraculous medicines, no person should have to hear those words.
AIDS can be prevented. Anti-retroviral drugs can
extend life for many years * * * Ladies and gentlemen, seldom has history offered a greater opportunity to do so much for so many.”.
(28) Finally, the President stated that “[w]e have
confronted, and will continue to confront, HIV/AIDS
in our own country”, proposing now that the United
States should lead the world in sparing innocent people from a plague of nature, and asking Congress “to
commit $15,000,000,000 over the next five years, including nearly $10,000,000,000 in new money, to turn
the tide against AIDS in the most afflicted nations of
Africa and the Caribbean”.
(29) On May 27, 2003, the President signed this
chapter into law, launching the largest international
public health program of its kind ever created.

98a
(30) Between 2003 and 2008, the United States,
through the President’s Emergency Plan for AIDS
Relief (PEPFAR) and in conjunction with other bilateral programs and the multilateral Global Fund
has helped to—
(A) provide antiretroviral therapy for over
1,900,000 people;
(B) ensure that over 150,000 infants, most of
whom would have likely been infected with HIV
during pregnancy or childbirth, were not infected;
and
(C) provide palliative care and HIV prevention assistance to millions of other people.
(31) While United States leadership in the battles
against HIV/AIDS, tuberculosis, and malaria has had
an enormous impact, these diseases continue to take
a terrible toll on the human race.
(32) According to the 2007 AIDS Epidemic Update of the Joint United Nations Programme on
HIV/AIDS (UNAIDS)—
(A) an estimated 2,100,000 people died of
AIDS-related causes in 2007; and
(B) an estimated 2,500,000 people were newly
infected with HIV during that year.
(33) According to the World Health Organization,
malaria kills more than 1,000,000 people per year,
70 percent of whom are children under 5 years of age.

99a
(34) According to the World Health Organization,
1/3 of the world’s population is infected with the tuberculosis bacterium, and tuberculosis is 1 of the
greatest infectious causes of death of adults worldwide, killing 1,600,000 people per year.
(35) Efforts to promote abstinence, fidelity, the
correct and consistent use of condoms, the delay of
sexual debut, and the reduction of concurrent sexual
partners represent important elements of strategies
to prevent the transmission of HIV/AIDS.
(36) According to UNAIDS—
(A) women and girls make up nearly 60 percent of persons in sub-Saharan Africa who are
HIV positive;
(B) women and girls are more biologically,
economically, and socially vulnerable to HIV infection; and
(C) gender issues are critical components in
the effort to prevent HIV/AIDS and to care for
those affected by the disease.
(37) Children who have lost a parent to HIV/AIDS,
who are otherwise directly affected by the disease, or
who live in areas of high HIV prevalence may be vulnerable to the disease or its socioeconomic effects.
(38) Lack of health capacity, including insufficient personnel and inadequate infrastructure, in
sub-Saharan Africa and other regions of the world is
a critical barrier that limits the effectiveness of efforts to combat HIV/AIDS, tuberculosis, and malaria, and to achieve other global health goals.

100a
(39) On March 30, 2007, the Institute of Medicine
of the National Academies released a report entitled
“PEPFAR Implementation: Progress and Promise”, which found that budget allocations setting percentage levels for spending on prevention, care, and
treatment and for certain subsets of activities within
the prevention category—
(A) have “adversely affected implementation
of the U.S. Global AIDS Initiative”;
(B) have inhibited comprehensive,
grated, evidence based approaches;

inte-

(C) “have been counterproductive”;
(D) “may have been helpful initially in ensuring a balance of attention to activities within the 4
categories of prevention, treatment, care, and orphans and vulnerable children”;
(E) “have also limited PEPFAR’s ability to
tailor its activities in each country to the local epidemic and to coordinate with the level of activities
in the countries’ national plans”; and
(F) should be removed by Congress and replaced with more appropriate mechanisms that—
(i) “ensure accountability for results
from Country Teams to the U.S. Global AIDS
Coordinator and to Congress”; and
(ii) “ensure that spending is directly
linked to and commensurate with necessary ef-

101a
forts to achieve both country and overall performance targets for prevention, treatment,
care, and orphans and vulnerable children”.
(40) The United States Government has endorsed
the principles of harmonization in coordinating efforts to combat HIV/AIDS commonly referred to as
the “Three Ones”, which includes—
(A) 1 agreed HIV/AIDS action framework
that provides the basis for coordination of the
work of all partners;
(B) 1 national HIV/AIDS coordinating authority, with a broadbased multisectoral mandate;
and
(C) 1 agreed HIV/AIDS country-level monitoring and evaluating system.
(41) In the Abuja Declaration on HIV/AIDS, Tuberculosis and Other Related Infectious Diseases, of
April 26-27, 2001 (referred to in this chapter as the
“Abuja Declaration”), the Heads of State and Government of the Organization of African Unity
(OAU)—
(A) declared that they would “place the fight
against HIV/AIDS at the forefront and as the
highest priority issue in our respective national
development plans”;
(B) committed “TO TAKE PERSONAL RESPONSIBILITY AND PROVIDE LEADERSHIP for the activities of the National AIDS
Commissions/Councils”;

102a
(C) resolved “to lead from the front the battle
against HIV/AIDS, Tuberculosis and Other Related Infectious Diseases by personally ensuring
that such bodies were properly convened in mobilizing our societies as a whole and providing focus
for unified national policymaking and programme
implementation, ensuring coordination of all sectors at all levels with a gender perspective and respect for human rights, particularly to ensure
equal rights for people living with HIV/AIDS”;
and
(D) pledged “to set a target of allocating at
least 15% of our annual budget to the improvement of the health sector”.
3.

22 U.S.C. 7611(a) provides:

Development of a comprehensive, five-year, global strategy
(a)

Strategy

The President shall establish a comprehensive, integrated, 5-year strategy to expand and improve efforts to
combat global HIV/AIDS. This strategy shall—
(1) further strengthen the capability of the
United States to be an effective leader of the international campaign against this disease and strengthen
the capacities of nations experiencing HIV/AIDS epidemics to combat this disease;
(2) maintain sufficient flexibility and remain responsive to—
(A) changes in the epidemic;

103a
(B) challenges facing partner countries in developing and implementing an effective national
response; and
(C) evidence-based improvements and innovations in the prevention, care, and treatment of
HIV/AIDS;
(3) situate United States efforts to combat HIV/
AIDS, tuberculosis, and malaria within the broader
United States global health and development agenda,
establishing a roadmap to link investments in specific
disease programs to the broader goals of strengthening health systems and infrastructure and to integrate and coordinate HIV/AIDS, tuberculosis, or malaria programs with other health or development programs, as appropriate;
(4)

provide a plan to—

(A) prevent 12,000,000 new HIV infections
worldwide;
(B) support—
(i) the increase in the number of individuals with HIV/AIDS receiving antiretroviral
treatment above the goal established under
section 7672(a)(3) of this title and increased
pursuant to paragraphs (1) through (3) of section 7673(d) of this title; and
(ii) additional treatment through coordinated multilateral efforts;
(C) support care for 12,000,000 individuals infected with or affected by HIV/AIDS, including

104a
5,000,000 orphans and vulnerable children affected by HIV/AIDS, with an emphasis on promoting a comprehensive, coordinated system of services to be integrated throughout the continuum
of care;
(D) help partner countries in the effort to
achieve goals of 80 percent access to counseling,
testing, and treatment to prevent the transmission of HIV from mother to child, emphasizing a
continuum of care model;
(E) help partner countries to provide care
and treatment services to children with HIV in
proportion to their percentage within the HIVinfected population in each country;
(F) promote preservice training for health
professionals designed to strengthen the capacity
of institutions to develop and implement policies
for training health workers to combat HIV/AIDS,
tuberculosis, and malaria;
(G) equip teachers with skills needed for
HIV/AIDS prevention and support for persons
with, or affected by, HIV/AIDS;
(H) provide and share best practices for combating HIV/AIDS with health professionals;
(I) promote pediatric HIV/AIDS training for
physicians, nurses, and other health care workers,
through public-private partnerships if possible,
including through the designation, if appropriate,
of centers of excellence for training in pediatric

105a
HIV/AIDS prevention, care, and treatment in
partner countries; and
(J) help partner countries to train and support retention of health care professionals and
paraprofessionals, with the target of training and
retaining at least 140,000 new health care professionals and paraprofessionals with an emphasis on
training and in country deployment of critically
needed doctors and nurses and to strengthen capacities in developing countries, especially in subSaharan Africa, to deliver primary health care
with the objective of helping countries achieve
staffing levels of at least 2.3 doctors, nurses, and
midwives per 1,000 population, as called for by the
World Health Organization;
(5) include multisectoral approaches and specific
strategies to treat individuals infected with HIV/AIDS
and to prevent the further transmission of HIV infections, with a particular focus on the needs of families
with children (including the prevention of mother-tochild transmission), women, young people, orphans,
and vulnerable children;
(6) establish a timetable with annual global treatment targets with country-level benchmarks for antiretroviral treatment;
(7) expand the integration of timely and relevant
research within the prevention, care, and treatment
of HIV/AIDS;
(8) include a plan for program monitoring, operations research, and impact evaluation and for the

106a
dissemination of a best practices report to highlight
findings;
(9) support the in-country or intra-regional
training, preferably through public-private partnerships, of scientific investigators, managers, and other
staff who are capable of promoting the systematic uptake of clinical research findings and other evidencebased interventions into routine practice, with the
goal of improving the quality, effectiveness, and local
leadership of HIV/AIDS health care;
(10) expand and accelerate research on and development of HIV/AIDS prevention methods for
women, including enhancing inter-agency collaboration, staffing, and organizational infrastructure dedicated to microbicide research;
(11) provide for consultation with local leaders
and officials to develop prevention strategies and
programs that are tailored to the unique needs of
each country and community and targeted particularly toward those most at risk of acquiring HIV infection;
(12) make the reduction of HIV/AIDS behavioral
risks a priority of all prevention efforts by—
(A) promoting abstinence from sexual activity and encouraging monogamy and faithfulness;
(B) encouraging the correct and consistent
use of male and female condoms and increasing
the availability of, and access to, these commodities;

107a
(C) promoting the delay of sexual debut and
the reduction of multiple concurrent sexual partners;
(D) promoting education for discordant couples (where an individual is infected with HIV and
the other individual is uninfected or whose status
is unknown) about safer sex practices;
(E) promoting voluntary counseling and testing, addiction therapy, and other prevention and
treatment tools for illicit injection drug users and
other substance abusers;
(F) educating men and boys about the risks of
procuring sex commercially and about the need to
end violent behavior toward women and girls;
(G) supporting partner country and community efforts to identify and address social, economic, or cultural factors, such as migration, urbanization, conflict, gender-based violence, lack of
empowerment for women, and transportation patterns, which directly contribute to the transmission of HIV;
(H) supporting comprehensive programs to
promote alternative livelihoods, safety, and social
reintegration strategies for commercial sex workers and their families;
(I) promoting cooperation with law enforcement to prosecute offenders of trafficking, rape,
and sexual assault crimes with the goal of eliminating such crimes; and

108a
(J) working to eliminate rape, gender-based
violence, sexual assault, and the sexual exploitation of women and children;
(13) include programs to reduce the transmission
of HIV, particularly addressing the heightened vulnerabilities of women and girls to HIV in many countries; and
(14) support other important means of preventing
or reducing the transmission of HIV, including—
(A) medical male circumcision;
(B) the maintenance of a safe blood supply;
(C) promoting universal precautions in formal and informal health care settings;
(D) educating the public to recognize and to
avoid risks to contract HIV through blood exposures during formal and informal health care and
cosmetic services;
(E) investigating suspected nosocomial infections to identify and stop further nosocomial
transmission; and
(F) other mechanisms to reduce the transmission of HIV;
(15) increase support for prevention of mother-tochild transmission;
(16) build capacity within the public health sector
of developing countries by improving health systems
and public health infrastructure and developing indicators to measure changes in broader public health
sector capabilities;

109a
(17) increase the coordination of HIV/AIDS programs with development programs;
(18) provide a framework for expanding or developing existing or new country or regional programs,
including—
(A) drafting compacts or other agreements,
as appropriate;
(B) establishing criteria and objectives for
such compacts and agreements; and
(C) promoting sustainability;
(19) provide a plan for national and regional priorities for resource distribution and a global investment plan by region;
(20) provide a plan to address the immediate and
ongoing needs of women and girls, which—
(A) addresses the vulnerabilities that contribute to their elevated risk of infection;
(B) includes specific goals and targets to address these factors;
(C) provides clear guidance to field missions
to integrate gender across prevention, care, and
treatment programs;
(D) sets forth gender-specific indicators to
monitor progress on outcomes and impacts of gender programs;
(E) supports efforts in countries in which
women or orphans lack inheritance rights and

110a
other fundamental protections to promote the passage, implementation, and enforcement of such
laws;
(F) supports life skills training, especially
among women and girls, with the goal of reducing
vulnerabilities to HIV/AIDS;
(G) addresses and prevents gender-based violence; and
(H) addresses the posttraumatic and psychosocial consequences and provides postexposure
prophylaxis protecting against HIV infection to
victims of gender-based violence and rape;
(21) provide a plan to—
(A) determine the local factors that may put
men and boys at elevated risk of contracting or
transmitting HIV;
(B) address male norms and behaviors to reduce these risks, including by reducing alcohol
abuse;
(C) promote responsible male behavior; and
(D) promote male participation and leadership at the community level in efforts to promote
HIV prevention, reduce stigma, promote participation in voluntary counseling and testing, and
provide care, treatment, and support for persons
with HIV/AIDS;
(22) provide a plan to address the vulnerabilities
and needs of orphans and children who are vulnerable to, or affected by, HIV/AIDS;

111a
(23) encourage partner countries to develop
health care curricula and promote access to training
tailored to individuals receiving services through, or
exiting from, existing programs geared to orphans
and vulnerable children;
(24) provide a framework to work with international actors and partner countries toward universal
access to HIV/AIDS prevention, treatment, and care
programs, recognizing that prevention is of particular importance;
(25) enhance the coordination of United States bilateral efforts to combat global HIV/AIDS with other
major public and private entities;
(26) enhance the attention given to the national
strategic HIV/AIDS plans of countries receiving
United States assistance by—
(A) reviewing the planning and programmatic decisions associated with that assistance;
and
(B) helping to strengthen such national strategies, if necessary;
(27) support activities described in the Global
Plan to Stop TB, including—
(A) expanding and enhancing the coverage of
the Directly Observed Treatment Short-course
(DOTS) in order to treat individuals infected with
tuberculosis and HIV, including multi-drug resistant or extensively drug resistant tuberculosis;
and

112a
(B) improving coordination and integration
of HIV/AIDS and tuberculosis programming;
(28) ensure coordination between the Global
AIDS Coordinator and the Malaria Coordinator and
address issues of comorbidity between HIV/AIDS
and malaria; and
(29) include a longer term estimate of the projected resource needs, progress toward greater sustainability and country ownership of HIV/AIDS programs, and the anticipated role of the United States
in the global effort to combat HIV/AIDS during the
10-year period beginning on October 1, 2013.
4.

22 U.S.C. 7621 provides:

Sense of Congress on public-private partnerships
(a)

Findings

Congress makes the following findings:
(1) Innovative partnerships between governments and organizations in the private sector (including foundations, universities, corporations, faithbased and community-based organizations, and other
nongovernmental organizations) have proliferated in
recent years, particularly in the area of health.
(2) Public-private sector partnerships multiply
local and international capacities to strengthen the
delivery of health services in developing countries
and to accelerate research for vaccines and other

113a
pharmaceutical products that are essential to combat infectious diseases decimating the populations of
these countries.
(3) These partnerships maximize the unique capabilities of each sector while combining financial
and other resources, scientific knowledge, and expertise toward common goals which neither the public nor the private sector can achieve alone.
(4) Sustaining existing public-private partnerships and building new ones are critical to the success of the international community’s efforts to combat HIV/AIDS and other infectious diseases around
the globe.
(b)

Sense of Congress

It is the sense of Congress that—
(1) the sustainment and promotion of public-private partnerships should be a priority element of the
strategy pursued by the United States to combat the
HIV/AIDS pandemic and other global health crises;
and
(2) the United States should systematically track
the evolution of these partnerships and work with
others in the public and private sector to profile and
build upon those models that are most effective.

114a
5.

22 U.S.C. 7631(e)-(f ) provides:

Assistance to combat HIV/AIDS
(e)

Limitation

No funds made available to carry out this chapter, or
any amendment made by this chapter, may be used to
promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding
sentence shall be construed to preclude the provision
to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including test kits,
condoms, and, when proven effective, microbicides.
(f )

Limitation

No funds made available to carry out this chapter, or
any amendment made by this chapter, may be used to
provide assistance to any group or organization that
does not have a policy explicitly opposing prostitution
and sex trafficking, except that this subsection shall not
apply to the Global Fund to Fight AIDS, Tuberculosis
and Malaria, the World Health Organization, the International AIDS Vaccine Initiative or to any United Nations agency.
6.

45 C.F.R. 89.3 provides:

Organizational integrity of recipients.

A recipient must have objective integrity and independence from any affiliated organization that engages
in activities inconsistent with the recipient’s opposition

115a
to the practices of prostitution and sex trafficking because of the psychological and physical risks they pose
for women, men and children (“restricted activities”).
A recipient will be found to have objective integrity and
independence from such an organization if:
(a) The affiliated organization receives no transfer
of Leadership Act HIV/AIDS funds, and Leadership Act
HIV/AIDS funds do not subsidize restricted activities;
and
(b) The recipient is, to the extent practicable in the
circumstances, separate from the affiliated organization. Mere bookkeeping separation of Leadership Act
HIV/AIDS funds from other funds is not sufficient.
HHS will determine, on a case-by-case basis and based
on the totality of the facts, whether sufficient separation
exists. The presence or absence of any one or more
factors relating to legal, physical, and financial separation will not be determinative. Factors relevant to this
determination shall include, but not be limited to, the
following:
(1) Whether the organization is a legally separate
entity;
(2) The existence of separate personnel or other allocation of personnel that maintains adequate separation of the activities of the affiliated organization from
the recipient;
(3) The existence of separate accounting and timekeeping records;

116a
(4) The degree of separation of the recipient’s facilities from facilities in which restricted activities occur;
and
(5) The extent to which signs and other forms of
identification that distinguish the recipient from the affiliated organization are present.
7.

79 Fed. Reg. 55,367 (Sept. 16, 2014) provides:

DEPARTMENT OF HEALTH AND HUMAN SERVICES
45 CFR Part 89
Interim Guidance for Implementation of the Organizational Integrity of Entities Implementing Programs and
Activities Under the Leadership Act
AGENCY:

Office of Global Affairs (OGA), Department
of Health and Human Services (HHS).
ACTION:

Notice of interim guidance.

SUMMARY:

This document provides interim guidance
on the implementation of section 301(f ) of the Leadership Act in light of the Supreme Court’s decision in
Agency for Int’l Dev. v. Alliance for Open Soc’y Int’l,
Inc., 133 S. Ct. 2321 (2013) (‘‘AOSI decision’’). While
HHS awarding agencies have implemented the AOSI
decision since its issuance, this document serves to clarify HHS policy. HHS is also currently developing an
amendment to its regulations listed under ‘‘Organizational Integrity of Entities Implementing Programs and
Activities under the Leadership Act’’ to ensure consistency with the decision. HHS has been coordinating
its implementation activities with the Department of

117a
State, Office of the Global AIDS Coordinator (OGAC)
and with the United States Agency for International Development (USAID). While issued through OGA, this
guidance represents the views of the various agencies
within HHS that issue awards with Leadership Act
HIV/AIDS funds, namely, the Centers for Disease Control and Prevention, the National Institutes of Health,
and the Health Resources and Services Administration.
DATES:

Effective September 16, 2014.

FOR FURTHER INFORMATION CONTACT:

Erin
Eckstein, Office of Global Affairs, Department of Health
and Human Services, Room 639H, 200 Independence
Avenue SW., Washington, DC 20201, Telephone (202)
205-3569.
SUPPLEMENTARY INFORMATION:
Background

Section 301(f ) of the Leadership Act, subject to limited exceptions, prohibits the use of Leadership Act
HIV/AIDS funds ‘‘to provide assistance to any group or
organization that does not have a policy explicitly opposing prostitution and sex trafficking.’’ Interpreting the
policy requirement, in 2010, HHS provided, through
rulemaking, that, unless exempted through statute, contractors, grantees, applicants or awardees who receive
Leadership Act funds for HIV/AIDS programs directly

118a
or indirectly from HHS must ‘‘agree that they are opposed to the practices of prostitution and sex trafficking.’’ 45 CFR 89.1(b)1.
In 2005, section 301(f ) was challenged as unconstitutional, and in 2013, the Supreme Court affirmed a Second Circuit decision that upheld a lower court’s preliminary injunction prohibiting the application of the policy
requirement to domestic (United States) organizations,
finding that such a condition of federal funding violates
the First Amendment. Consistent with the Supreme
Court’s decision, the requirement to have a specific policy as stated in section 301(f ) no longer applies to U.S.
organizations.
In coordination with OGAC and USAID, HHS has
ceased applying the policy pledge requirement to U.S.
organizations, whether they are prime recipients or subrecipients of Leadership Act HIV/AIDS funds. However, the requirement remains applicable to foreign organizations.
Guidance

U.S. organizations that are prime recipients or subrecipients of Leadership Act HIV/AIDS funds are not
required to have a policy explicitly opposing prostitution
and sex trafficking. The Department of Health and
Human Services applies the requirement of the Leader-

Title 45, Subtitle A, Subchapter A, Part 89 in this Electronic
Code of Federal Regulations (http://www.ecfr.gov/cgi-bin/retrieve
ECFR?gp=1&SID=70aabffdee1bdb20e22fdde1663cbbaa&ty=
HTML&h=L&r=PART&n=45y1.0.1.1.46).
1

119a
ship Act that organizations have a policy explicitly opposing prostitution and sex trafficking only to foreign
organizations, including foreign affiliates of United
States organizations, whether prime recipients or subrecipients, unless exempted by the Act or implementing
regulations. See, e.g., 48 CFR 352.270-8 (2010).
HHS is currently developing an amendment to its
regulation at 45 CFR part 89 to reflect the AOSI decision and HHS’s implementation of that decision with respect to U.S. organizations and foreign organizations
that are recipients of Leadership Act HIV/AIDS funds.
Authority: 45 CFR part 89; Section 301(f ) of the
United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act of 2003, Public Law 108-25, as
amended, 22 U.S.C. 7601-7682 (‘‘Leadership Act’’).

Dated:

Sept. 11, 2014.

120a
APPENDIX H

Acquisition & Assistance Policy Directive (AAPD)
From the Director, Office of Acquisition & Assistance
Issued:

Feb. 15, 2012

AAPD 12-04
Implementation of the United States Leadership Against
HIV/AIDS, Tuberculosis and Malaria Act of 2003,
as amended—Conscience Clause Implementation,
Medically Accurate Condom Information and
Opposition to Prostitution and Sex Trafficking

Subject Category: ASSISTANCE,
ACQUISITION
MANAGEMENT
Type:

POLICY

121a
*
F.

*

*

*

*

Organization Issues

Sections A.3(b) and C.3(b) in Attachments A and C, respectively, require organizations to state in the award
that they oppose the practices of prostitution and sex
trafficking because of the psychological and physical
risks they pose for women, men, and children. COs/AOs
must therefore consider the “Organizational Integrity
Guidance” below when determining a prospective or existing organization’s eligibility or compliance with these
sections. COs/AOs must also obtain clearance from
Agency legal counsel before issuing any written determination relating to organizational integrity pertaining
to USAID awards.
Organizational Integrity of Recipient
Organizations must state in the award that they oppose
prostitution and sex trafficking because of the psychological and physical risks they pose for women, men, and
children. Due to organizational affiliations, such statement may be adversely implicated by the statements or
activities of an affiliate of the awardee. In such cases,
AOs and COs must consider the below guidance to assess whether there is such a risk. The Federal Acquisition Regulation (FAR) subpart 2.101 defines “Affiliates” as follows:
“Affiliates” means associated business concerns
or individuals if, directly or indirectly—
(1) Either one controls or can control the
other; or
(2) A third party controls or can control both.

122a
There is no corresponding definition of “affiliates” in
USAID assistance regulations.
Contractors and recipients of grants and cooperative
agreements (hereafter collectively referred to as “Recipients”) must have objective integrity and independence from any affiliated organization that engages in activities inconsistent with the Recipient’s opposition to
the practices of prostitution and sex trafficking because
of the psychological and physical risks they pose for
women, men, and children (“restricted activities”). A
Recipient will be found to have objective integrity and
independence from such an organization if:
(1) The affiliated organization receives no transfer
of Leadership Act funds, and Leadership Act funds
do not subsidize restricted activities; and
(2) The Recipient is, to the extent practicable in the
circumstances, separate from the affiliated organization. Mere bookkeeping separation of Leadership
Act funds from other funds is not sufficient. USAID
will determine, on a case-by-case basis and based on
the totality of the facts, whether sufficient separation
exists. The presence or absence of any one or more
factors relating to legal, physical, and financial separation will not be determinative. Factors relevant
to this determination shall include, but are not limited to:
(a) Whether the affiliated organization is a legally separate entity;
(b) The existence of separate personnel or other
allocation of personnel that maintains adequate

123a
separation of the activities of the affiliated organization from the recipient;
(c)
The existence of separate accounting and
timekeeping records;
(d) The degree of separation of the Recipient’s
facilities from facilities in which restricted activities occur; and
(e) The extent to which signs and other forms of
identification that distinguish the Recipient from
the affiliated organization are present.
The following organizations are statutorily-exempt from
the requirement to state in their awards that they oppose the practices of prostitution and sex trafficking because of the psychological and physical risks they pose
for women, men, and children: the Global Fund to Fight
AIDS, Tuberculosis and Malaria; the World Health Organization; the International AIDS Vaccine Initiative;
and any United Nations agency (the “Statutorily-Exempt
Organizations”). As such, AOs for awards to StatutorilyExempt Organizations will not need to consider the “Organizational Integrity Guidance” above.
*

*

*

*

*

A.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Assistance) (April 2010)

Prescription. (Note: This provision is unchanged
from the version in AAPD 05-04 Amendment 3, so it retains the same title and effective date.) AOs must in-

124a
clude the following Standard Provision in any new Request for Applications (RFA) or Annual Program Statement (APS), and any new assistance award, or amendment to an existing award (if not already incorporated
into the agreement) to U.S. NGOs, non U.S. NGOs, or
non-exempt PIOs in accordance with the guidance set
forth in Sections 2.A-2.D of this AAPD. The prime recipient must flow this provision down in all subawards,
procurement contracts or subcontracts.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (APRIL 2010)
(a)

The U.S. Government is opposed to prostitution and related activities, which are inherently harmful and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds made available under this agreement may be used to promote or
advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding sentence shall be construed to preclude the provision to individuals of palliative
care, treatment, or post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective, microbicides.

(b)(1) Except as provided in (b)(2) and (b)(3), by accepting this award or any subaward, a nongovernmental organization or public international organization awardee/subawardee agrees

125a
that it is opposed to the practices of prostitution and sex trafficking because of the psychological and physical risks they pose for
women, men, and children.[7]
*

*

*

*

*

C.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Acquisition) (April 2010)

Prescription. This provision remains unchanged from
the version in AAPD 05-04 Amendment 3, dated April
13, 2010, so it retains the same title and effective date.)
COs must include the following Special Provision in any
new acquisition solicitation, and any new acquisition
award or amendment to an existing award (if not already
incorporated into the award) in accordance with the
guidance set forth in Sections 2.A-2.D of this AAPD.
The prime contractor must flow this provision down in
all subcontracts.

The following footnote should only be included in awards to Alliance for Open Society International (AOSI), Pathfinder, or a member of the Global Health Council (GHC) or InterAction (with the exception of DKT International, Inc.):
7

“Any enforcement of this clause is subject to Alliance for Open
Society International v. USAID, 05 Civ. 8209 (S.D.N.Y., orders
filed on June 29, 2006 and August 8, 2008) (orders granting
preliminary injunction) for the term of the Orders.”
The lists of members of GHC and InterAction can be found at:
[http://www.usaid.gov/business/business_opportunities/cib/pdf/
GlobalHealthMemberlist.pdf.]

126a
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ACQUISITION) (APRIL 2010)
(a)

This contract is authorized under the United
States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (Pub. L.
No. 108-25), as amended. This Act enunciates that the U.S. Government is opposed to
prostitution and related activities, which are
inherently harmful and dehumanizing, and
contribute to the phenomenon of trafficking
in persons. The contractor shall not use any
of the funds made available under this contract to promote or advocate the legalization
or practice of prostitution or sex trafficking.
Nothing in the preceding sentence shall be
construed to preclude the provision to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and
necessary pharmaceuticals and commodities,
including test kits, condoms, and, when proven effective, microbicides.

(b)(1) Except as provided in (b)(2) and (b)(3), by its
signature of this contract or subcontract for
HIV/AIDS activities, a non-governmental organization or public international organization awardee/subawardee agrees that it is opposed to the practices of prostitution and sex
trafficking because of the psychological and

127a
physical risks they pose for women, men, and
children.[9]
*

*

*

*

*

The following footnote should only be included in awards to Alliance for Open Society International (AOSI), Pathfinder, or a member of GHC or InterAction (with the exception of DKT International,
Inc.):
9

“An enforcement of this clause is subject to Alliance for Open
Society International v. USAID, 05 Civ. 8209 (S.D.N.Y., orders
filed on June 29, 2006 and August 8, 2008) (orders granting
preliminary injunction) for the term of the Orders.”
The lists of members of GHC and InterAction can be found at:
[http://www.usaid.gov/business/business_opportunities/cib/pdf/
GlobalHealthMemberlist.pdf ].

128a

Acquisition & Assistance Policy Directive (AAPD)
From the Director, Office of Acquisition & Assistance
Issued:

Sept. 12, 2014

AAPD 14-04
Implementation of the United States Leadership Against
HIV/AIDS, Tuberculosis and Malaria Act of 2003,
as amended—Conscience Clause Implementation,
Medically Accurate Condom Information and
Opposition to Prostitution and Sex Trafficking

Subject Category: ASSISTANCE,
ACQUISITION
MANAGEMENT
Type:

POLICY

129a
*

*

*

*

*

A.4 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Assistance) (September 2014)

This provision must be included in
any new Request for Applications (RFA) or Annual
Program Statement (APS), and any new assistance
award or amendment to an existing award obligating
or intending to obligate (in the case of solicitations)
FY04 or later funds made available for HIV/AIDS activities, regardless of the program account. Further
guidance is found in AAPD 14-04, Section 2.E.
APPLICABILITY:

“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (SEPTEMBER 2014)
(a)

The U.S. Government is opposed to prostitution and related activities, which are inherently harmful and dehumanizing, and contribute to the phenomenon of trafficking in
persons. None of the funds made available
under this agreement may be used to promote or advocate the legalization or practice
of prostitution or sex trafficking. Nothing
in the preceding sentence shall be construed
to preclude the provision to individuals of
palliative care, treatment, or post-exposure
pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including
test kits, condoms, and, when proven effective, microbicides.

130a
(b)(1)

Except as provided in (b)(2), by accepting this
award or any subaward, a non-governmental
organization or public international organization awardee/subawardee agrees that it is
opposed to the practices of prostitution and
sex trafficking.

(b)(2)

The following organizations are exempt from
(b)(1):

(b)(3)

(i)

the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health
Organization; the International AIDS
Vaccine Initiative; and any United Nations agency.

(ii)

U.S. non-governmental organization
recipients/subrecipients and contractors/subcontractors.

(iii)

Non-U.S. contractors and subcontractors if the contract or subcontract is for
commercial items and services as defined in FAR 2.101, such as pharmaceuticals, medical supplies, logistics support, data management, and freight
forwarding.

Notwithstanding section (b)(2)(iii), not
exempt from (b)(1) are non-U.S. recipients,
subrecipients, contractors, and subcontractors that implement HIV/AIDS programs
under this assistance award, any subaward,
or procurement contract or subcontract by:

131a
(i)

Providing supplies or services directly
to the final populations receiving such
supplies or services in host countries;

(ii)

Providing technical assistance and
training directly to host country individuals or entities on the provision of
supplies or services to the final populations receiving such supplies and services; or

(iii)

Providing the types of services listed in
FAR 37.203(b)(1)-(6) that involve giving advice about substantive policies of
a recipient, giving advice regarding the
activities referenced in (i) and (ii), or
making decisions or functioning in a recipient’s chain of command (e.g., providing managerial or supervisory services approving financial transactions,
personnel actions).

(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person for

132a
the purpose of a commercial sex act (22 U.S.C.
7102(9)).
(d) The recipient must insert this provision, which is
a standard provision, in all subawards, procurement contracts or subcontracts for HIV/AIDS
activities.
(e) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award
by USAID prior to the end of its term.
*

*

*

*

*

